<html>
<title> - H.R. 2591, ``MODERNIZING THE PITTMAN-ROBERTSON FUND FOR TOMORROW'S NEEDS ACT OF 2017''; H.R. 4429, ``CORMORANT CONTROL ACT''; H.R. 4609, ``WEST FORK FIRE STATION ACT OF 2017''; H.R. 4647, ``RECOVERING AMERICA'S WILDLIFE ACT''; AND H.R. 4851, ``KENNEDY-KING ESTABLISHMENT ACT OF 2018''</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 
  H.R. 2591, ``MODERNIZING THE PITTMAN-ROBERTSON FUND FOR TOMORROW'S 
NEEDS ACT OF 2017''; H.R. 4429, ``CORMORANT CONTROL ACT''; H.R. 4609, 
   ``WEST FORK FIRE STATION ACT OF 2017''; H.R. 4647, ``RECOVERING 
AMERICA'S WILDLIFE ACT''; AND H.R. 4851, ``KENNEDY-KING ESTABLISHMENT 
                             ACT OF 2018''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                     SUBCOMMITTEE ON FEDERAL LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      Thursday, February 15, 2018

                               __________

                           Serial No. 115-37

                               __________

       Printed for the use of the Committee on Natural Resources



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-684 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  A. Donald McEachin, VA
Garret Graves, LA                    Anthony G. Brown, MD
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Jimmy Gomez, CA
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT
John R. Curtis, UT

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

                     SUBCOMMITTEE ON FEDERAL LANDS

                      TOM McCLINTOCK, CA, Chairman
                      
            COLLEEN HANABUSA, HI, Ranking Democratic Member

Don Young, AK                        Niki Tsongas, MA
Stevan Pearce, NM                    Alan S. Lowenthal, CA
Glenn Thompson, PA                   Norma J. Torres, CA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Scott R. Tipton, CO                  A. Donald McEachin, VA
Bruce Westerman, AR                  Anthony G. Brown, MD
Daniel Webster, FL                   Jimmy Gomez, CA
Jack Bergman, MI                     Vacancy
Liz Cheney, WY                       Raul M. Grijalva, AZ, ex officio
Greg Gianforte, MT
John R. Curtis, UT
Rob Bishop, UT, ex officio

                                 ------     
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, February 15, 2018......................     1

Statement of Members:
    Hanabusa, Hon. Colleen, a Representative in Congress from the 
      State of Hawaii............................................     3
        Prepared statement of....................................     5
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Bergman, Hon. Jack, a Representative in Congress from the 
      State of Michigan..........................................    39
        Prepared statement of....................................    40
    Carson, Hon. Andre, a Representative in Congress from the 
      State of Indiana...........................................     6
    Claramunt, Randy, Lake Huron Basin Coordinator, Michigan 
      Department of Natural Resources, Bay City, Michigan........    42
        Prepared statement of....................................    43
    Cook, Hon. Floyd, County Commissioner, Dolores County, 
      Colorado...................................................    59
        Prepared statement of....................................    61
    Fortenberry, Hon. Jeff, a Representative in Congress from the 
      State of Nebraska..........................................    31
        Prepared statement of....................................    33
    Porter, Hon. Gregory, Indiana State Representative, Kennedy-
      King Memorial Initiative, Chair, Indianapolis, Indiana.....     9
        Prepared statement of....................................    10
    Scott, Hon. Austin, a Representative in Congress from the 
      State of Georgia...........................................    14
    Tipton, Hon. Scott R., a Representative in Congress from the 
      State of Colorado..........................................    55
        Prepared statement of....................................    58
    Ziehmer, Bob, Senior Director of Conservation, Bass Pro 
      Shops, Springfield, Missouri...............................    19
        Prepared statement of....................................    21

Additional Materials Submitted for the Record:
    Alliance for America's Fish & Wildlife, February 13, 2018 
      Letter addressed to Members of Federal Lands Subcommittee 
      on H.R. 4647...............................................    67
    American Woodcock Society and group of other wildlife 
      enthusiasts and conservationists, November 6, 2017 Letter 
      addressed to Chairman Bishop and Ranking Member Grijalva on 
      H.R. 2591..................................................    15
    American Woodcock Society and group of other outdoor 
      enthusiasts, February 14, 2018 Letter addressed to Chairman 
      Bishop and Ranking Member Grijalva on H.R. 4647............    69
    Bass Pro Shops, December 7, 2017 Letter addressed to Chairman 
      Bishop on H.R. 2591........................................    17
    Casamassa, Glenn, Associate Deputy Chief, National Forest 
      System, Statement for the Record on H.R. 4609..............    57
    Dolores County, Colorado, Board of County Commissioners, 
      November 13, 2017 Letter addressed to Members of the Senate 
      and House of Representatives on H.R. 4609..................    56
    Georgia Department of Natural Resources, December 4, 2017 
      Letter addressed to Rep. Austin Scott on H.R. 2591.........    17
    Hogsett, Hon. Joe, Mayor of Indianapolis, Indiana, Statement 
      for the Record on H.R. 4851................................     6
    Kennedy, Robert F., Speech delivered in Indianapolis, Indiana 
      on April 4, 1968 following the assassination of Martin 
      Luther King Jr.............................................     7
    List of documents submitted for the record retained in the 
      Committee's official files.................................    73
    National Park Service, Statement for the Record on H.R. 4851.    70
    National Wild Turkey Federation, February 13, 2018 Letter 
      addressed to Chairman Bishop and Ranking Member Grijalva on 
      H.R. 2591..................................................    18
    National Wildlife Federation, February 15, 2018 Letter 
      addressed to Chairmen Bishop and McClintock and Ranking 
      Members Grijalva and Hanabusa on H.R. 2591 and H.R. 4647...    71
    Theodore Roosevelt Conservation Partnership, February 14, 
      2018 Letter addressed to Chairman McClintock and Ranking 
      Member Hanabusa on H.R. 4647...............................    72
    Theodore Roosevelt Conservation Partnership, February 14, 
      2018 Letter addressed to Chairman McClintock and Ranking 
      Member Hanabusa on H.R. 2591...............................    73
                                     

    LEGISLATIVE HEARING ON H.R. 2591, TO AMEND THE PITTMAN-
ROBERTSON WILDLIFE RESTORATION ACT TO MODERNIZE THE FUNDING OF 
 WILDLIFE CONSERVATION, AND FOR OTHER PURPOSES, ``MODERNIZING 
THE PITTMAN-ROBERTSON FUND FOR TOMORROW'S NEEDS ACT OF 2017''; 
H.R. 4429, TO DIRECT THE SECRETARY OF THE INTERIOR TO REISSUE A 
 RULE RELATING TO EXTENSION OF THE EXPIRATION DATES FOR DOUBLE-
 CRESTED CORMORANT DEPREDATION ORDERS, AND FOR OTHER PURPOSES, 
   ``CORMORANT CONTROL ACT''; H.R. 4609, TO PROVIDE FOR THE 
    CONVEYANCE OF A FOREST SERVICE SITE IN DOLORES COUNTY, 
   COLORADO, TO BE USED FOR A FIRE STATION, ``WEST FORK FIRE 
    STATION ACT OF 2017''; H.R. 4647, TO AMEND THE PITTMAN-
 ROBERTSON WILDLIFE RESTORATION ACT TO MAKE SUPPLEMENTAL FUNDS 
   AVAILABLE FOR MANAGEMENT OF FISH AND WILDLIFE SPECIES OF 
  GREATEST CONSERVATION NEED AS DETERMINED BY STATE FISH AND 
    WILDLIFE AGENCIES, AND FOR OTHER PURPOSES, ``RECOVERING 
   AMERICA'S WILDLIFE ACT''; AND H.R. 4851, TO ESTABLISH THE 
 KENNEDY-KING NATIONAL HISTORIC SITE IN THE STATE OF INDIANA, 
  AND FOR OTHER PURPOSES, ``KENNEDY-KING ESTABLISHMENT ACT OF 
                             2018''

                              ----------                              


                      Thursday, February 15, 2018

                     U.S. House of Representatives

                     Subcommittee on Federal Lands

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:30 p.m., in 
room 1334, Longworth House Office Building, Hon. Tom McClintock 
[Chairman of the Subcommittee] presiding.
    Present: Representatives McClintock, Thompson, Tipton, 
Bergman, Bishop (ex officio), and Hanabusa.
    Also Present: Representatives Austin Scott, Fortenberry, 
Graves of Louisiana, Carson, and Dingell.

    Mr. McClintock. The hour of 2:30 has arrived, and the 
Subcommittee on Federal Lands will come to order. We are 
meeting today to consider five bills that have been submitted 
to the Subcommittee.
    I would ask unanimous consent that all Members on the 
witness list testifying on today's panel be allowed to sit with 
the Subcommittee, give their testimony, and participate in the 
hearing on the dais.
    I would also ask the gentleman from Louisiana, Mr. Graves, 
be allowed to sit with the Subcommittee and participate in the 
hearing, and that the gentlelady from Michigan, Mrs. Dingell, 
be allowed to sit with the Subcommittee and participate for the 
consideration of H.R. 4647. Hearing no objection, so ordered.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman, Ranking Minority Member, 
and Vice Chairman. This will allow us to hear from our 
witnesses sooner and help Members keep to their schedules.
    I would ask unanimous consent that all other Members' 
opening statements be made part of the hearing record if they 
are submitted to the Subcommittee Clerk by 5:00 p.m. today. 
Without objection, so ordered.
    We are continuing a parliamentary experiment here at the 
request of Chairman Bishop. The Committee will consider each 
bill individually, hearing all testimony on that bill. If a 
witness is addressing multiple bills, I think we have one today 
who is doing so, the complete testimony will be heard at one 
time on the first bill to be taken up.
    After all the testimony is heard on the first bill, Members 
will have 5 minutes to ask questions on that bill, and we will 
then hear from our witnesses on the next bill and repeat the 
process.
    It worked out fairly well last week. We will see if it 
works out well again.
    So, with that, we will begin with opening statements.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. As I said, the Subcommittee meets today to 
hear five Federal Lands bills that recognize sites significant 
to our national heritage, protect communities from wildfire, 
promote sportsmen's access, take a hard look at how our Federal 
wildlife conservation programs operate, and the impacts and 
unintended consequences of conservation efforts on local 
communities.
    H.R. 2591, by Congressman Austin Scott, amends the Pittman-
Robertson Wildlife Restoration Act to modernize the funding for 
wildlife conservation.
    The legislation clarifies that in addition to providing the 
funds to support the management of wildlife populations in 
their habitat, one of the purposes of the Pittman-Robertson Act 
is to extend financial and technical assistance to states for 
the promotion of hunting and recreational shooting. After all, 
the fund is dependent on hunters and recreational shooters in 
the first place. It comes to us with the support of many 
sportsmen and conservation organizations.
    H.R. 4429, by Congressman Bergman of Michigan, directs the 
Secretary of the Interior to reissue a final rule on double-
crested cormorant depredation orders to address conflicts 
between cormorants' natural feeding habitats and challenges 
they pose for the aquaculture and commercial and sportfishing 
industries in the Great Lakes region of the United States.
    H.R. 4609, introduced by Congressman Scott Tipton of 
Colorado, would authorize the U.S. Forest Service to convey 
approximately 3.61 acres of Forest Service land in Dolores 
County, Colorado, to the county for the purpose of constructing 
a fire station and to provide fire protection to public and 
private lands in the region.
    H.R. 4647, by Congressman Jeff Fortenberry of Nebraska, 
would amend the Pittman-Robertson Wildlife Restoration Act and 
create a Wildlife Conservation and Restoration Subaccount to 
support state-based wildlife conservation and management 
projects.
    Finally, H.R. 4851, by Congressman Andre Carson of Indiana, 
would designate the site in Indianapolis, Indiana, where Robert 
F. Kennedy gave his first remarks after learning of the death 
of Dr. Martin Luther King, Jr. as the Kennedy-King National 
Historic Site.
    I would like to thank our witnesses for appearing before 
the Subcommittee today. I look forward to hearing their 
testimony.
    With that, I yield back.

    [The prepared statement of Mr. McClintock follows:]
 Prepared Statement of the Hon. Tom McClintock, Chairman, Subcommittee 
                            on Federal Lands
    In furtherance of this Subcommittee's core objectives to restore 
sound management and public access to public lands, and ensure the 
Federal Government is a good neighbor to public lands communities, 
today the Subcommittee meets to consider five bills that recognize 
sites significant to our national heritage, protect communities from 
wildfire, promote sportsmen's access, and take a hard look at how our 
Federal wildlife conservation programs operate, and the impacts and 
unintended consequences of conservation efforts on local communities.
    H.R. 2591, introduced by the gentleman from Georgia, Representative 
Austin Scott, amends the Pittman-Robertson Wildlife Restoration Act to 
modernize the funding for wildlife conservation. The legislation 
clarifies that--in addition to providing the funds to support the 
management of wildlife populations and their habitat--one of the 
purposes of the Pittman-Robertson Act is to extend financial and 
technical assistance to states for the promotion of hunting and 
recreational shooting.
    H.R. 4429, introduced by a member of this Subcommittee, the 
gentleman from Michigan, General Bergman, directs the Secretary of the 
Interior to reissue a final rule on double-crested cormorant 
depredation orders to address conflicts between cormorants' natural 
feeding habits and challenges they pose for the aquaculture and 
commercial and sportfishing industries in the Great Lakes region of the 
United States.
    H.R. 4609, introduced by the gentleman from Colorado, 
Representative Scott Tipton, would authorize the U.S. Forest Service to 
convey approximately 3.61 acres of Forest Service land in Dolores 
County, Colorado to the county for the purposes of constructing a fire 
station to provide fire protection to public and private lands in the 
region.
    H.R. 4647, introduced by the gentleman from Nebraska, 
Representative Jeff Fortenberry, would amend the Pittman-Robertson 
Wildlife Restoration Act and create a Wildlife Conservation and 
Restoration Subaccount to support state-based wildlife conservation and 
management projects.
    Finally, H.R. 4851, introduced by Representative Andre Carson of 
Indiana, would designate the site in Indianapolis, Indiana where Robert 
F. Kennedy gave his first remarks after learning of the death of Dr. 
Martin Luther King, Jr. as the Kennedy-King National Historic Site.
    I'd like to thank our witnesses for appearing before the 
Subcommittee today and look forward to hearing their testimony.

                                 ______
                                 

    Mr. McClintock. I now recognize the Ranking Member for her 
opening statement.

  STATEMENT OF THE HON. COLLEEN HANABUSA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF HAWAII

    Ms. Hanabusa. Thank you, Mr. Chairman.
    These bills are focused on a wide range of issues.
    First, H.R. 2591, introduced by Representative Austin Scott 
of Georgia, amends the Pittman-Robertson Wildlife Restoration 
Act, a law that directs taxed revenue from sporting arms and 
ammunitions to states for wildlife management and conservation. 
This bill would increase flexibility to use funds for the 
construction of public shooting ranges and enhance recruitment 
for hunting and shooting sports.
    While I understand the rationale for this change, these are 
goals that could detract from wildlife conservation and 
restoration efforts, the original intent of Pittman-Robertson. 
Just this week, President Trump released a disappointing budget 
proposal to cut funding for the Interior Department by 17 
percent.
    Second, H.R. 4429, introduced by Representative Jack 
Bergman of Michigan, would require Interior Secretary Zinke to 
reinstate two depredation orders for double-crested cormorants. 
These orders were vacated by a Federal judge who found that the 
agency had not done its due diligence to take a hard look at 
the science to justify reissuing the orders.
    I completely understand the importance of fisheries that 
support aquatic life and the need to find a balance between 
competing interests. However, I also think it is important that 
we allow the Fish and Wildlife Service to get this right.
    The Fish and Wildlife Service has already completed the 
environmental assessment and reissued the depredation order for 
impacts to aquaculture, and they are also currently engaged in 
the environmental review for impacts to free-swimming fish.
    Forcing a reissuance without adequately addressing the 
science sets a bad precedent that this Committee should want to 
avoid.
    H.R. 4609, introduced by Represent Scott Tipton of 
Colorado, authorizes a conveyance of about 3 acres of National 
Forest System land to Dolores County, Colorado, for a fire 
station and related infrastructure. The bill includes a 
reversionary clause, so ownership would revert to the United 
States if there are land-use changes.
    Although the Forest Service is in support of the 
conveyance, there is some concern about not requiring a market 
value compensation for the land. I look forward to learning 
more about the issue from Representative Tipton and the County 
Commissioner, Floyd Cook.
    The next bill is H.R. 4647, introduced by Representative 
Jeff Fortenberry of Nebraska and Debbie Dingell of Michigan, 
which increases funding to states for wildlife conservation by 
directing Federal tax revenue from onshore and offshore oil and 
gas activity to state fish and wildlife departments.
    With multiple attacks on our Nation's conservation efforts, 
I am pleased to see a bipartisan effort to support wildlife. I 
look forward to learning more about this effort from 
Representative Fortenberry.
    The last bill we are looking at today is H.R. 4851, 
introduced by Representative Andre Carson of Indiana. This bill 
authorizes the National Park Service to acquire Kennedy-King 
Park in Indianapolis, Indiana, and establish the Kennedy-King 
National Historic Site as a unit of the National Park System.
    This site is a touching tribute to Robert Kennedy's speech 
made shortly after Dr. Martin Luther King's assassination. The 
local community erected a memorial sculpture in honor of the 
speech and now wants national recognition.
    Although the support is laudable, the site has not been 
evaluated by the National Park Service for designation, so it 
is unclear whether the park meets the appropriate criteria.
    Because of the incredible history involved in this bill's 
request, I look forward to learning more about this issue from 
Representative Carson and Indiana State Representative Gregory 
Porter.
    With that, Mr. Chairman, I yield back the balance of my 
time.

    [The prepared statement of Ms. Hanabusa follows:]
   Prepared Statement of the Hon. Colleen Hanabusa, Ranking Member, 
                     Subcommittee on Federal Lands
    Thank you, Mr. Chairman. Today, we meet to discuss five bills that 
impact conservation, land use, and wildlife.
    The bills are focused on a pretty wide range of issues, but I am 
glad we are able to continue with this hearing despite the fact that 
tomorrow's votes were canceled and many of our colleagues are getting 
ready to head back to their districts.
    First, H.R. 2591 introduced by Representative Scott of Georgia 
amends the Pittman-Robertson Wildlife Restoration Act, a law that 
directs taxed revenue from sporting arms and ammunition to states for 
wildlife management and conservation. This proposed amendment would 
increase flexibility to use funds for the construction of public 
shooting ranges and enhance recruitment for hunting and shooting 
sports.
    While I understand that rationale for this change, these are goals 
that could potentially detract from wildlife conservation and 
restoration efforts, the original intent of Pittman-Robertson.
    Just this week, President Trump released a budget proposal to cut 
funding for the Interior Department by 14 percent. Trump's dirty budget 
promotes energy development over all other concerns and seriously 
threatens national conservation efforts, so we should tread lightly 
with plans to retool programs like Pittman-Robertson that are designed 
to protect and conserve our natural areas, public lands, clean air and 
water.
    Second, H.R. 4429 introduced by Representative Jack Bergman of 
Michigan would require the Interior Secretary Zinke to reinstate two 
depredation orders for Double-Breasted Cormorants. These orders were 
vacated by a Federal judge who found that the agency had not done its 
due diligence to take a hard look at the science to justify reissuing 
the orders.
    Coming from Hawaii, I completely understand the importance of 
fisheries and the need to find a balance between competing interests. 
However, I also think it is important that we allow the Fish and 
Wildlife Service to get this right. The agency has already completed 
the Environmental Assessment and reissued the depredation order for 
impacts to aquaculture, and they are currently engaged in the 
environmental review for impacts to free-swimming fish.
    Forcing a reissuance without adequately addressing the science sets 
a bad precedent that this Committee should want to avoid.
    Third, H.R. 4609 introduced by Representative Tipton of Colorado 
authorizes a conveyance of about 3 acres of National Forest System land 
to Dolores County, Colorado for a fire station and related 
infrastructure. The bill includes a reversionary clause, so ownership 
would revert to the United States if there are land-use changes.
    Although the Forest Service is in support of the conveyance, there 
is some concern about not requiring a market value compensation for the 
land. I look forward to learning more about this issue from 
Representative Tipton and County Commissioner Floyd Cook.
    The next bill is H.R. 4647, introduced by Representative 
Fortenberry of Nebraska and Representative Dingell of Michigan, which 
would increase funding to states for wildlife conservation by directing 
Federal tax revenue from onshore and offshore oil and gas activity to 
state fish and wildlife departments.
    With the many attacks on our Nation's conservation efforts, I am 
pleased to see a bipartisan effort to do the right thing. I look 
forward to learning more about this effort from Representative 
Fortenberry.
    The last bill we are looking at today is H.R. 4851, introduced by 
Representative Carson of Indiana, which authorizes the National Park 
Service to acquire Kennedy-King Park in Indianapolis, Indiana and 
establishes the Kennedy-King National Historic Site as a unit of the 
National Park System.
    It is a touching tribute to Robert Kennedy's speech shortly after 
Dr. Martin Luther King's assassination by the local community who 
erected a memorial sculpture in honor of the speech and now want 
national recognition. Although the support is laudable, the site has 
not been evaluated by the National Park Service for designation, so it 
is unclear whether the park meets the appropriate criteria.
    Because of the incredible history involved in the bill's request, I 
look forward to learning more about this issue from Representative 
Carson and Indiana State Representative Gregory Porter.
    With that, Mr. Chairman, I yield back the balance of my time.

                                 ______
                                 

    Mr. McClintock. Thank you very much.
    We will now take up H.R. 4851, by Congressman Andre Carson. 
The gentleman is recognized for 5 minutes to discuss his bill.

    STATEMENT OF THE HON. ANDRE CARSON, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mr. Carson. Thank you, Chairman McClintock and Ranking 
Member Hanabusa, my buddy. It is a pleasure to be here today 
with you all, members of the Federal Lands Subcommittee. I 
especially want to thank Chairman Bishop for his leadership and 
hard work regarding this matter and Ranking Member Grijalva for 
his leadership, as well, and their efforts to protect a very 
special place in Indiana.
    H.R. 4851 is a bipartisan and bicameral bill with the full 
support of the entire Indiana congressional delegation, 
including my colleague Representative Susan Brooks, who has 
helped move this bill forward.
    I also want to thank one of my heroes, Representative John 
Lewis, and my friend, Representative Joe Kennedy, for joining 
the Hoosier delegation as original co-sponsors.
    Our Indianapolis Mayor Joe Hogsett is also a strong 
supporter of this bill. He wasn't able to be here today, so I 
have a statement from him for the record I would like to enter.
    Mr. McClintock. Without objection.

    [The information follows:]
            Hon. Joe Hogsett, Mayor of Indianapolis, Indiana
                        Statement for the Record
    As mayor of the city of Indianapolis, I strongly support H.R. 4851, 
the pending legislation establishing the Kennedy-King National Historic 
Site within Dr. Martin Luther King, Jr. Park. I'm honored to be working 
with our local congressional members, Rep. Carson, Rep. Brooks, Sen. 
Young and Sen. Donnelly, to highlight for the nation the history and 
importance of this site.
    On the evening of April 4, 1968, Senator Robert F. Kennedy climbed 
onto the back of a flat-bed truck and delivered news to a crowd, 
largely unaware, that the Reverend Dr. Martin Luther King, Jr. had been 
assassinated. And while across the country, communities found 
themselves swept up in the winds of calamity, the city of Indianapolis 
remained united; standing in solidarity, and standing in peace. Their 
names--Bobby and Martin, Kennedy and King--have become cornerstones of 
our country, guideposts during some our nation's darkest chapters in 
the decades since.
    Located on the corner of Broadway Street and East 17th Street in 
the heart of our city, Dr. Martin Luther King, Jr. Park serves as a 
bedrock for the community. What was a place of near-panic almost 50 
years ago, is now a place where children--regardless of race or gender 
or class or religion--are now able to run and play and imagine each 
day. That is Indianapolis' legacy.
    As the 50th anniversary of that fateful night draws near, and given 
the rich history of the park and the Landmark for Peace Memorial that 
stands at its center, I believe there is no place more deserving of a 
National Historic Site designation and I am proud to offer my support.

                                 ______
                                 

    Mr. Carson. I am also happy to welcome a very good friend 
and leader in our state and nationwide. That is Representative 
Greg Porter, who traveled here from Indy to testify today.
    H.R. 4851 will establish a unit of the National Park System 
to preserve and protect the place where Senator Robert F. 
Kennedy gave an extraordinary speech in Indianapolis in the 
spring of 1968. This historic location needs to remain 
available and interpreted for the benefit of present and future 
generations.
    Some of my colleagues might not be aware that on April 4, 
1968, Robert Kennedy had scheduled a speech in Indianapolis, 
Indiana, during his campaign for the Presidency of the United 
States. However, just before he was to give remarks, Senator 
Kennedy was told of the assassination of Dr. Martin Luther 
King, before the news became widely known. His adviser said he 
should not speak. They suggested he should just scrub the event 
in light of this terrible news.
    But Robert Kennedy wanted to speak. Despite the risks of 
outburst or interruptions, he had something important to say, 
in person, face-to-face, to those gathered. He changed his 
planned remarks on the fly, and broke the news of Dr. King's 
assassination to the large crowd assembled in the local park. 
He called for a nonviolent response to Dr. King's death.
    Robert Kennedy's speech has been described as one of the 
greatest addresses of the 20th century, as a call for unity and 
nonviolence in a time of great unrest.
    I would like to include the text of the speech into the 
hearing record.
    Mr. McClintock. Without objection.

    [The information follows:]

Senator Robert F. Kennedy
Indianapolis, Indiana
April 4, 1968

    I have bad news for you, for all of our fellow citizens, and people 
who love peace all over the world, and that is that Martin Luther King 
was shot and killed tonight.
    Martin Luther King dedicated his life to love and to justice for 
his fellow human beings, and he died because of that effort.
    In this difficult day, in this difficult time for the United 
States, it is perhaps well to ask what kind of a nation we are and what 
direction we want to move in. For those of you who are black--
considering the evidence there evidently is that there were white 
people who were responsible--you can be filled with bitterness, with 
hatred, and a desire for revenge. We can move in that direction as a 
country, in great polarization--black people amongst black, white 
people amongst white, filled with hatred toward one another.
    Or we can make an effort, as Martin Luther King did, to understand 
and to comprehend, and to replace that violence, that stain of 
bloodshed that has spread across our land, with an effort to understand 
with compassion and love.
    For those of you who are black and are tempted to be filled with 
hatred and distrust at the injustice of such an act, against all white 
people, I can only say that I feel in my own heart the same kind of 
feeling. I had a member of my family killed, but he was killed by a 
white man. But we have to make an effort in the United States, we have 
to make an effort to understand, to go beyond these rather difficult 
times.
    My favorite poet was Aeschylus. He wrote: ``In our sleep, pain 
which cannot forget falls drop by drop upon the heart until, in our own 
despair, against our will, comes wisdom through the awful grace of 
God.''
    What we need in the United States is not division; what we need in 
the United States is not hatred; what we need in the United States is 
not violence or lawlessness; but love and wisdom, and compassion toward 
one another, and a feeling of justice toward those who still suffer 
within our country, whether they be white or they be black.
    So I shall ask you tonight to return home, to say a prayer for the 
family of Martin Luther King, that's true, but more importantly to say 
a prayer for our own country, which all of us love--a prayer for 
understanding and that compassion of which I spoke.
    We can do well in this country. We will have difficult times; we've 
had difficult times in the past; we will have difficult times in the 
future. It is not the end of violence; it is not the end of 
lawlessness; it is not the end of disorder.
    But the vast majority of white people and the vast majority of 
black people in this country want to live together, want to improve the 
quality of our life, and want justice for all human beings who abide in 
our land.
    Let us dedicate ourselves to what the Greeks wrote so many years 
ago: to tame the savageness of man and make gentle the life of this 
world.
    Let us dedicate ourselves to that, and say a prayer for our country 
and for our people.

                                 ______
                                 

    Mr. Carson. The local park was renamed the Dr. Martin 
Luther King Jr. Park after his death and is owned by the city 
of Indianapolis. In 1994, a memorial sculpture to honor Dr. 
King and Mr. Kennedy was erected on the park site. This 
continues to be a vital community space, but it could be so 
much more if we are successful in elevating this place to a 
national historic site.
    The city of Indianapolis looks forward to working with the 
National Park Service to transfer the Kennedy-King speech area 
to the Federal Government and arranging collaborative 
agreements that will make this a win-win for everyone.
    As we approach the 50th anniversary of RFK's speech, it 
becomes very clear that America needs this national treasure to 
be preserved and promoted beyond the residents of Indianapolis. 
This powerful message of nonviolence in response to violence is 
more timely now than ever.
    The Smithsonian has described the 1968 speech and that year 
as the year that shattered America. It was a time when 
divisions were sharp and the morale of our country was low. 
Many stirred up hatred and fear with venomous rhetoric, which 
drove people long left out of America's bounty to the limits of 
their humanity.
    Many cities erupted in flames and violent riots. When other 
cities expressed their pain, anger, and disenfranchisement with 
destruction, Robert Kennedy's calm voice of reason changed the 
hearts and minds of people who were feeling so much pain. 
Indianapolis was the only major city in America that did not 
burn in that season of pain and violent disruption.
    JFK was assassinated. MLK was assassinated. And just 2 
months after RFK's emotional speech in Indy, he was 
assassinated. But in his youth and his ability to feel the pain 
of others, RFK called on those who were hurting to turn away 
from violence and hate and practice what MLK practiced. This 
message and this special place needs to be shared with all 
Americans across the country today and in the future.
    I look forward to working with the Committee to report this 
bill. And thank you for your time and allowing me to testify 
today.
    Mr. McClintock. The gentleman's time has expired.
    The Committee is now pleased to welcome the Honorable 
Gregory Porter, Indianapolis State Representative. He is the 
Chairman of the Kennedy-King Memorial Initiative. He comes to 
us today from Indianapolis, Indiana.
    Welcome to the Subcommittee.

      STATEMENT OF THE HON. GREGORY PORTER, INDIANA STATE 
   REPRESENTATIVE, KENNEDY-KING MEMORIAL INITIATIVE, CHAIR, 
                     INDIANAPOLIS, INDIANA

    Mr. Porter. Thank you Chairman McClintock, Ranking Member 
Hanabusa, and other members of the Committee. My name is 
Gregory W. Porter, and I am proud to represent House District 
96 here in this great state of Indiana in the Indiana General 
Assembly.
    My Indianapolis district, ladies and gentleman, includes 
the current local park named in honor of Dr. Martin Luther 
King, Jr., the Landmark for Peace Memorial, which includes a 
memorial sculpture of Robert F. Kennedy and Dr. King. This 
area, surrounding the memorial sculpture, is the site we want 
to preserve by establishing the Kennedy-King National 
Historical Site.
    In addition to my work in the Indiana General Assembly, I 
also serve as the President of the National Black Caucus of 
State Legislators.
    I am particularly honored to serve as Chairman of the Board 
of the Kennedy-King Memorial Initiative, a non-profit community 
organization that builds on the historic events of April 4, 
1968, to raise awareness and to inspire action to eliminate 
division and injustice. Our organization is committed to 
promoting the nonviolent legacy of Dr. King and Robert Kennedy 
through civic engagement and courageous conversations.
    The Kennedy-King Memorial Initiative is comprised of 
several individuals throughout our community. We are very 
honored that Congressman Carson is here to stress the 
importance of recognizing and preserving this special place we 
have in our city.
    We are pleased with Congressman Carson's leadership, as 
well as the support from the entire Indianapolis delegation, 
House and Senate, for establishment of the National King-
Kennedy Historical Site, the site where Robert Kennedy broke 
the news to the Indianapolis community of Dr. King's 
assassination. It needs to be preserved not just for 
Indianapolis, but for Indiana and for all Americans across this 
country.
    As we approach the 50th anniversary of Kennedy's historic 
speech, I hope each member of this Committee can understand the 
powerful words that were said that evening, the way they were 
delivered, the way they were received, and their powerful 
impact today. What we see today is unimaginable of what 
happened years ago. Robert Kennedy was assassinated in Los 
Angeles. Robert Kennedy's message of hope and nonviolence made 
a big difference in 1968, and it can still make a difference 
today as our country continues to suffer with bitter divisions.
    This historical site that sits in Indianapolis, Indiana, 
has a long tradition as a community gathering place. It is 
surrounded by seven different neighborhoods. Today, the 
location is part of a beautiful urban park maintained by the 
city of Indianapolis. It attracts neighborhood residents and 
other visitors for ongoing sports, recreational, and cultural 
activities.
    In addition to preserving this national treasure, the 
establishment of the Kennedy-King Historic Site will widen 
awareness of the historic events and their impact on the region 
and the Nation.
    Local leaders strongly support this effort because we know 
that becoming a permanent part of the National Park Service 
will increase the number of visitors to the Kennedy-King site 
and enhance the cultural tourism and economic development of 
our community.
    We have been very fortunate to see impacts in other parts 
of Indianapolis, including the federally funded Indianapolis 
Cultural Trail, which has connected diverse communities and 
increased the health and well-being of our region.
    Once part of the National Park System, we envision a number 
of improvements to the site, including a visitors center in an 
existing building adjacent to the site, interpretive materials, 
interactive exhibits, and other programming that can educate 
new generations about peace, nonviolence, and the improvement 
of American society for everyone.
    Establishing the Kennedy-King Historic Site will be 
meaningful to many people still alive today whose lives were 
changed by Robert Kennedy's historic speech. With this memory 
in mind, our community strongly believes that Americans of all 
ages will benefit from the improved understanding of the social 
and political history of the 1960s, and particularly civil 
rights, peace, and nonviolence, which are the great legacies of 
Dr. King and Robert Kennedy.
    A significant number of people in the crowd heard the 
speech that evening, those being Mr. Abie Robinson, Dorothy 
Burris, Jim Trulock, and other individuals; former 
Congresswoman Julia Carson, and State Representative Bill 
Crawford. And of course Congressman Lewis was also there and 
State Senator Theresa Lubbers.
    The compelling story of what occurred in the park that 
night continues to inspire individuals in our community.
    Thank you for the opportunity to testify today, and I look 
forward to answering any questions.

    [The prepared statement of Mr. Porter follows:]
 Prepared Statement of Gregory W. Porter, Indiana State Representative 
                              on H.R. 4851
    Good Afternoon. Chairman Bishop, Ranking Member Grijalva, 
Subcommittee Chairman McClintock and Subcommittee Ranking Member 
Hanabusa, and members of the Natural Resources Subcommittee on Federal 
Lands, thank you very much for inviting me to testify today in support 
of H.R. 4851, the Kennedy-King Establishment Act of 2018.
    My name is Gregory Porter and I'm proud to represent the 96th House 
District in the Indiana General Assembly. My Indianapolis District 
includes the current local park named in honor of Dr. Martin Luther 
King, Jr. and the Landmark for Peace Memorial, which includes a 
memorial sculpture of Robert F. Kennedy and Dr. King. This area, 
surrounding the memorial sculpture, is the site we want to preserve by 
establishing the Kennedy-King National Historic Site.
    In addition to my work in the Indiana General Assembly, I also 
serve as the President of the National Black Caucus of State 
Legislators. I am particularly honored to serve as the Chairman of the 
Board of the Kennedy-King Memorial Initiative, a non-profit community 
organization that builds on the historical events of April 4, 1968 to 
raise awareness and inspire action to eliminate division and injustice. 
Our organization is committed to promoting the non-violent legacy of 
Dr. King and Robert Kennedy through civil engagement and courageous 
conversations.
    The Kennedy-King Memorial Initiative reached out to our 
Congressman, Rep. Andre Carson, to stress the importance of recognizing 
and preserving this special place. We are very pleased with Congressman 
Carson's leadership, as well as support from the entire Indiana 
delegation--House and Senate--for the establishment of a national 
Kennedy-King Historic Site.
    The site where Robert Kennedy broke the news to Indianapolis of Dr. 
King's assassination is sacred to our community and our Nation. It 
needs to be preserved not just for Indianapolis, but for Indiana, and 
for Americans all across our country.
    As we approach the 50th anniversary of Kennedy's historic speech, I 
hope each member of this Committee can understand the power of those 
words--the way they were delivered, the way they were received, and 
their powerful impact today. What is still unimaginable to me is that 
less than 2 months after this speech in Indianapolis, which helped 
prevent another wave of violence, Robert Kennedy was assassinated in 
Los Angeles. Robert Kennedy's message of hope and non-violence made a 
big difference in 1968, and it can still make a difference today as our 
country continues to suffer from bitter divisions.
    The historic site in Indianapolis has a long tradition as a 
community gathering place, which is why it was selected as the location 
for presidential candidate Kennedy's campaign speech in 1968. Today, 
this location is a part of a beautiful urban park maintained by the 
city of Indianapolis. It attracts neighborhood residents and other 
visitors for ongoing sports, recreational and cultural activities.
    In addition to preserving this national treasure, the establishment 
of the Kennedy-King Historic Site will widen awareness of the historic 
events and their impact on the region and the Nation.
    Local leaders strongly support this effort because we know that 
becoming a permanent part of the National Park Service system will 
increase the number of visitors to the Kennedy-King site and enhance 
the cultural tourism and economic development. We have been fortunate 
to see similar impacts in other parts of Indianapolis, including areas 
surrounding the federally funded Indianapolis Cultural Trail, which has 
connected diverse communities and increased the health and well-being 
of our region.
    Once part of the National Park System, we envision a number of 
improvements to the site, including a visitors center in an existing 
building adjacent to the site, interpretive materials, interactive 
exhibits and other programming that can educate new generations about 
peace, non-violence and the improvement of American society for 
everyone.
    Establishing the Kennedy-King Historic Site will be meaningful to 
many people who are still alive today and whose lives were changed by 
Robert Kennedy's historic speech. With this memory in mind, our 
community strongly believes that Americans of all ages would benefit 
from an improved understanding of the social and political history of 
the 1960s--and in particular civil rights, racial equality, peace and 
non-violence, which are the great legacy of Dr. King and Robert F. 
Kennedy.
    A significant number of people in the crowd who heard the speech 
went on to pursue lives of public service through elected office and 
community service. This includes great Hoosiers community leaders like 
Mr. Abie Robinson, Amos Brown, and Mrs. Simon, plus elected officials 
of both parties like Congressman Lewis, Congresswoman Julia Carson, and 
State Senator Theresa Lubbers.
    The compelling story of what occurred in the park that night 
continues to inspire people today and the establishment of a National 
Historic Site will help further highlight an incredible moment in 
American history.
    Thank you for the opportunity to testify today and I look forward 
to answering your questions.

                                 ______
                                 

    Mr. McClintock. Thank you, Representative Porter.
    That concludes our testimony on the bill. We will now 
proceed to questions. I just have a couple very briefly.
    Representative Porter, one of the problems we are dealing 
with is we have about $12 billion deferred maintenance on our 
current National Park Service responsibilities. We are trying 
to avoid taking on new responsibilities until we can adequately 
address those that we have already acquired.
    My question is, has the Kennedy-King Memorial Initiative 
commissioned any cost estimates on the annual operating costs 
of the proposed national historic site, maintenance, staffing, 
signage, or legal compliance?
    Mr. Porter. We are in the process of fundraising those 
dollars right now.We are looking at maybe less than a million 
dollars a year in regards to maintaining the park. It is a 14-
acre park, and the building that we are looking at is to the 
southern end of that. It is maybe about an acre or so.
    Mr. McClintock. So, you are anticipating maintenance and 
ongoing costs being raised privately?
    Mr. Porter. Mr. Chairman, we are working on that, yes, sir. 
We are working with the city of Indianapolis, who currently 
owns the park, along with other business leaders that are 
committed to working with us to maintain the park.
    Mr. McClintock. Have you also looked at any alternatives 
like national historic site designation, placing on the 
National Register of Historic Places?
    Mr. Porter. Yes, Mr. Chairman. We have looked at those 
other two options, also.
    Mr. McClintock. Very good.
    Well, I am old enough to remember that terrible day and 
having watched the broadcast of Robert Kennedy live on our old 
black and white television, and it is an important moment in 
the Nation's history.
    With that, I will yield to the Ranking Member.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    Representative Porter, the typical process for establishing 
a new unit of the National Park System involves a 
congressionally authorized special resource study. This process 
allows the National Park Service to evaluate the suitability of 
a given site and determine the most appropriate management 
options. There are several pending studies that this Committee 
has even approved over the last year or so.
    Would you support a special resource study for the Kennedy-
King Park?
    Mr. Porter. Madam Chairman, yes, I would, being 
straightforward, yes, ma'am.
    Ms. Hanabusa. Your testimony mentions that the National 
Park Service management would include construction of new 
facilities. Do you have a cost estimate for the visitor center 
and other facilities?
    Mr. Porter. The visitor center that we are doing 
renovations on right now, we are looking at about $500,000 in 
regards to the visitor center and the work that we have done. 
We have about $200,000 that we have fundraised thus far in 
regards to the visitor center and some of the surrounding 
properties of the area.
    Ms. Hanabusa. Is $500,000 the total cost that you 
anticipate for the construction of the visitor center plus 
other facilities?
    Mr. Porter. No, Madam Chairman. We are phasing in the whole 
building, so we are looking at $500,000 right now, and then 
continuing to phase in the property where we want to have our 
visitor center and interactive area.
    Ms. Hanabusa. And from what you testified to earlier, it 
seems like you believe that the community will be able to raise 
this through private funding?
    Mr. Porter. Yes, ma'am. As a matter of fact, on this 
Tuesday we are having another meeting with about 25 or 30 
business people that we are continuing to work on this.
    Ms. Hanabusa. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. McClintock. Thank you.
    Are there any other questions on H.R. 4851?
    Chairman Bishop.
    Mr. Bishop. Mr. Carson, maybe let me address this to you.
    The speech that was given was on April 4?
    Mr. Carson. Yes, sir.
    Mr. Bishop. So, this April 4 this will be the 50th 
anniversary?
    Mr. Carson. Yes, sir.
    Mr. Bishop. So, the real goal here is whatever designation 
becomes established would be helpful if it was done by April 4?
    Mr. Carson. Yes, sir. That would be extremely helpful. In 
fact, John Lewis is scheduled to speak. It is going to be a 
huge event obviously for great reason. And I think during these 
times for a Democrat to work across the aisle with great folks 
like you and Susan Brooks, it means so much. It has symbolic 
and substantive value, yes, sir.
    Mr. Bishop. Not if you have to give me a Valentine's card 
for it.
    Mr. Carson. Oh, I missed it, goodness. Fifty percent off at 
CVS. I will take care of you.
    Mr. Bishop. I will tell you who my Valentine was later.
    Mr. Carson. All right.
    Mr. Bishop. It hasn't been up and running yet, but we 
created by law a civil rights network. This would be an ideal 
part of that civil rights network regardless of where the 
control actually is, as being a part of that, being able to be 
part of the brand. We are going to work with you to see what we 
can do by April 4.
    Mr. Carson. Thank you. The city of Indianapolis is already 
committed to the maintenance of the park. Yes, sir. Thank you.
    Mr. Bishop. Here is the most important thing, though. Is 
there a baseball field in that park? You put a baseball field 
in it, you have a done deal.
    Mr. Carson. I know. That is right.
    Mr. Porter. Mr. Chairman, we have 14 acres. Anything is 
possible.
    Mr. Bishop. OK. I take that as a commitment. Thank you.
    Mr. McClintock. Further questions on this measure?
    General Bergman.
    Mr. Bergman. Thank you.
    Representative Porter, inclusion of a site in the National 
Park System means activities at or near the site are subject to 
compliance with Sections 106 and 110 of the National Historic 
Preservation Act, as well as the National Environmental Policy 
Act.
    Are the neighboring landowners, community developers, and 
the city of Indianapolis all aware of and prepared for the 
hurdles or potential restrictions on what they can do with 
their property if such a designation is issued?
    Mr. Porter. Yes, sir, absolutely. We have had this 
conversation over the last several months in regards to the 
pros or the cons, as one would say. So, the landowners around 
the area are aware it is going to be a revitalization area, 
very, very big and very robust. As I said, we have $200,000 
that has gone into that we have set aside to work on the park 
right now.
    So, the short answer is, yes, we are very familiar with 
that. But we will embrace any conclusions that we can come to 
as a community. This is a community effort. It is not just a 
small group of individuals.
    Mr. Bergman. But the adjacent landowners know, everybody 
knows what could potentially----
    Mr. Porter. Yes, sir.
    Mr. Bergman. OK.
    Mr. Porter. In my other job, I work for a health and 
hospital corporation, and we own two buildings adjacent to the 
park.
    Mr. Bergman. Thank you. I yield back.
    Mr. McClintock. All right. Any further questions? Seeing 
none, that concludes the hearing on H.R. 4851.
    Representative Porter, Congressman Carson, you are 
certainly welcome to stay, but you are also free to go.
    Mr. Carson. It is tempting. But thank you, Chairman and 
Ranking Member.
    Mr. Porter. Thank you very much.
    Mr. McClintock. Thank you very much.
    We will next take up H.R. 2591, by Congressman Austin 
Scott, and recognize the gentleman from Georgia for 5 minutes.

    STATEMENT OF THE HON. AUSTIN SCOTT, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Scott. Thank you, Mr. Chairman and ladies and gentlemen 
of the Committee.
    I want to thank you for hosting me and for allowing me to 
speak at today's hearing.
    As a lifelong outdoorsman and current Vice Chair of the 
Congressional Sportsmen's Caucus, I am honored to be here today 
to discuss H.R. 2591, the Modernizing the Pittman-Robertson 
Fund for Tomorrow's Needs Act of 2017.
    If enacted, H.R. 2591 would provide national, broad-based 
support to state fish and wildlife agencies to develop, guide, 
and enhance collective efforts to recruit hunters and 
recreational shooters, all while continuing to protect the 
natural resources we enjoy.
    As you all are aware, through a system of user-paid public 
benefits, Pittman-Robertson is the foundation of wildlife 
conservation funding in the United States. Since it was first 
enacted in 1937, the Pittman-Robertson Wildlife Restoration 
Fund has collected over $8 billion from hunters and 
recreational shooters to be used by states to fund wildlife 
conservation efforts, habitat acquisition and management, 
public access to lands, hunter education, and shooting ranges 
affiliated with hunter safety programs.
    These funds are collected from an excise tax on firearms, 
ammunition, and archery equipment, and are matched by the state 
with funds from licenses paid by both hunters and recreational 
shooters.
    Effectively, Pittman-Robertson creates a direct link 
between those that hunt and participate in sportsmen activities 
and the health of the resources needed to expand and enhance 
those opportunities.
    However, in recent years the increasing urbanization and 
suburbanization of our population has made it more difficult 
for the public to participate in hunting and recreational 
shooting. Correspondingly, the average age of Americans 
purchasing hunting licenses is steadily rising.
    This has a significant ripple effect not only on the key 
Federal funding models that support conservation of fish and 
wildlife, but also on the base of our public lands and on 
thoughtful natural resources policy.
    With no Federal mandate or any increase in existing user 
fees or taxes, H.R. 2591 will preserve the current user-paid 
public benefit funding of wildlife conservation for generations 
to come while further expanding the flexibility of the states 
to make decisions that are best fit for them.
    Specifically, H.R. 2591 would clarify that a purpose of the 
Pittman-Robertson Fund is to extend public relations assistance 
to the states for the promotion of hunting and recreational 
shooting. However, to ensure that traditional wildlife 
conservation remains the primary focus of Pittman-Robertson, 
H.R. 2591 puts a cap on the PR funds that can be used for 
public relations.
    Finally, H.R. 2591 would expand the Multistate Conservation 
Grant Program by providing an additional $5 million per year 
for making hunter and recreational recruitment project grants 
that promote a national hunting and shooting sport recruitment 
program. This legislation simply provides the authority for 
existing funds to be used on programs that will help ensure 
participation in hunting and recreational shooting, thus 
securing the funding base long into the future.
    It is important to note that H.R. 2591 does not mandate how 
Pittman-Robertson funds must be spent. The discretion to 
determine the amount of any wildlife restoration fund spent on 
hunter recruitment and recreational shooter recruitment 
activities would remain entirely with the state fish and 
wildlife agency.
    Conservation organizations and state wildlife agencies 
alike have long advocated for increased flexibility in Pittman-
Robertson Fund spending. I have received letters from numerous 
state agencies and conservation organizations that advocate in 
favor of this legislation, H.R. 2591. Mr. Chairman, if 
possible, I would like to ask for unanimous consent that these 
letters be entered into the record.

    Mr. McClintock. Without objection.

    [The information follows:]

                                                   November 6, 2017

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Natural Resources Committee,
Washington, DC 20515.

    Dear Chairman Bishop and Ranking Member Grijalva:

    Our organizations represent millions of hunters, anglers, wildlife 
enthusiasts, and other conservationists. We strongly support The 
Pittman-Robertson Modernization Act of 2017, H.R. 2591, which will 
authorize the use of certain Pittman-Robertson (P-R) funds for state 
fish and wildlife agencies to recruit, retain and reactivate hunters 
and recreational shooters. The Dingell-Johnson/Wallop-Breaux Act 
provides this authorization for recruitment, retention and reactivation 
of anglers and boaters, and it is past time that the P-R Act does 
likewise. We respectfully urge that you schedule a hearing on H.R. 2591 
so that it can be expeditiously reported to the House floor.
    Hunting, angling, recreational shooting, and boating provide vital 
and foundational funds to the state fish and wildlife agencies to 
deliver the conservation of fish, wildlife and its habitat on the 
ground, and to sustainably manage fish and wildlife for not only 
hunters and anglers but for all of our citizens who enjoy our natural 
resources and the outdoors. State hunting and angling licenses are 
matched with federal excise taxes on sporting arms and ammunition, and 
fishing tackle respectively, and apportioned to the states for the 
conservation of fish, wildlife and its habitat, and providing hunting, 
angling, recreational shooting, and boating opportunities. These funds 
provide the vast majority of the budget for state fish and wildlife 
agencies to conserve all species of fish and wildlife for all of our 
citizens, and future generations.
    H.R. 2591 would define recruitment, retention and reactivation as 
it relates to hunters and recreational shooters, and remove existing 
statutory prohibitions against the use of P-R funds for these purposes. 
It also clarifies that P-R funds can be used on the development, 
construction, and maintenance of public shooting ranges that aren't 
explicitly used for hunter education programs. Absent the sanction of 
these uses of P-R funds for these purposes, we face the reality that 
hunters may continue to decline, thus threatening funding for the 
conservation of fish, wildlife and its habitat by the states, which 
have principal authority for fish and wildlife within their borders, 
including on federal lands. While the number of recreational shooters 
is on the increase, we must also accommodate the needs of this growing 
sport, and H.R. 2591 would allow the states to do that.
    H.R. 2591 is very complementary to the Target Practice and 
Marksmanship Training Support Act which is Title II of H.R. 3668 
(SHARE), which we also support. We defer (in lieu of section 4(a)(B) of 
H.R. 2591) to the provisions in H.R. 3668 section 203 of Title II which 
provides that a state may use up to 10% of its P-R section 4(b) funds, 
matched at a 90:10 federal:state match, to develop, construct and 
maintain shooting ranges on public lands. The other provisions of both 
bills are complementary.
    Thank you very much for your consideration of our request, and we 
are committed to working with you to successfully move H.R. 2591 to the 
House floor.

            Sincerely,

        American Woodcock Society     National Wild Turkey Federation
        Archery Trade Association     North American Grouse Partnership
        Assoc. of Fish and Wildlife 
        Agencies                      Pheasants Forever
        Camp Fire Club of America     Quail Forever
        Catch-A-Dream Foundation      Quality Deer Management Assoc.
        Congressional Sportsmen's 
        Foundation                    Rocky Mountain Elk Foundation
        Conservation Force            Ruffed Grouse Society
        Council to Advance Hunting 
        and the Shooting Sports       Sportsmen's Alliance
        Delta Waterfowl               Theodore Roosevelt Conservation 
                                      Partnership
        Ducks Unlimited               Whitetails Unlimited
        Houston Safari Club           Wild Sheep Foundation
        Izaak Walton League           Wildlife Forever
        Mule Deer Foundation          Wildlife Management Institute
                                    Bass Pro Shops,
                                      Springfield, Missouri

                                                   December 7, 2017

Hon. Rob Bishop, Chairman,
House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Bishop:

    I respectfully urge you to schedule a hearing for H.R. 2591, the 
Pittman-Robertson Modernization Act of 2017. H.R. 2591 has widespread 
and bipartisan support, and with your help, can advance out of the 
House Natural Resources Committee for floor action before the end of 
2017.
    All state fish and wildlife agencies and numerous hunting and 
shooting non-governmental organizations (i.e., Ducks Unlimited, 
Congressional Sportsmen Foundation, Rocky Mountain Elk Foundation, 
Boone and Crockett Club, Theodore Roosevelt Conservation Partnership) 
openly support passage of H.R. 2591.
    Bass Pro Shops supports H.R. 2591 and requests your assistance in 
ensuring a Committee Hearing is scheduled to discuss this important 
legislation. Thank you for your interest and support. If you have any 
questions, please feel free to contact me.

            Sincerely,

                                            John L. Morris,
                                                           Founder.

                                 ______
                                 

           Georgia Department of Natural Resources,
                             Wildlife Resources Division,  
                                     Social Circle, Georgia

                                                   December 4, 2017

Hon. Austin Scott
U.S. House of Representatives
2417 Rayburn House Office Building
Washington, DC 20515

    Dear Representative Scott:

    I am writing today on behalf of the Association of Fish and 
Wildlife Agencies (AFWA) of which all 50 State Fish and Wildlife 
Agencies are members, to respectfully request that you co-sponsor H.R. 
2591, the ``Modernizing the Pittman-Robertson Fund for Tomorrow's Needs 
Act of 2017''. This legislation is important to ensure continued hunter 
supported funding for wildlife conservation, hunter education, and 
shooting sports, and will ensure the future of our American sportsmen's 
and sportswomen's heritage. Wildlife Resources Division and my 
colleague state fish and wildlife agencies enthusiastically support and 
will work for passage of H.R. 2591. Attached is a House ``Dear 
Colleague'' letter with further information.
    Since first enacted in 1937, over $8 billion has been collected, 
through the Pittman-Robertson Wildlife Restoration Fund, from hunters 
and recreational shooters, and awarded to states to fund wildlife 
conservation, habitat acquisition and management, public access, hunter 
education and safety, and shooting ranges affiliated with hunter safety 
programs. These funds are collected from an excise tax on firearms, 
ammunition and archery equipment, and are matched by the states with 
funds from hunting licenses, paid by both hunters and recreational 
shooters.
    The increasing urbanization and suburbanization of our population 
has made it more difficult for the public to participate in hunting and 
recreational shooting. The average age of Americans purchasing hunting 
licenses is steadily rising. To prevent the imminent decline in revenue 
for the Wildlife Restoration Fund, it is necessary to update the 
provisions of the Pittman-Robertson Act. H.R. 2591 will provide state 
and territorial wildlife agencies the tools needed to recruit, retain 
and reactivate hunters and recreational shooters. This will ensure that 
funding for wildlife conservation will keep pace with the demands of 
our growing national population.
    Without a federal mandate or any increase in user rees or taxes, 
H.R. 2591 will preserve the current user pay/public benefit funding of 
wildlife conservation for generations to come. This legislation simply 
provides the authority for the existing funds to be used on programs 
that will help ensure participation in hunting and recreational 
shooting, thus securing the funding base long into the future. In 
keeping with Congress' intent in 1937 to dedicate the majority of the 
funds to wildlife management and habitat conservation, the use of funds 
for hunter and recreational shooter recruitment, retention and 
reactivation are capped at no more than 25%. All decisions regarding 
the use of the funds remain at the discretion of the State Fish and 
Wildlife Director.
    Again we ask that you co-sponsor H.R. 2591. This is important 
legislation to ensure the future conservation of America's wildlife and 
our hunting heritage. Please contact me should you have any questions 
and thank you in advance for your support.

            Sincerely,

                                            Rusty Garrison,
                                                          Director.

                                 ______
                                 

                   National Wild Turkey Federation,
                                  Edgefield, South Carolina

                                                  February 13, 2018

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Natural Resources Committee,
Washington, DC 20515.

    Dear Chairman Bishop and Ranking Member Grijalva:

    On behalf of the 230,000 members and volunteers of the National 
Wild Turkey Federation (NWTF), I write to express strong support for 
H.R. 2591, the Modernizing the Pittman-Robertson Fund for Tomorrow's 
Needs Act of 2017. Thank you for scheduling a hearing; we urge you to 
follow this with an expeditious mark-up and we stand ready to assist 
you in your efforts.
    Founded in 1973, the NWTF is a national non-profit wildlife 
conservation organization dedicated to the conservation of the wild 
turkey and preservation of our hunting heritage. With the successful 
restoration of the wild turkey complete, the NWTF has focused its 
efforts on our ``Save the Habitat. Save the Hunt.'' initiative, which 
connects both parts of our mission by recognizing the importance of 
quality habitat for wild life conservation and its significance to our 
hunting tradition. Through this initiative, our goal is to conserve or 
enhance 4 million acres of wildlife habitat for turkeys and other 
wildlife, provide access to 500,000 additional acres for hunters and 
other wildlife enthusiasts, and grow the hunting population by 1.5 
million individuals. The NWTF doesn't just advocate for the 
recruitment, retention and reactivation of hunters, we deliver by 
actively engaging potential and lapsed hunters in activities to 
introduce them to hunting and the shooting sports and by providing 
mentored hunting opportunities. In large part, these activities are 
done in partnership with state wildlife agencies and other non-profit 
organizations. The success of our partners through adequate funding is 
essential to the NWTF reaching our goals.
    When the Pittman-Robertson Act was enacted in 1937, hunting and 
shooting was widely accepted and commonplace in our nation's society. 
At the time, it was inconceivable to the authors of the legislation 
that the percentage of hunters in the U.S. would drop to the current 
level. According to the U.S. Fish and Wildlife Service's 2016 National 
Survey of Fishing, Hunting and Wildlife Associated Recreation, there 
are approximately 11.5 million hunters in the United States, a decline 
of 16 percent since 2011. In addition, it is unlikely the authors 
anticipated that the funds generated from the tax would, more than 80 
years later, continue to be the primary source of funding for the 
states to conserve and manage all wildlife resources.
    While we look for other opportunities to more robustly fund 
conservation in this country, the Pittman-Robertson Modernization Act 
provides a much needed update to the original legislation to allow the 
funds to be used to provide additional infrastructure and opportunities 
for recreational shooters and to use the funds to actively recruit 
people to hunting and the shooting sports.
    We support the provisions of the Pittman-Robertson Modernization 
Act that would authorize the states to use funds explicitly for the 
purpose of promoting hunting and recreational shooting. As an example, 
states are currently limited on the amount of funding they can use for 
shooting ranges that are not associated with hunter education and 
safety programs. As the recreational shooting community continues to 
grow, there is more demand for safe places for them to shoot. The 
states need the ability to be responsive to their needs, as they pay a 
greater proportion of the excise taxes. Without the ability to meet the 
needs of this segment of users, support for the excise tax may erode, 
thus leading to a further erosion in funding for the state agencies. We 
also support provisions that will allow the states to use Pittman-
Robertson funding for marketing and other efforts to recruit and retain 
hunters.
    The NWTF is also supportive of the provision that will make up to 
$5 million in federal grants available annually for national level 
efforts to promote hunting and the shooting sports. We need only to 
point to the ``Take Me Fishing'' campaign and its success in recruiting 
people to the sport to highlight the value of such an effort. 
Presently, funding for such an effort is unavailable. However, it is 
needed to bolster the efforts of the states and to help guide 
consistent efforts for maximum effectiveness.
    The NWTF thanks you for your expeditious consideration the 
Modernizing the Pittman-Robertson Fund for Tomorrow's Needs Act of 
2017. The future of our hunting tradition is at a critical juncture. 
States must have the funding to actively recruit hunters and 
recreational shooters. In addition, the recruitment of more hunters and 
recreational shooters is essential to perpetuate the current funding 
model that the state wildlife agencies rely upon. This legislation will 
provide essential funding to ensure hunter and recreational shooter 
numbers remain strong and that funding for wildlife conservation 
continues. The NWTF sincerely appreciates your leadership on this 
conservation and outdoor recreation bill and stands ready to assist you 
in its ultimate enactment.

            Sincerely,

                                      Rebecca A. Humphries,
                                           Chief Executive Officer.

                                 ______
                                 

    Mr. Scott. Mr. Chairman, Ms. Ranking Member, Subcommittee 
members, it is now more important than ever to provide state 
and territorial wildlife agencies the flexibility and tools 
they need to recruit, retain, and reactivate hunters and 
recreational shooters.
    In doing so, not only will we create a sustainable base of 
sportsmen and women in our future generations, but we will 
ensure that funding for wildlife conservation will keep pace 
with the demands of our increasingly urbanized national 
population.
    Again, I would like to extend my sincerest thank you to all 
of the Subcommittee for allowing me to speak today on behalf of 
this legislation. And with that, I yield back.
    Mr. McClintock. Great. Thank you very much.
    We will now hear from Mr. Bob Ziehmer, who is the Senior 
Director of Conservation for Bass Pro Shops, coming to us today 
from Springfield, Missouri. He will be testifying in his 5 
minutes on both this measure, H.R. 2591, and also the next 
measure, H.R. 4647.
    Mr. Ziehmer, welcome to the Committee. You have 5 minutes.

STATEMENT OF MR. BOB ZIEHMER, SENIOR DIRECTOR OF CONSERVATION, 
             BASS PRO SHOPS, SPRINGFIELD, MISSOURI

    Mr. Ziehmer. Mr. Chairman, members of the Committee, I 
appreciate the opportunity to testify in support of H.R. 2591 
and H.R. 4647. These bipartisan bills are of significant 
importance to our Nation, providing benefits to virtually all 
Americans.
    For the record, my name is Bob Ziehmer. As Director of 
Conservation at Bass Pro Shops, I am privileged to work to 
advance conservation under the mission to inspire everyone to 
enjoy, love, and conserve the great outdoors.
    Prior to joining Bass Pro Shops, I served over 25 years 
with the Missouri Department of Conservation, the last 6\1/2\ 
years as the Agency Director. Over the years, I have seen 
firsthand that conservation investments, ensuring wise 
management of habitats and fish and wildlife resources, play a 
significant role in America's quality of life and economic 
prosperity.
    The fact is, healthy fish and wildlife resources and the 
habitat supporting them are the base of our Nation's outdoor 
recreational industry, an industry that is supporting 7.6 
million U.S. jobs, attracting more than 140 million 
participants each year, and generating a positive business 
revenue of over $887 billion annually.
    My passion for the outdoors was instilled at an early age 
by my parents. Today, an avid hunter and angler, I spend as 
much time afield as possible with family and friends. There is 
just something special about watching a sunrise over a frost-
covered field, hearing the sound of a wild turkey gobble, a 
hike across vast grasslands, and the feel of cold water in a 
clear mountain stream.
    As I testify in support of these bills, my thoughts reflect 
back to the conditions of wildlife in the early 1900s. After 
years of operating under the belief that fish and wildlife were 
so abundant they would last forever, our country was at a 
critical point. In my home state of Missouri, there were less 
than 2,000 white-tailed deer. Turkey were rarely seen. Elk, 
bear, and many other animals were gone. Similar stories were 
playing out across the Nation.
    Passage of the Pittman-Robertson Act in 1937, redirecting 
an existing excise tax being collected on firearms and 
ammunitions to state agencies for wildlife management, provided 
critical funding, setting the stage for landmark achievements 
over the past 80 years.
    It is important to note, investments in wildlife have 
provided significant side benefits, including clean water, 
improved air quality, erosion control, and increased outdoor 
recreational opportunities.
    As we look to the future, there are conservation 
challenges, challenges that are diverse, from invasive species 
to ensuring the balanced needs of rare and abundant wildlife, 
ensuring public access to the resources, all the while 
remaining open and encouraging public input.
    H.R. 2591 provides flexibility for a limited amount of 
existing Pittman-Robertson funds to be used by states on 
services and outreach efforts that help ensure strong 
participation numbers in hunting and recreational shooting.
    Since 1937, hunters and recreational shooters have 
contributed directly to wildlife management through paying the 
excise tax collected on firearms and ammunition.
    In addition, strong hunter numbers play an essential role 
in managing abundant wildlife population levels.
    H.R. 4647 advances a recommendation from the national Blue 
Ribbon Panel on Sustaining America's Diverse Fish and Wildlife 
Resources. United by a shared vision of addressing growing 
threats to our fish and wildlife resources, members of the 
panel call for passage of this legislation.
    It is time for a more complete funding model, enabling 
state agencies to deliver conservation actions for all fish and 
wildlife, both game and non-game species.
    Today, one-third of our fish and wildlife species across 
the Nation are considered at risk of continuing population 
declines. The best way to recover these species is to replicate 
the conservation model that has produced remarkable success for 
game species.
    H.R. 4647 builds upon fish and wildlife conservation and 
outdoor recreational services through redirecting a portion of 
existing energy and mineral revenues being collected. These 
funds will be invested to ensure the future of a diverse fish 
and wildlife population.
    This nonregulatory, collaborative approach is a superior 
means of recovering species, while at the same time reducing 
the need for more expensive measures and avoiding regulation 
and litigation.
    In closing, now is the time to act to address the growing 
threats to fish and wildlife resources.
    Again, I appreciate the opportunity to testify in support 
of H.R. 2591 and H.R. 4647.

    [The prepared statement of Mr. Ziehmer follows:]
  Prepared Statement of Bob Ziehmer, Senior Director of Conservation, 
               Bass Pro Shops on H.R. 2591 and H.R. 4647
    Good afternoon Chairman McClintock, Ranking Member Hanabusa, and 
members of the Subcommittee on Federal Lands. I am Bob Ziehmer, the 
Senior Director of Conservation for Bass Pro Shops. Previously, I was 
the Director of the Missouri Department of Conservation where I worked 
alongside trained fish and wildlife professionals who are highly 
devoted to the conservation, restoration, and management of our 
Nation's fish and wildlife and the habitats on which they depend for 
the benefit of all current and future citizens. Thank you for the 
opportunity and privilege to testify before you today on the 
``Modernizing the Pittman-Robertson Fund for Tomorrow's Needs Act of 
2017'' (H.R. 2591) and the ``Recovering America's Wildlife Act'' (H.R. 
4647). The first will help stabilize one of the critical existing 
cornerstones of state fish and wildlife agencies' conservation and 
management efforts and the second provides an opportunity to build upon 
our wildlife conservation success and secure the future of America's 
rich diversity of fish and wildlife across our great Nation.
    I am very fortunate to work for a company that measures our 
investment by our long-term impact on conservation. Bass Pro Shops is 
North America's premier outdoor recreation and conservation company. 
Founded in 1972, when avid young angler Johnny Morris began selling 
tackle out of his father's liquor store in Springfield, Missouri, today 
the company provides customers with unmatched offerings spanning 
premier destination retail, outdoor equipment manufacturing, world-
class resort destinations, and more. In 2017, Bass Pro Shops acquired 
Cabela's to create a ``best-of-the-best'' experience with superior 
products, dynamic locations and outstanding customer service. Under the 
visionary conservation leadership of Johnny Morris, Bass Pro Shops is 
made up of individuals who are dedicated to inspiring people, 
especially youth and families, to enjoy, love and conserve the great 
outdoors. Bass Pro Shops' giving over the course of many decades has 
positioned us as the outdoor industry's conservation leader. The 
company is known as a national leader in protecting habitat and 
connecting families to the outdoors and has been named by Forbes as 
``one of America's Most Reputable Companies'' and ``one of America's 
Best Employers.''
 modernizing pittman-robertson fund for tomorrow's needs act, h.r. 2591
    At the beginning of my testimony I first referenced the 
``Modernizing the Pittman-Robertson Fund for Tomorrow's Needs Act of 
2017.'' I am very pleased to say that this bill neither seeks a new 
source of Federal funding nor imparts a Federal mandate of any kind. 
Rather, this bill simply gives state fish and wildlife agencies (state 
agencies) the flexibility they need to address today's priority 
problems using existing funds from the Pittman-Robertson Wildlife 
Restoration Fund.
    Since 1937, sportsmen and women have been the driving force for 
conservation funding in the United States. Over $10 billion have been 
collected through the Pittman-Robertson Wildlife Restoration Fund (P-R) 
from hunters and recreational shooters, and awarded to state agencies 
to fund wildlife conservation, habitat acquisition and management, 
public access, hunter education and safety, and shooting ranges 
affiliated with hunter safety programs. This funding program has 
unquestionably served as the lifeblood for wildlife conservation in 
this Nation for more than 80 years. In spite of P-R's magnanimous 
success, the allowable uses for funding under this program must be 
updated to accommodate modern challenges unimaginable in 1937, if we 
are to adequately secure our hunting and recreational shooting future.
    For the past several decades, the number of licensed hunters across 
the United States has been on a steady and precipitous decline. More 
recently, the preliminary results of the 2016 National Survey of 
Fishing, Hunting and Wildlife-Associated Recreation released by the 
U.S. Fish and Wildlife Service (FWS) indicate that hunting has declined 
by 16 percent since 2011. This equates to a reduction of 2.2 million 
hunters over the 5-year period. Previously, over the period from 1980 
to 2011, a decline of 3.7 million hunters occurred. These numbers 
indicate that there are now approximately 11.5 million active hunters 
in the United States. Additionally, the average age of Americans 
purchasing hunting licenses is steadily rising thus further detailing 
the lack of recruitment and retention.
    This recent accelerated decline is alarming and should be viewed as 
a wake-up call to not only state agencies, industry, and conservation 
groups, but sportsmen and women everywhere. Outdoor recreation remains 
a huge contributor to our Nation's economy, and according to a report 
by the Outdoor Industry Association, expenditures by hunters and other 
outdoor recreation participants in 2017 topped $887 billion. While 
there are many contributing factors to the participation decline noted 
above, urbanization and suburbanization are chief among them. These 
over-arching impacts on our human population have made it more 
difficult for the public to participate in hunting and recreational 
target shooting as public access, time, and available resources are all 
strained.
    The ``Modernizing the Pittman-Robertson Fund for Tomorrow's Needs 
Act of 2017'' will provide state and territorial wildlife agencies the 
tools needed to recruit, retain, and reactivate (R3) hunters and 
recreational shooters by clarifying that one of the purposes of the P-R 
is to extend financial and technical assistance to state agencies for 
the promotion of hunting and recreational target shooting. This will 
ensure that funding for wildlife conservation will keep pace with the 
demands of our growing and changing national population.
    This legislation specifically seeks to define ``hunter 
recruitment'' and ``recreational shooter recruitment'' activities and 
projects and makes it clear that funds under section 4(b), 4(c) and 10 
may be used for hunter recruitment and recreational shooter 
recruitment. Currently, the Dingell-Johnson/Wallop-Breaux Sport Fish 
Restoration and Boating Safety Trust Fund, which is a similar statute 
supporting the fishing and boating constituency from related user-based 
taxes, allows state agencies to use those funds for recruitment as well 
as education, outreach and promotion of fishing programs to the public. 
These expanded uses of excise tax funds generated from fishing and 
boating have helped to stimulate an 8 percent growth in participation 
during the same 5-year period when hunting participation declined 
significantly. Our belief is that these expanded uses in P-R funding 
would have similar positive impacts for hunting and recreational 
shooting participation, helping to stabilize the funding cornerstone 
that state agencies depend on for successful wildlife conservation and 
management.
    H.R. 2591 also would expand the Multistate Conservation Grant 
Program (Section 11) by providing for an additional $5 million per 
year, specifically from archery related excise tax collections, to be 
used for nationally and regionally specific communication and outreach 
related to hunter and recreational shooter programs that will encourage 
collaboration and drive innovation. Currently, the $3 million allocated 
to this program is inadequate to meet the large and growing demand for 
state agencies' multistate and national wildlife conservation 
priorities as well as exceptional recruitment, retention and 
reactivation projects, especially when these activities represent only 
one of a handful of national priorities competing for these dollars.
    H.R. 2591 allows state agencies to acquire lands and develop public 
target ranges in strategic support of meeting the needs of hunters and 
recreational shooters in their respective states, and eliminates the 
required nexus of building target ranges only as part of a hunter 
education program. Currently, Section 4(c) and Section 10 funds are not 
always sufficient to meet the state agency's need to fund both land 
acquisition and development costs associated with target range 
constructions. H.R. 2591 would allow state agencies to use Section 4(b) 
funds for target ranges. Currently, Section 4(b) funds cannot be used 
for range construction or maintenance. H.R. 2591 will clarify that the 
construction, operation, and maintenance of public target ranges under 
the Basic Hunter Education funding is not restricted to target ranges 
that include hunter safety programs, as the regulations now specify.
    In keeping with the original intent of the Pittman-Robertson 
Wildlife Restoration Act of 1937, to dedicate the majority of the funds 
to wildlife management and habitat conservation, the use of funds for 
hunter and recreational shooter recruitment, retention, and 
reactivation under the proposed legislation is capped at no more than 
25 percent on a 5-year average but do not require the expenditure of 
any funds for this activity. As currently practiced, all decisions 
regarding the use of the funds remain at the discretion of the state 
fish and wildlife agency directors.
    In closing, I would also like to acknowledge the vital leadership 
of Representative Austin Scott (GA) in championing this legislation. 
H.R. 2591 will preserve the current user pay-public benefit funding of 
wildlife conservation for generations to come without overlaying a 
Federal mandate or any increase in user fees or taxes. This legislation 
simply provides the authority for existing funds to be used on programs 
that will help ensure participation in hunting and recreational 
shooting, thus securing the funding base for state-led wildlife 
conservation long into the future. Please join me, our state agencies, 
industry partners, conservation organizations and concerned sportsmen 
and women everywhere in supporting passage of H.R. 2591.
              recovering america's wildlife act, h.r. 4647
    Our Nation's fish and wildlife are among its most valuable 
resources, along with clean air, water, healthy forests and 
agricultural lands that support all of us. Our quality of life, outdoor 
recreational pursuits and prosperity are tied to the health and 
sustainability of these treasures. They occur not by accident but 
through the investments, sacrifices, and sound management practices of 
individual citizens, local communities, and public servants of our 
natural resources. Our Nation's natural resources, including our rich 
and diverse fish and wildlife, represent the health and wealth of the 
country and its people.
    While we have many fish and wildlife conservation success stories 
to tell, there is still much to do. In fact, today, we are facing an 
historic fish and wildlife challenge that could alter future Americans' 
opportunities to benefit from these resources. Scientists estimate that 
one-third of wildlife species in the United States are at risk of 
becoming threatened or endangered unless we pursue proactive, 
collaborative efforts to accelerate their recovery. The dramatic 
decline of so many species of diverse wildlife and the habitats they 
depend on has an adverse effect on fundamental life benefits provided 
by nature such as water purification and aquifer recharge, flood 
abatement, pollination, recreation and food and fiber production that 
are essential to human health. These species declines threaten 
Americans' quality of life, as well as our national economy and create 
costly regulatory uncertainty for businesses, industries, and 
communities further impacting jobs and the health and economic well-
being of our communities.
    In 2014, prompted by the growing threats to our natural resources, 
the Association of Fish and Wildlife Agencies convened a Blue Ribbon 
Panel on Sustaining America's Diverse Fish and Wildlife Resources, 
which was co-chaired by Governor Dave Freudenthal (WY) and Bass Pro 
Shops founder and CEO John L. Morris and included executives from major 
corporations and leadership from the Nation's leading non-governmental 
conservation organizations. I was honored to serve on this panel that 
validated the serious need for a more complete funding model that 
enables state agencies to more fully deliver conservation actions for 
all fish and wildlife. The Wildlife Restoration Program and the Sport 
Fish Restoration and Boating Safety Trust Fund are essential and 
successful in providing reliable and dedicated funding to state 
agencies for the conservation and management of species that are hunted 
and fished, respectively, and are responsible for the recovery of these 
species, some of which were on the brink of extinction. There is no 
concomitant, dedicated funding source to state agencies for the 
conservation and management of the full array of species, many of which 
are trending toward needing a safety net to assist in their 
stabilization and recovery. State agencies need a dedicated funding 
source commensurate with their broad conservation missions to restore, 
conserve, and manage these at-risk species that comprise the lists of 
species of greatest conservation need compiled by state agencies. We 
need an innovative funding solution to address a nation-wide fish and 
wildlife conservation crisis that has the potential to impact all 
aspects of our American traditions, our economy, and our quality of 
life.
    To accomplish this goal, the Panel recommended a sweeping 
initiative to dedicate $1.3 billion annually, an average of $26 million 
per state, to the Wildlife Conservation Restoration Program, an 
existing subaccount under the Pittman-Robertson Wildlife Restoration 
Program, for state agencies to effectively implement State Wildlife 
Action Plans. Congress requires each state and U.S. territory to 
develop a State Wildlife Action Plan--a proactive, comprehensive 
conservation strategy which examines species' health and recommends 
actions to conserve wildlife and vital habitat before they become more 
rare and in need of additional protections. These plans are unique to 
each state and are developed with participation from the public. 
Congress has provided a helping hand for these efforts by funding 
development of State Wildlife Action Plans through the State and Tribal 
Wildlife Grants Program. We are grateful for this recognition of the 
value of state-based conservation, but we are only able to scratch the 
surface with this level of support. Without additional resources to 
reverse the growing list of species declines and possible listings, it 
is a growing Federal and fiscal burden on state agencies and our 
communities.
    The panel has since expanded into the Alliance for America's Fish 
and Wildlife (Alliance), representing members from the outdoor 
recreation retail and manufacturing sector, the energy and automotive 
industries, private landowners, educational institutions, sportsmen's 
and other conservation organizations, and state agencies. United by a 
shared vision and a common purpose, the unprecedented Alliance stands 
ready to work with Congress to enact and implement this unique solution 
to the Nation's fish and wildlife crisis.
    On behalf of Bass Pro Shops and the rest of the Alliance, I would 
like to thank Representatives Jeff Fortenberry (NE) and Debbie Dingell 
(MI) for understanding the gravity of our growing wildlife crisis and 
for introducing the bipartisan, legislative solution to make a 
meaningful investment in this important, state-led conservation work--
H.R. 4647, the ``Recovering America's Wildlife Act.'' This legacy 
legislation is an opportunity to provide a proactive solution that 
leverages public/private partnerships and brings stakeholders together 
to reduce potentially costly regulatory burdens and uncertainties, and 
provide economic benefits to our citizens and businesses. Additionally, 
this legislation is complementary to existing natural resource 
conservation and outdoor recreation programs and proposes to redirect 
$1.3 billion in existing energy and mineral revenues generated from 
onshore and offshore Federal lands and waters to invest in the health 
and management of habitats and landscapes upon which our citizens and 
all of our fish and wildlife depend.
    The ``Recovering America's Wildlife Act'' would provide critical 
resources to state agencies to sustainably lead proactive, voluntary, 
incentive-based conservation efforts that have proven effective in 
stabilizing wildlife populations to preclude the need to federally list 
species. As an observation, the state agencies have shown that 
addressing the life needs and habitat requirements of declining species 
across their range before they reach the point where additional 
protections may be needed is the more prudent, economically and 
biologically sound approach to managing species trending toward 
listing. It would also enable the state agencies to work with private 
landowners to implement voluntary conservation and management actions 
without requiring public access. Funds provided to the state agencies 
through this legislation would be leveraged with non-Federal match, 
creating opportunities for successful partnerships, and apportioned to 
each state based 50 percent on its proportion of land area and 50 
percent on its proportion of people. Territories would also receive 
funding from the program.
    In addition to providing critical resources to proactively manage 
all fish and wildlife species, the ``Recovering America's Wildlife 
Act'' also provides state agencies with the ability to communicate and 
work with the public through wildlife conservation education efforts. 
The Act allows the state agencies to create and implement wildlife 
conservation education programs and projects, including public outreach 
intended to foster natural resource stewardship, and work with the 
public, industries and communities to develop local wildlife 
conservation solutions. Further, the legislation advances wildlife-
associated recreation projects by allowing state agencies to use up to 
10 percent of a state's apportionment to meet the growing demand for 
outdoor activities associated with fish and wildlife including but not 
limited to hunting, fishing, wildlife observation and photography; 
wildlife viewing areas, blinds, and platforms; water trails and access; 
and trails, trail heads and access for such projects. Having a place to 
go to recreate outdoors is one of the leading challenges to outdoor 
recreational participation. Outdoor recreation is a part of our great 
natural heritage--our identity as Americans, and we want to make 
certain that this natural heritage exists in the same or better 
condition for future Americans by nurturing a conservation ethic and 
investing in our natural resources.
    We know this is a substantial commitment and investment, but rest 
assured that the state agencies and their conservation partners are 
committed to conserving the full array of America's fish and wildlife, 
and excited to report their conservation outcomes and progress to their 
citizens and Congress. Investing in the ``Recovering America's Wildlife 
Act'' will provide economic returns to state, local and federal 
governments in the form of decreased tax payer expenditures associated 
with species listings and associated regulations, increased opportunity 
for wildlife-dependent recreation, growth in the outdoor recreation 
economy, and increases in associated jobs.
    Recent surveys document high citizen interest in conservation of 
our natural resources across the country. From a poll conducted earlier 
this year entitled ``Conservation in the West'' by Public Opinion 
Strategies and Fairbank, Maslin, Maullin, Metz and Associates, 74 
percent of westerners identify themselves as an outdoor recreation 
enthusiast, and this transcends party lines--75 percent of republicans, 
72 percent of democrats, and 76 percent of independent respondents. 
Additionally, 76 percent of western voters consider themselves a 
conservationist, and 7 in 10 voters polled say that outdoor recreation 
is very important to the economy in their state.
    Unfortunately, the essential role that our natural resources play 
in American's quality of life and economic prosperity is all too often 
overlooked. These resources are the lifeblood of many communities and 
continue as important job and revenue generators at state and national 
levels. For example, as referenced earlier from the same 2017 Outdoor 
Industry Association report, every year Americans spend more on outdoor 
recreation ($887 billion) than they do on pharmaceuticals and fuel, 
combined ($770 billion). More Americans are employed by outdoor 
recreation jobs than those in education, computer technology, insurance 
and finance, and construction. The outdoor recreation economy generates 
$124.5 billion in local, state and Federal tax revenues each year. 
Spending on hunting alone supports more American jobs (195,000) than 
the combined workforces of Apple and Microsoft (130,000). Access to 
high quality recreation opportunities drives our economy and continues 
to be a quality-of-life index criterion, and a key decision point for 
choosing a location for many of our most productive American industries 
and contributors to our GDP. As I can attest from my perspective as a 
leader in this industry, all of these economic benefits would not exist 
without healthy fish and wildlife and the habitats they depend on for 
survival, just as we do. The ``Recovering America's Wildlife Act'' 
recognizes and builds a path forward for this synergy to continue to 
sustain our high quality of life and our economic prosperity together 
into the future.
    The state agencies have a track record of successful species 
restoration and conservation. Over the last few decades by stretching 
limited funding, state agencies have built considerable expertise in 
response to the growing need to address at-risk and imperiled species. 
I offer two examples for your consideration--one from California and 
the other from the southeastern United States.
    First, the Tule elk was once a species of greatest conservation 
need. Native only to California, the Tule elk is the smallest of all 
the elk species in North America. Due to unregulated hunting and loss 
of natural habitat, they were driven nearly to extinction by the turn 
of the 20th century. The California Department of Fish and Wildlife 
(CDFW) created its Elk Management Program in order to maintain healthy 
elk herds, re-establish elk in suitable historic ranges, provide public 
educational and recreational opportunities involving elk, and to 
alleviate conflicts involving elk on private property. Through this 
program, CDFW personnel have safely captured and relocated more than 
1,200 elk since 1975 using a variety of techniques.
    California's state Tule elk population has increased from 3 herds 
totaling 500 elk in 1970, to 21 herds with about 3,800 elk today. Such 
an increase demonstrates the program's success and the state's native 
elk species will continue to recover with continued proactive measures 
and investments in their conservation.
    Second, following the 2010 filing of the so-called ``mega-
petition'' and others that covered 404 aquatic species in the 
southeast, state agencies comprising the Southeastern Association of 
Fish and Wildlife Agencies (SEAFWA) developed the Southeast At-Risk 
Species (SEARS) program in partnership with the FWS Southeast Regional 
Office. The purpose of this program is to cooperate and coordinate 
among the state agencies to address the conservation needs of the at-
risk species proposed for listing. The outcomes of this collaboration 
have been remarkable: 98 species do not require protection of the 
Federal ESA because of existing conservation actions, updated surveys, 
and re-evaluation of threats to their survival; five species have been 
down-listed from endangered to threatened; four species have been de-
listed; and five species were listed as threatened instead of 
endangered because of the overall efforts. State agencies worked across 
state boundaries and cooperatively with the FWS utilizing state and 
Federal funds together with state agency relationships and expertise.
    The bottom line is state agencies are effective at leveraging 
partnerships, relationships, expertise, capacity and funding to 
conserve fish and wildlife. We now have the opportunity to make 
additional investments to proactively apply proven conservation 
practices that will prevent the need to pursue other regulatory 
approaches to wildlife conservation on a much broader scale. State 
agencies are on the ground, in the communities, and on the front lines 
of these challenges. State agencies have prioritized building 
relationships with local communities, landowners and other stakeholders 
to nurture trust and work to better serve the fish and wildlife 
management needs of their constituents.
    Although there have been great strides in conservation made for 
important species, without much needed funding provided in this 
legislation, state agencies won't be able to stay ahead of the 
pressures that keep pushing our fish and wildlife further toward 
becoming endangered. Today, strong bipartisan support is needed to 
advance this legislation that builds upon these conservation successes 
to ensure the future of our diverse fish and wildlife is secure, to 
expand wildlife-associated recreation, and provide opportunities to 
engage and educate Americans and local communities on important fish 
and wildlife conservation issues. This will be our legacy, our gift to 
our grandchildren and their children, to leave for them the 
opportunities that we have had to enjoy and benefit from our natural 
resources, and value them for all that they provide for us.
    The fish and wildlife resources of our country are ably managed by 
state fish and wildlife agencies in partnership with Federal agencies 
and non-governmental partners. These two bills, that I have the 
privilege of testifying on, provide enhancements or improvements to 
visionary legislation dating back to 1937, that will enable state 
agencies to shore up its base, if you will, through new and concerted 
outreach and marketing in support of recruitment, retention, and 
reactivation of hunters, and the second bill offers the hope of new 
funding, new capacity for managing the full suite of fish and wildlife 
species, and their habitats, in keeping with the public trust doctrine 
under which fish and wildlife are a resource managed by state agencies 
in trust for the public and future generations. These two bills are the 
perfect package to secure the future of fish and wildlife conservation, 
outdoor recreation, and complementary education.
    In closing, Bass Pro Shops pledges to work with Members of Congress 
to implement these solutions to our growing fish and wildlife 
conservation challenges. We would ask that you enact these two pieces 
of important legislation which are critical to the long-term 
sustainability of our Nation's fish and wildlife. This is the 
opportunity to facilitate the continuation of the significant 
stewardship provided by America's sportsmen and women, and the health 
and well-being of every American for generations to come.

                                 ______
                                 

    Mr. McClintock. Great. And we thank you for your testimony.
    We will now move to questions. I have two.
    Mr. Ziehmer, could you spend just a moment talking about 
the importance of hunting for proper wildlife management?
    Mr. Ziehmer. As we look over the past, let's just say, 80 
years, as wildlife species have rebounded, we have species that 
are incredible economic engines at the local, state, and 
national levels. Those range from white-tailed deer, to wild 
turkeys, to elk, and the list goes on.
    Having hunters help state agencies manage populations at 
appropriate levels not only helps individuals, it helps 
habitat. And, in fact, managing for good habitat and 
sustainable wildlife go together. Hunters have and continue to 
play a key role in helping state agencies manage their fish and 
wildlife resources.
    Mr. McClintock. And preventing populations from over-
running the ability of the land to support them?
    Mr. Ziehmer. Correct.
    Mr. McClintock. Great.
    The other question I have is basically this. Pittman-
Robertson is primarily funded by an excise tax on firearms and 
ammunition, and archery equipment. It would seem to me that 
encouraging a new generation of hunters, shooters, and archers 
is essential in order to fulfill the purposes of the Act. Do 
you have any comment on that thought?
    Mr. Ziehmer. The revenues generated by the redirection of 
the excise tax without a doubt have been the engine for the 
past 80 years to do things that folks around the world stand in 
amazement that this country has been able to do.
    Many of these species were on the brink of being lost. 
Through hunters buying licenses, to individuals, recreational 
shooters purchasing firearms and ammunition, revenue has been 
increased and over time has allowed us to fund key management 
activities.
    As we stand here today, one of the challenges that we see 
is working to make sure hunters know the story, know their 
important role both in generating funds to allow state agencies 
to implement key activities, but also to know their role in 
management.
    And not just hunters, but being able to market and outreach 
to all citizens. We live in a democracy, and it is important to 
increase individuals' awareness and understanding of the model 
that has proven beneficial for over 80 years.
    When you look at hunters and recreational shooters, the 
majority of funds coming into Pittman-Robertson have been 
generated from those groups.
    Recreational shooters continue to grow in number. Providing 
facilities that allow safe opportunities for individuals to 
engage in those activities, as well as to be able to 
communicate with them key important conservation messages, will 
continue to serve the Nation well.
    Thank you, Mr. Chairman.
    Mr. McClintock. Thank you very much.
    I will yield back my time and recognize the Ranking Member 
for 5 minutes.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    Mr. Ziehmer, is that the correct pronunciation?
    Mr. Ziehmer. Yes.
    Ms. Hanabusa. In your testimony, you are talking about Bass 
Pro Shops and the conservation efforts that it does, and at the 
same time you are a retailer of firearms and ammunition. So, 
can you tell me exactly what your company does to promote this 
conservation work?
    Mr. Ziehmer. Yes, and I hope if you have not met the 
founder and CEO of Bass Pro Shops, Johnny Morris, I hope in the 
near future we have the opportunity to visit.
    Over the past few years, I have been blessed to get to know 
Johnny and watch the commitment. If you spend any time at all 
with Johnny Morris you will hear him make reference: one of the 
most important things Bass Pro Shops can do for the future of 
the outdoor industry is to invest in the future of 
conservation.
    Whether the economy has been strong in the retail world or 
whether it has been weak, Bass Pro Shop's commitment to 
conservation continues.
    As we continue to work with state agencies and others, as a 
company we have three pillars that we are building upon today:
    To do all we can to ensure the health of wildlife and 
habitat.
    Second, to work to do as much as we can to engage new 
audiences with the outdoors and not only help them understand 
the role of hunters and anglers, but help them understand how 
to participate in the outdoors, the responsibility they carry 
as citizens to make sure we hand that on to the next 
generation.
    And third is to look for opportunities like this to speak 
up and advocate for a system that has proven successful, and 
looking at state agencies, how they use these funds, a positive 
accountable track record.
    The modifications and flexibility provided by H.R. 2591 is 
supported by Bass Pro Shops and many others.
    Ms. Hanabusa. I understand what you are saying. I guess 
what I am looking for is, can you give me a specific example? 
Do you hold seminars? Before anyone buys a box of ammunition do 
you show them a slide?
    What exactly do you do? I know what your objectives are. 
But what exactly does the Bass Pro Shops do to effect the 
things that you just said?
    Mr. Ziehmer. In the area of hunters and shooting sports, 
and thank you for the clarification, even at our retail 
locations we hold a variety of seminars, special weekends, and 
summer camps not only for individuals, but for families that 
would want to come in and learn more about those activities.
    We also are involved with a variety of activities, not the 
least of which are what we call Outdoor Days, where we take 
activities to citizens to give them an opportunity to have 
hands-on experience, everything from kayaking, to shooting, to 
catching a fish, and the list goes on.
    In that role, we work with state agencies and other 
volunteers to demonstrate safe firearm handling and to give 
them an opportunity through BB and pellet air rifle activities 
to engage.
    We also work with a number of groups through funding that 
carry on hunter education. In our retail locations, we offer up 
and many thousands of people annually are trained at Bass Pro 
Shops through hunter education.
    So, we are actively involved and we are looking for 
additional opportunities to engage as they are appropriate.
    Ms. Hanabusa. Do you have any kind of benchmarks or data 
that you collect to show how you have effectively assisted in 
the wildlife conservation efforts? Do you adopt a particular 
species and monitor that? Or what exactly do you do for that 
conservation of wildlife issue?
    Mr. Ziehmer. Right now we are working on metrics to measure 
with key partners as we move forward under those three pillars 
that I referenced earlier, and those pillars in the area, for 
instance, in habitat management. We are looking to the experts 
to provide us what metrics we should be measuring and how to 
measure those as we move forward to make sure that we are 
advancing meaningful conservation in a very purposeful way.
    And I would be glad to visit with you and other members of 
your staff if you would like to discuss that further.
    Ms. Hanabusa. If you have a report that would be helpful, 
if you have done it already, so we could see that.
    Thank you very much Mr. Chair. I yield.
    Mr. McClintock. Thank you.
    Further questions on H.R. 2591?
    Chairman Bishop.
    Mr. Bishop. Yes. Let me ask either Austin or Mr. Ziehmer, 
because you mentioned the word ``kayaking'' right there, which 
piqued my interest.
    So, the Pittman-Robertson Fund is being supplied for the 
most part by hunters and fishermen.
    Mr. Ziehmer. Correct. And the kayak term was probably taken 
out of context regarding the Pittman-Robertson.
    Mr. Bishop. Yes, but it does fund for conservation. The 
question I had, if you put that in there, are there other 
groups that benefit from the conservation and wildlife support 
that are being funded by the hunters and fishermen, groups that 
are not necessarily hunters and fishermen?
    Mr. Scott. Mr. Chairman, if I may, I think that we all 
benefit from an increase in wildlife and increased access to 
the outdoors. The Pittman-Robertson funds, while they come from 
when somebody buys certain sporting goods, all people who use 
our natural resources benefit from the parks and the other 
things that come about.
    Mr. Bishop. There are people who will benefit from this 
fund that are not necessarily hunters and fishermen. So, 
climbers, hikers, kayakers, other types of species that are not 
sport species will all benefit from this?
    Mr. Scott. I believe that anybody who enjoys hiking, one of 
the things that they enjoy the most about hiking is seeing the 
wildlife in the forest. So, yes, I think they benefit from----
    Mr. Bishop. Have we ever thought that as this fund is 
coming from one particular group, from hunters and fishermen, 
and we certainly don't want to discourage that, but a whole 
bigger area are benefiting from that. As we start looking at 
revenue sources, have we ever started thinking, well, maybe 
some of those others who benefit from this program should also 
help in the funding of this particular program, which would 
expand the fund at the same time so you could actually do more 
recreation opportunities and more conservation habitat renewals 
that may not necessarily directly affect or directly relate to 
the hunters and the fishermen?
    Mr. Ziehmer. The simple answer is yes. In fact, later 
today, when we have discussions and hopefully questions on H.R. 
4647, you will see how that dovetails in.
    And I would reference the Dingell-Johnson Sport Fish 
Restoration Act that was passed in the 1950s that also provides 
revenue and an excise tax on fishing equipment, and that ties 
together.
    So, in answer to your question, yes, that has been thought 
of, and, in fact, H.R. 4647 is a solution to that.
    Mr. Bishop. All right. You have triggered that question in 
my mind that maybe one of the things we should be looking at is 
if we can expand this program and expand the good by also going 
after those who benefit from it without actually paying into it 
directly.
    I mean, the sportsmen, the hunters, and the fishermen are 
doing a great job here in funding a program. There are a whole 
lot of other people that benefit from that and maybe they 
should be asked to help support that at the same time. It is an 
idea I think we should maybe explore at some particular time.
    Thank you. I yield back.
    Mr. McClintock. Further questions on H.R. 2591?
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    If I may, before I ask Bob a question, Ms. Hanabusa, you 
asked about direct impacts from Bass Pro Shops. I can tell you, 
when I was 18 years old I remember quite well getting a sticker 
that said Free the Fighter that came from an order that I 
placed with Bass Pro Shops.
    And it was really Johnny Morris and Bass Pro Shops and a 
small group of people that started promoting Free the Fighter, 
that was effectively the start of catch and release 
approximately 30 years ago.
    And I think that there has been a change in the mindset of 
sportsmen today from where it was many years ago, and I think a 
lot of that originally started with that Free the Fighter in 
fishing, and it has carried itself into the hunting area, as 
well. And that is one of the reasons we see so many more fish 
and so much more, better game, if you will.
    I do want to ask one question, if I may, Bob. Some groups 
have opposed the legislation that I have presented, H.R. 2591, 
because they feel it could redirect funds away from Section 
4(b) of the Pittman-Robertson Fund. Can you speak to why this 
really should not be an issue?
    Mr. Ziehmer. When we look at H.R. 2591, it provides 
flexibilities for states to utilize these dollars if they see 
it as a priority. It is a flexibility put in the bill.
    As we look at Pittman-Robertson and all that has been 
accomplished over 80 years, and we recognize where a large 
portion of those resources are coming from, they are coming 
from hunters and recreational shooters.
    As we stand here and we look at challenges that we have in 
those two areas and maintaining those numbers for hunters, the 
flexibility to mirror what was put into the Dingell-Johnson 
Sport Fish Restoration Act that allows funds to be used for 
outreach, and recruitment, retention, reactivation efforts has 
proved important. As we watch hunter numbers continue to slide, 
we see the angler numbers continue to rise.
    Part of that is having the ability to communicate to 
hunters the importance of what they are doing, communicating to 
citizens that may not hunt today the importance of hunters, 
hoping they will become hunters, but if not, they will have a 
full understanding and appreciate the role that hunters play.
    On the recreational shooter side, it is a sport that 
continues to grow. Having facilities that allow recreational 
shooters to conduct their sport in a safe way and in a way that 
would also allow state agencies and volunteers to communicate 
to that important group the role they have in wildlife 
management in this great country can only produce benefits.
    Again, I would say that with that flexibility it is up to 
the state agency to decide whether those dollars would be 
utilized or not, and there is a limit and an average over 5 
years. Some states no doubt need this to do those activities 
for hunters and recreational shooters. Some states may not be 
in a position to use them today. Some states will aggressively 
use them off and on.
    But as we look long-term, if we want to maintain Pittman-
Robertson and continue the forward progress for what it has 
accomplished in wildlife management, H.R. 2591 is essential.
    Mr. Scott. If I may, Mr. Chairman, I will conclude with 
this. We are trying to mirror what worked with fishing.
    Mrs. Dingell. It might have been my husband's father.
    Mr. Scott. We are trying to mirror what Congresswoman 
Dingell did for fishing with the hunting funds.
    And with that, I would like to thank you for allowing me to 
present the bill, and I think it is a good piece of 
legislation, as I think the next piece of legislation is.
    Mr. McClintock. Thank you.
    Further questions on H.R. 2591? Seeing none, that will 
conclude our hearing on that bill.
    Mr. Ziehmer, we would ask that you remain for the next 
hearing, which is on H.R. 4647.
    The Chair now recognizes Mr. Fortenberry for 5 minutes.

  STATEMENT OF THE HON. JEFF FORTENBERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Fortenberry. Mr. Chairman, thank you so much for the 
opportunity to be here.
    Ranking Member Hanabusa, thank you as well.
    Chairman Bishop, always a pleasure to see you and work with 
you.
    I want to first acknowledge my collaborative partner, 
Congresswoman Debbie Dingell, for her extraordinary leadership 
in this initiative. We are working very hard to create a 
bipartisan spirit around this bill because we think it is 
essential to our country's well-being. And I am grateful for 
the opportunity to testify today.
    Mr. Chairman, last fall I stepped onto a boat on the 
Missouri River, which is at the foot of the Great Plains. It is 
among the Missouri River bottoms, about 50 miles north of 
Omaha, and this is where the vast expanse of our country really 
does begin.
    The reason I did that is we were there to look at a Corps 
of Engineers project. The Corps of Engineers about 100 years 
ago took on making the Missouri River navigable, and they made 
a series of calculations using the velocity of the water to 
actually create the conditions in which the channel would 
remain navigable.
    Over time, they did such a good job with their 
calculations, the river levels have dropped and the land along 
the sides of the river which hosted a number of species and 
habitats has diminished. So, now the Corps of Engineers is 
being forced to recreate the conditions for the spawning 
grounds of the pallid sturgeon.
    I went to look at this area, which is on the Iowa side of 
the river, and as we got a little bit closer to the weirs and 
rock barriers that were built in order to create shallow water 
for the pallid sturgeon, we ran aground in the sandy bottom. 
There was a little yellow sign in the distance on one of the 
sandbars, and I asked, ``What is that?'' Somebody had already 
gone out into this area of the river and claimed that spot for 
a duck hunting blind.
    The reason that I am telling you all this is that by a 
holistic approach to restoration of wildlife habitat, by 
creating the conditions in which not only species can thrive, 
we create the conditions for tremendous recreational 
opportunity, hunting, fishing, and community well-being. And 
that fundamentally is the purpose of the bill here today, 
Recovering America's Wildlife Act.
    Mr. Chairman, I want to move from a system which is based 
on regulation and litigation to one that is based on 
collaboration.
    As you are quite aware, the Federal Government mandates 
that each state have a state wildlife management plan, and yet, 
we do not adequately fund those. At the same time, we have 
about 8,000 species in America nearing an endangered status. 
When the endangered species law is invoked, we move into the 
realm of not only regulation but litigation, and who benefits?
    It takes years to come up with suitable plans. It takes 
multiple levels of lawsuits and government engagement and a 
waste of time and money for this country.
    There is a better way to do this, to create a proactive 
environment in which we at the Federal level are collaborating 
with the states, funding not a fully funded mandate, and moving 
funds from resource extraction into resource recovery for the 
benefit of wildlife, for the benefit of hunters, for the 
benefit of fishermen, and for the benefit of community. That is 
at its core what this bill is seeking to do.
    This has created a wave of excitement which excites me 
among the sportsmen's community, among the conservation 
community, among state administrators of wildlife agencies, who 
now see the possibility for a continuity of habitat through 
voluntary agreements like we do in Nebraska and other places 
like Wyoming. I don't know exactly how it works in California. 
It might be a little different, so I am trying to be sensitive 
to this.
    But at the same time, there are options here to use 
collaboration and partnership with landowners, farmers, and 
others to create the conditions for, again, continuity of 
habitat.
    Not only did I want to present today the options of the 
ideas in this bill, but I also wanted to thank you, because it 
helps by having a platform to get appropriate feedback, some of 
which has come from my good friend Congressman Garret Graves, 
who has a very valid concern that oil and gas revenues 
substantially come from Louisiana and a very meager portion 
returns back to a very serious complex ecological conservation 
that he has in his backyard involving coastal erosion.
    I have stood on the remnant of shores in Louisiana looking 
at the rock piles erected by the community of Grand Isle in 
order to try to stop the pressures from the Gulf from further 
eroding their land and their wildlife habitat.
    I think he has brought up a reasonable concern in this 
regard. And I think as we move forward we are actually looking 
for ways in which we could accomplish multiple objectives in 
this regard.

    [The prepared statement of Mr. Fortenberry follows:]
 Prepared Statement of the Hon. Jeff Fortenberry, a Representative in 
            Congress from the State of Nebraska on H.R. 4647
    Mr. Chairman, thank you very much for holding this hearing. I 
appreciate having the opportunity to express my strong support for the 
Recovering America's Wildlife Act, a bipartisan bill I introduced with 
Congresswoman Debbie Dingell late last year. I respectfully urge prompt 
approval of this measure.
    I'd like to begin my remarks with a story from a trip I took last 
fall along the Missouri River. The boat trip was organized by Nebraska 
Game and Parks for a review of a project to restore fishery habitat 
along the channel. Out on the water, there was a peculiar site--a 
triangular yellow sign planted on a newly formed sandbar about 50 yards 
from shore. I couldn't quite read it. It was too far from where our 
boat could navigate. I learned what it meant though. Someone had staked 
a claim for duck hunting rights on what is likely to be an opportune 
spot!
    By creating continuity of habitat for wildlife, and effectively 
integrating multiple use opportunity, we are hoping to achieve a wiser, 
cost-effective state-led governmental approach. According to the 
National Wildlife Federation, ``State fish and wildlife agencies have 
identified roughly 8,000 species in need of proactive conservation 
efforts in the United States, and the number of species petitioned for 
listing under the Endangered Species Act has increased by 1,000 percent 
in less than a decade.'' When a species officially becomes 
``endangered,'' it triggers a host of costly regulations and other 
Federal responses, many of which involve the court system. This can tie 
up the political space for years and inhibit beneficial uses of the 
habitat for hikers, hunters, anglers, and more. We can be smarter about 
this.
    This bill, H.R. 4647, is an important and creative initiative to 
conserve at-risk wildlife species in every state. It builds on a new 
model of support through proactive, collaborative, and voluntary 
constructive partnerships at the state level. The bill provides 
resources so states can make smart upstream investments to avoid 
triggering the `emergency room procedures' of the Endangered Species 
Act. H.R. 4647 will also prove to be a powerful new tool to connect 
resource extraction policy with prudent resource recovery.
    As this bill moves forward, I would like to work with the Chairman 
and members of the Committee to address specific concerns that have 
been raised so that we can make the bill even stronger. For example, we 
should help ensure that coastal states, particularly those that 
generate substantial revenue, are treated equitably with regard to the 
distribution of funds, especially those with unique conservation 
challenges.
    Another important consideration is that this bill creates a new 
balance that can prevent Federal Government over-reach as states 
address their wildlife and habitat challenges. The states have an 
obligation to implement their wildlife management plans and this 
legislation provides the necessary resources to reach their goals.
    I would also like to take this opportunity to recognize the 
important work that Members such as Congresswoman Cheney and 
Congressman Lowenthal have initiated in their to states to create a 
collaborative environment that can lead to successful outcomes.
    The Recovering America's Wildlife Act will authorize the 
distribution of some funds from existing royalties collected annually 
from the development of energy and mineral resources on Federal lands 
and waters. H.R. 4647 will provide a direct return on investment with 
all states receiving a share of $1.3 billion annually to implement 
their Wildlife Action Plans.
    Successful past efforts have saved species on the brink, including 
striped bass, white-tailed deer, elk, turkey, and our national symbol, 
the bald eagle. These are all amazing conservation success stories and 
we can continue to build on these accomplishments.
    Mr. Chairman, thank you for the opportunity to testify and I 
strongly encourage support for this important legislative initiative.

                                 ______
                                 

    Mr. McClintock. The gentlemen's time has expired, but I 
will pick up on that very thread to begin.
    This sets up a subaccount that is drawn from OCS and mining 
lease funds that right now are supporting the Federal Treasury. 
We have a projected deficit next year of well over $900 
billion. This is about 1 percent of that deficit. Is this the 
right time to put a further strain on the Treasury?
    Mr. Fortenberry. Mr. Chairman, if you would let me, I want 
to just read a paragraph that addresses the underlying funding 
question so I get the numbers precisely right, then go to the 
more philosophical point that you are raising.
    This Act would direct a portion of revenues from oil and 
gas and mineral extraction for wildlife conservation in what is 
called the Wildlife Conservation Restoration Program. Half of 
the funds, $650 million, would come from existing revenues from 
energy development on the Outer Continental Shelf and the other 
$650 million would come from existing revenues from mineral 
development on Federal lands.
    And we do know that these are expanding. I have had this 
conversation with Secretary Zinke, who is also looking for a 
constructive way to dedicate some of those funds toward his own 
backlog of maintenance in the National Park System.
    But while we are doing this, and to the point 
philosophically, what a more constructive Powell Initiative 
does, in my mind, is take the resource recovery, the trusts 
that we are gaining from resource extraction, and moving it 
back into resource recovery, again for the benefit of 
community.
    Mr. McClintock. It is not philosophy. It is simple 
accounting. This is 1 percent of the entire deficit we will be 
carrying.
    Mr. Fortenberry. You can look at that way, too, but I am 
trying to be a little more graceful.
    So, again, approaching the idea that we control these 
funds, and I am interested in good public policy, and the 
potential cost savings that come from the prevention of 
invoking of the Endangered Species is tremendous, along with 
the potential opportunity that these gentlemen have been 
talking about, about increased recreational hunting and 
sportsmen activity.
    Mr. McClintock. Let me raise one other concern, and that is 
there is a provision in the bill that basically provides these 
funds even if no public access is allowed to these public 
lands. That may not be a concern in Nebraska, but in a state 
like California that treats hunters and fishermen as second-
class citizens, that is a huge problem.
    One of the principal objectives of this Subcommittee is to 
restore public access to the public lands. Providing funding to 
states from this source to the states that have cut off access 
to the public lands is a concern. Could you address that?
    Mr. Fortenberry. Not to the specifics of the situation in 
California. I know from my own experience in Nebraska we 
approach this in a collaborative manner. We are looking for 
voluntary landowner agreements. We are looking to meet the 
multiple objectives of both species and habitat preservation, 
but also increasing the opportunities for appropriate 
harvesting and recreational land use.
    Sometimes those things, because of the delicate nature of 
the ecosystem, do conflict. A lot of the times they may not.
    Again, I cannot speak to the specifics of your state, but 
the ethos where I live, and I think in a lot of places, I 
think, is to look at this holistically.
    Mr. McClintock. All right. Thank you.
    That concludes my questions.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    Mr. Chairman, I would like to yield my 5 minutes to 
Representative Dingell, if she has anything to add. Thank you.
    Mrs. Dingell. Thank you very much.
    I want to thank both Chairman McClintock and Chairman 
Bishop for having this hearing and my colleague for being here 
and yielding to me.
    I think that maybe one of the points that we do want to 
reaffirm again is that this is, we think, a common-sense 
solution to help ensure that at-risk species are never put on 
the endangered species list. I think you and I all share that 
we don't want that to happen. And there are close to 1,800 
species right now that are nearing that list, including the 
monarch butterfly. We use different examples. I use the monarch 
butterfly, which has lost 90 percent of its population in the 
last 20 years.
    So, having said that, I want to thank you for testifying. 
People think of John Dingell, but I fish a lot too. Can you 
tell me why it is important to get the states more involved in 
this up-front conservation work?
    Mr. Ziehmer. As we look at H.R. 4647, my mind goes back to 
the congressional mandate that states prepare a state wildlife 
action plan. States have assessed the habitat and species 
conditions in their state, they have documented the threats, 
and they have created a path forward along with partners. And 
they have done this in collaboration with their public and a 
variety of organizations.
    States are ready to implement on-the-ground activities to 
help wildlife. By helping wildlife through improving habitat, 
whether you are working to improve, as an example, a three-toed 
box turtle or a prairie chicken. If you are looking at the 
habitat, other things, like mule deer. In different parts of 
the world, caribou are going to benefit.
    When we look at how we are proposing to make this the third 
leg of the stool, if we are talking about Pittman-Robertson 
today, Dingell-Johnson that followed about 15 years after 
Pittman-Robertson, today the country is ready to take the next 
step, recognizing that as citizens it is our responsibility to 
manage this incredible resource and hand it off to the next 
generation not only in a condition that they can enjoy, but in 
a condition that positions them for success. Enhanced quality 
of life, the economy, the jobs, and the list goes on.
    State agencies are positioned. State agencies have a track 
record of success. State agencies have staff with the 
knowledge. State agencies have proven accountability and the 
expertise to get this done in a way that is collaborative with 
a variety of stakeholders in their state.
    I appreciate the opportunity to comment.
    Mrs. Dingell. Thank you.
    Let me also ask you about your history. You have a strong 
knowledge of conservation programs. Do they work best when 
there is a dedicated source of funding?
    Mr. Ziehmer. As we look at many of these challenges, and 
states, as they put together their state wildlife management 
action plan, have kind of ordered the approach that they would 
move forward.
    Do they work better having dedicated funds? Without a 
doubt, absolutely. While nothing is immune from an economic 
downturn, having the ability to strategically look at a 
situation and move forward managing wildlife successfully, 
truthfully, takes decades. But we can make significant 
advancements.
    H.R. 4647 provides or would provide state agencies carrying 
the responsibility for fish and wildlife the ability to 
strategically manage and then carry out in partnership with 
their public.
    Mrs. Dingell. Thank you.
    In the remaining seconds, can you talk about which species 
might benefit the most from this bill?
    Mr. Ziehmer. This bill provides states much needed revenue. 
And while it is quick and it will benefit individual species, I 
would say the funds, as we work, are going to benefit the 
habitat. And the habitat and the landscape that supports many 
species are going to benefit. As we move together, whether it 
is streams, rivers, prairies, timberland, tundra, habitats are 
going to benefit, wildlife is going to benefit, citizens are 
going to benefit.
    Mrs. Dingell. Thank you, Mr. Chairman.
    Mr. McClintock. Further questions on H.R. 4647?
    Yes, Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman.
    Mr. Chairman, first of all, I want to commend Mr. 
Fortenberry and Mrs. Dingell for introducing this legislation, 
the objectives of which I could not be more supportive of. I 
want to thank you for pushing this and for your efforts to 
educate the Committee.
    Mr. Fortenberry, in regard to your comments about how this 
is actually a proactive effort, this is an effort to prevent 
regulation, to prevent litigation, getting on the front end, 
preventing endangered species, ensuring sustainability of 
habitat--I think it is very important.
    I do have concerns, as you noted. And before I get into 
those, Mrs. Dingell, I worked with your husband and a number of 
other people, including many that I am looking at in this room, 
in the mid-1990s and late 1990s, on the Conservation and 
Reinvestment Act, where there was a very similar title in that 
legislation, Title III, that largely achieved, or was designed 
to achieve, the goals of your bill.
    And many of us in this room spent, I don't think we could 
quantify it in hours, weeks, or months, but, candidly, years 
working and did pass that legislation through the House of 
Representatives with incredible bipartisan support between 
George Miller and Don Young. I don't know that that ever 
happened again.
    So, I want to be clear that I am very supportive of the 
objectives.
    Here is where I have strong concerns. One half of the 
source of revenues from offshore energy revenue streams from 
Outer Continental Shelf energy production. The state of 
Louisiana, as Mr. Fortenberry noted, produces in some years up 
to 88 percent of all the offshore energy in Federal waters in 
the OCS.
    The very area where this production is occurring, we are 
losing, by some estimates, one football field of land per hour. 
Coastal wetlands, some of the most productive habitat in the 
North American continent, largest wintering habitat for 
migratory waterfowl, some of the most productive fishing 
grounds in the Gulf of Mexico. In fact, not just in the Gulf of 
Mexico but in the United States. We produce more commercial 
fisheries than anywhere in the continental United States.
    So, a very, very productive area. But we are losing it. We 
are losing that habitat for migratory waterfowl. We are losing 
that habitat for the fish and many other species that live in 
that area. And we are losing the habitat for really important 
species that we call people.
    We have lost 2,000 square miles. How big is that? If that 
were Rhode Island, the state would not exist. We would have 49 
states today. So, this whole concept of diverting money out of 
this area and putting it toward any other programs in any other 
areas is concerning.
    The other revenue stream that you tap is the Mineral 
Leasing Act. The Mineral Leasing Act currently shares 50 
percent of all the revenues with the states that host set 
production. In the case of the OCS, it is only 37.5 percent of 
production that was post-December of 2006. It ends up coming 
out to a fraction of a percent since 2006 each year, a fraction 
of a percent of the revenue generated.
    Let me put this in perspective, Mr. Chairman. We have 
generated about $200 billion for the U.S. Treasury from our 
Outer Continental Shelf activities. I said this the other day, 
I will say it again: we have to protect the goose that laid the 
golden egg. We cannot continue to have this extraordinary 
revenue stream by not reinvesting in the sustainability of the 
area.
    Mr. Fortenberry brought up a point that I think perhaps was 
not captured, and I want to reiterate that. He noted that under 
the draft 5-year plan that is proposed right now for offshore 
energy production, there is a proposal to expand that 
production into new areas. Those new areas, as you know from an 
appropriator, are not included in the budget baseline, which 
means that is new money.
    Mr. Chairman, I think perhaps expanding energy production 
could address some of your concerns, and mine and many other 
people's, in regard to deficit reduction by introducing new 
revenue streams to the Federal Government.
    It would also give us the ability to look at directing some 
of those revenues to the sustainability of species, reinvesting 
them in conservation activities.
    It could also perhaps address more robust revenue sharing 
to ensure that we have a sustainable area, a sustainable 
revenue stream for some of these activities in the future.
    So, I think there is a deal in there somewhere, and I 
pledge to work with all of you, because I am supportive of the 
goal. But I do want to highlight the concerns that I have 
representing south Louisiana and I think some other areas of 
the Gulf Coast.
    In my remaining 17 seconds, can I get an ``amen'' from 
anybody?
    I yield back. Thank you, Mr. Chairman.
    Mr. McClintock. Further questions?
    Mr. Thompson.
    Mr. Thompson. Thank you, Chairman.
    Mr. Ziehmer, I want to thank you for testifying before the 
Subcommittee in support of the Recovering America's Wildlife 
Act. As you know, this bill will help directly fund wildlife 
conservation at the state level, which will create more 
homegrown solutions to conservation and restoration programs.
    In your opinion, how would these additional funds help 
states manage the resources in a climate where existing 
wildlife conservation programs are spread thin at this point?
    Mr. Ziehmer. I appreciate that question, as we look at the 
state wildlife management plans, the action plans that have 
been put together will allow states to move those forward. And, 
again, those plans, as you pointed out, were put together in 
partnership as the states work to engage the public and as they 
put those plans together.
    Having the resources to fund and address habitat issues, 
research needs, and on-the-ground projects will be essential.
    Mr. Thompson. I don't know if this would fall in with that 
category or not. Right now, our numbers for white-tailed deer 
with chronic wasting disease are kind of exploding in certain 
places within the state. Is that the type of research? Or is 
that a different pot of money?
    Mr. Ziehmer. No, these funds could be applicable, as I see 
it, to wildlife disease, which really is a front-burner issue 
for state fish and wildlife agencies. Wildlife diseases, as you 
know, are varied. In the fisheries world, it could be whirling 
disease or other things. In the mammal world, chronic wasting 
disease.
    When you look at invasive species, it will allow states to 
address things like plants impacting grasslands, invasive 
species impacting waterways, and the list goes on.
    Also, you reference white-tailed deer. As we work to 
balance and manage habitat and many of the diversity species 
that might be in that habitat, just finding the need and using 
funds to make sure that we are balancing both abundant wildlife 
and rare wildlife, working to ensure that not only are we 
looking at good habitat, but we are doing it on a landscape-
scale approach, having the resources so states can cooperate 
with one another to reach an end goal.
    Mr. Thompson. The previous 6 years, I chaired the 
Conservation Subcommittee in Agriculture. I know how important, 
actually, conservation education is. And specifically this bill 
will allow states to invest in wildlife conservation education 
efforts.
    How do you envision how the states will work with other 
public and private entities to leverage those initial moneys 
that we would invest to teach our youth the importance of 
environmental stewardship?
    Mr. Ziehmer. As we look at this--and I was quick during the 
testimony to stress that these funds will enable states to 
manage all wildlife, both game and non-game--an important 
component that will come with this funding is the opportunity 
for states to serve all citizens. Regardless of where you 
reside, you will likely benefit from these resources.
    Education is key, in the public school system and others, 
helping them understand the importance of the precious 
resources, their role, how they can participate in these. And 
whether it is walking trails, whether it is access to these, 
those are all key components, and no doubt are key cogs for 
long-term sustainable conservation in this country.
    Mr. Thompson. Yes, as I have observed other conservation 
dollars that we invest, specifically through the farm bill, we 
see for every dollar a leverage of $7 that comes from non-
profits, NGOs, and the private sector. Are we thinking that 
that would be sort of the same type of energy with this 
investment?
    Mr. Ziehmer. This investment does call for a 25 percent 
non-Federal match. By and large, these dollars will be put on 
the landscape without matching them through the license fees of 
hunters or anglers.
    Looking for new partners, new ways to put those out on the 
street, and, again, as history has shown, investing in 
conservation is a great investment for the country in so many 
ways.
    Mr. Thompson. Yes, a tremendous return on investment.
    Thank you, Chairman. I yield back the balance of my time.
    Mr. McClintock. Thank you.
    Further questions?
    Seeing none, that concludes our consideration of H.R. 4647.
    Mr. Ziehmer, your work here is done, and ably so. You are 
certainly welcome to stay if you have an interest in the other 
bills. Otherwise you are free to go.
    The Committee will now consider H.R. 4429, by Congressman 
Bergman.
    Congressman Bergman is recognized for 5 minutes.

    STATEMENT OF THE HON. JACK BERGMAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Bergman. Thank you, Mr. Chairman. I want to thank the 
Committee for holding the hearing today to consider my bill, 
H.R. 4429, the Cormorant Control Act, to address a growing 
problem in the Great Lakes region that ultimately has serious 
negative downstream effects all the way to the Gulf of Mexico.
    For those of you who may not be aware of what a double-
crested cormorant is, it is a large water bird that spends most 
of its day either resting or eating. In fact, when they do eat, 
they tend to hunt. Very organized. They can consume several 
pounds of fish per day, and my district in Michigan is one of 
their largest breeding sites and where this species spends the 
majority of its time during the spring, summer, and early fall.
    Cormorants are protected under the Migratory Bird Treaty 
Act and managed by the Fish and Wildlife Service. While Fish 
and Wildlife gives states the authority to control cormorant 
populations through a Federal depredation order, a May 2016 
court order stopped my state, among others, from being able to 
effectively manage these bird populations.
    This has ultimately led to a troubling situation for our 
fish populations in the Great Lakes. Without the ability to 
effectively manage cormorant populations, the livelihood of our 
recreational and commercial fishing industries is threatened, 
which is a critical threat to our local economies.
    Since coming to Congress, I have heard from stakeholders 
throughout my district on this issue. In fact, one of my very 
first meetings regarding the cormorants was back in the 
district shortly after being sworn in with a group led by a 
gentleman by the name of Gary Gorniak and several other members 
of the Upper Peninsula Sportsmen's Alliance.
    Everyone from Captain Ed of Trout Scout Charters in Alpena, 
Michigan, and business owners in the Les Cheneaux or Drummond 
Islands, to biologists throughout the state have shared similar 
sentiments about the negative impact this court order is 
having.
    While the Fish and Wildlife Service has been working 
diligently to bring some relief to certain aquaculture 
facilities, it is clear that its hands are tied when it comes 
to free-swimming fish areas.
    For this reason, I introduced the Cormorant Control Act to 
rescind the court order and reinstate the double-crested 
cormorant depredation orders.
    Effective cormorant management is truly a joint effort with 
Federal, state and local input, and the state of Michigan has 
been an excellent example of ``how to'' in this process. There 
can be a balance between protecting one species without doing 
severe harm to another. We can balance scientific fact with 
basic economic consequences.
    I support the underlying basis of the Migratory Bird Treaty 
Act, and I understand there is value in protecting this 
species. But right now, we are doing nothing. And doing nothing 
is threatening our fisheries, a $7 billion, with a ``b,'' $7 
billion-a-year industry critical for Michigan.
    In Michigan's First District, we pride ourselves on being 
responsible stewards of all our natural resources. Our 
heritage, our economies, and our special way of life depend on 
that stewardship. And this issue is critical to our state and 
the 23 other states that now no longer have management plans in 
place.
    H.R. 4429 recognizes how important it is for states to have 
proper management plans for controlling this bird population, 
which is why it simply allows for the order that had been 
previously successful in protecting our fish populations 
without threatening cormorant population levels.
    Again, I want to thank the Committee for holding this 
hearing today, and for Mr. Randy Claramunt from Michigan's 
Department of Natural Resources, who is here today testifying 
on the Cormorant Control Act.

    [The prepared statement of Mr. Bergman follows:]
   Prepared Statement of the Hon. Jack Bergman, a Representative in 
            Congress from the State of Michigan on H.R. 4429
    I want to thank the Chairman and the Committee for holding this 
hearing today to consider my bill--H.R. 4429, the Cormorant Control 
Act--to address a growing problem in the Great Lakes region.
    For those of you who might not be aware of what a double crested 
cormorant is, it's a large water bird that spends most of its day 
either resting or eating. They can consume several pounds of fish per 
day, and my district in Michigan is where one of their largest breeding 
populations likes to spend its time during certain parts of the year.
    Cormorants are protected under the Migratory Bird Treaty Act, and 
managed by the Fish and Wildlife Service. While Fish and Wildlife gives 
states the authority to control cormorant populations through a Federal 
Depredation Order, a May 2016 court order stopped my state of 
Michigan--among others--from being able to effectively manage these 
bird populations.
    This has ultimately led to a troubling situation for our fish 
populations in the Great Lakes. Without the ability to effectively 
manage cormorant populations, the livelihood of our recreational and 
commercial fishing industries is threatened--which is critical to our 
local economies.
    Since coming to Congress, I've heard from stakeholders throughout 
my district on this issue. One of my very first meetings back in the 
district after being sworn in was with a gentleman named Gary Gorniak 
and several other members of the Upper Peninsula Sportsmen's Alliance 
regarding this very issue.
    Everyone from Captain Ed of Trout Scout Charters in Alpena, 
Michigan and business owners in the Les Cheneaux or Drummond islands, 
to biologists throughout the state have shared similar sentiments about 
the negative impact this court order is having.
    And while the Fish and Wildlife Service has been working diligently 
to bring some relief to certain aquaculture facilities, it is clear 
that its hands are tied when it comes to free-swimming fish areas.
    For this reason, I introduced the Cormorant Control Act, to rescind 
the court order and reinstate the double-crested cormorant depredation 
orders.
    Effective cormorant management is truly a joint effort with 
Federal, state and local input--and the state of Michigan has been an 
excellent example of ``how to.'' There can be a balance between 
protecting one species, without doing severe harm to another. We can 
balance scientific fact with basic economic consequences.
    I support the underlying basis of the Migratory Bird Treaty Act, 
and I understand there is a value in protecting this species. But right 
now we are doing nothing, and that is threatening our fisheries--a $7 
billion dollar a year industry which is critical for Michigan.
    In Michigan's First District, we pride ourselves on being 
responsible stewards of all our natural resources. Our heritage, our 
economies, and our special way of life depends on it. And this issue is 
critical to our state and the 23 other states that now no longer have 
management plans in place.
    H.R. 4429 recognizes how important it is for states to have proper 
management plans for controlling this bird population, which is why it 
simply allows for the order that had been previously successful in 
protecting our fish populations without threatening cormorant 
population levels.
    Again, I want to thank the Committee for holding this hearing 
today, and for Mr. Randy Claramunt from Michigan's Department of 
Natural Resources who is here testifying on the Cormorant Control Act.

                                 ______
                                 

    I am going to do a quick intro of Mr. Claramunt, if I 
could.
    I am pleased to introduced Randy, who is a Basin 
Coordinator with the Michigan Department of Natural Resources. 
He serves as the Fisheries Division's lead for the Lake Huron 
fisheries management and is the Division's lead for cormorant 
management in Michigan.
    He is also a representative of the Council of Lake 
Committees for the Great Lakes Fisheries Commission. Mr. 
Claramunt has worked on the Great Lakes since the 1990s and is 
recognized as an expert in management of Great Lakes salmon and 
their prey.
    He has also published numerous scientific articles and 
technical reports and has been recognized for his 
accomplishments, including Biologist of the Year awarded by the 
Midwest Association of Fish and Wildlife Agencies for 
unparalleled initiative toward the better understanding of fish 
and their conservation.
    Again, unparalleled initiative. I am proud to welcome him 
here today. And I yield back.
    Mr. McClintock. The gentleman is recognized for 5 minutes.

STATEMENT OF MR. RANDY CLARAMUNT, LAKE HURON BASIN COORDINATOR, 
  MICHIGAN DEPARTMENT OF NATURAL RESOURCES, BAY CITY, MICHIGAN

    Mr. Claramunt. Mr. Chairman, members of the Subcommittee, 
on behalf of Keith Creagh, Director of the Michigan Department 
of Natural Resources, thank you for inviting us to testify 
regarding H.R. 4429, the proposed Cormorant Control Act, 
introduced by our Representative of Michigan's First 
Congressional District, Congressman Bergman.
    I am Randy Claramunt, the Lake Huron Basin Coordinator of 
MDNR Fish Division. Also joining me today is Dr. David Fielder, 
one of our Great Lakes biologists.
    We are especially appreciative of Congressman Bergman for 
his response to our stakeholder concerns regarding cormorant 
impacts on Great Lakes fisheries. His district is built on 
communities that are tightly linked with the health of the 
water, the wildlife, and the fisheries.
    We share the concerns of the stakeholders that reinstating 
cormorant management is critically needed to maintain a 
sustainable balance between fisheries and wildlife populations 
in the Great Lakes region and across the United States.
    From a Great Lakes perspective, the history of cormorants 
is very complex in their impacts on fish. But we can summarize 
it into three main themes. First, cormorant numbers in northern 
nesting areas have risen well beyond historic levels. Second, 
cormorants are having direct impact on valuable and sensitive 
fish populations. And last, without appropriate and shared 
management, cormorant impacts on fish populations can cause 
harm to fisheries and communities.
    The Great Lakes support several important fisheries, 
including commercial, recreational, and tribal, which are 
collectively valued at more than $7 billion annually and 
support more than 75,000 jobs. These are highly valued, shared 
resources, and jointly managed through comprehensive efforts by 
all levels of government. Cormorant management is also needed 
and should be applied in the same way.
    Cormorants are a migratory bird, and they nest in northern 
latitudes of the largest nesting colony in the Great Lakes 
where they appear to have numbered 6,000 birds historically. 
Several invasions of non-native fish species in the Great Lakes 
contributed to cormorants expanding to numbers never before 
seen by fish and wildlife experts and have substantial impacts 
on fish populations.
    The diet of a cormorant is almost exclusively fish. An 
adult cormorant can eat over a pound and a half of fish each 
day, and one nest requires 70 pounds of fish a year.
    In the Great Lakes, cormorants increased steadily to 
115,000 breeding pairs, almost a quarter million birds, by the 
year 2000, resulting in 77 million pounds of fish being 
consumed annually.
    These impacts are well described by Mark Engle, a local 
resident in the Les Cheneaux Islands of northern Lake Huron 
whose family owns and operates a local camping resort. By the 
year 2000, his business was losing vacationers every week 
because it was well-known that cormorants were having direct 
impacts on local native fish populations.
    He recalled an Ohio family coming to visit his resort and 
saying to him that it was hard to believe that there was all 
this water and no fish. His community had a 40 percent drop in 
the local workforce when the fishing collapsed.
    In response to stakeholder concerns, the U.S. Fish and 
Wildlife Service developed a public resource depredation order 
in 2003 to provide joint management of cormorants in 24 states, 
including the Great Lakes. These depredation orders allowed 
states and other management agencies to share in the management 
of cormorants. Through the collaborative efforts of multiple 
agencies and volunteer networks across the Great Lakes, 
protection of free-swimming fish and enhancement to local 
communities were realized.
    However, in May of 2016, these depredation orders were 
rescinded. The removal of the Federal authority and the ability 
of the state to co-manage cormorants at the local level has had 
an immediate and significant impact on Michigan's natural 
resources.
    The Michigan DNR and other Great Lakes management agencies 
stand ready to assist the U.S. Fish and Wildlife Service in the 
management of cormorants, which will be possible through the 
passage of this bill. This is an urgent matter, and we greatly 
appreciate Congressman Bergman and the Committee for support of 
this bill.
    Thank you.

    [The prepared statement of Mr. Claramunt follows:]
  Prepared Statement of Randall M. Claramunt, Michigan Department of 
                     Natural Resources on H.R. 4429
 managing double-crested cormorants, great lakes fish, and sustainable 
                               fisheries
    To Chairman McClintock and Congressman Bergman, and on behalf of 
Keith Creagh, Director of the Michigan Department of Natural Resources 
(MDNR), I would like to thank you for the invitation to discuss 
cormorant management from a Great Lakes perspective. I am Randy 
Claramunt, the Lake Huron Basin Coordinator for the Fisheries Division 
of the MDNR. Also joining me today from is Dr. David Fielder, one of 
our Great Lakes fisheries biologists. This testimony was written by me 
and David Fielder with input from James Dexter, MDNR Fisheries Chief.

    We are especially appreciative of Congressman Bergman for his 
response to our stakeholder concerns regarding cormorant impacts on 
Great Lakes fisheries. Congressman Bergman's district has hundreds of 
miles of Great Lakes coastline and his district is built on communities 
that are tightly linked with the health of the water, the wildlife, and 
the fisheries. We share the concerns of his stakeholders, not only 
within Congressman Bergman's district, but across the Great Lakes, 
because cormorant numbers in northern nesting areas have risen well 
beyond historic levels and they are having direct impacts on valuable 
and sensitive fish populations. In combination with invasive species 
and habitat destruction, these threats not only disrupt the fragile 
balance of the Great Lakes ecosystem, but also the people, their 
livelihoods, and the communities upon which they support.

    The Great Lakes supports several important fisheries including 
commercial, recreational, and tribal which are collectively valued at 
more than $7 billion annually \1\ and support more than 75,000 jobs. 
From a Great Lakes perspective, these highly valued resources are 
jointly managed through comprehensive efforts by all levels of 
government. Through support of H.R. 4429, the state of Michigan is 
supportive of reinstating effective cormorant management, applied in 
the same collaborative way that we use to protect our natural resources 
and people, to maintain a sustainable balance between fisheries and 
wildlife populations in the Great Lakes region and across the United 
States.
---------------------------------------------------------------------------
    \1\ ASA. 2013. Today's angler: a statistical profile of anglers, 
their targeted species and expenditures. Alexandria, Va. American 
Sportfishing Association.

---------------------------------------------------------------------------
The History and Background on Cormorant Populations

    Double-crested cormorants (hereafter referred to as `cormorants') 
are a migratory, colonial nesting, water bird native to North America. 
There are five geographically distinct breeding populations within 
North America, stretching from coast to coast. The largest is that of 
the Mississippi flyway including the Great Lakes region. Cormorant 
numbers in the Great Lakes were documented beginning in the early 1900s 
and at their peak in the 1940s, cormorants appeared to have numbered 
around 6,000 birds. However, region-specific numbers were not 
documented until the early 1970s, which at that time it was estimated 
that about 2,000 cormorants inhabited the Great Lakes region. By the 
mid-1970s, there was concern over the declines of most migratory water 
birds due to the effects of contamination (i.e., DDT) in the 
environment. During that time, cormorant numbers were at their lowest 
and were estimated to be less than 100 birds.\2\
---------------------------------------------------------------------------
    \2\ 2Wires, L.R. 2013. The double-crested cormorant: plight of a 
feathered pariah. Yale University Press. 368p.
---------------------------------------------------------------------------
    Cormorants are migratory and they nest in northern latitudes, 
spending the spring, summer, and fall on the breeding grounds and then 
they migrate south to the Gulf of Mexico over winter. Cormorants nest 
on uninhabited islands, often along with other colonial water birds 
such as gulls, terns, and herons (Figure 1). The diet of cormorants is 
almost exclusively fish and they depend on the surrounding waters to 
sustain both breeding adults and to feed their young once they hatch. 
Cormorants are not very selective in the fish they consume and adult 
birds have been documented to consume fish as long as 20 inches, albeit 
most cormorants tend to feed on smaller fishes (Figure 2).

  Figure 1. The black birds are double-crested cormorants and include 
  both mature nesting and immature birds co-habiting a nesting colony


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    .epsFigure 2. Typical consumption of game fish by cormorants as 
 determined by stomach analysis. These specimens are from Saginaw Bay, 
                               Lake Huron
                               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                              
                               
                               


    .epsIn the Great Lakes, cormorant predation on fish will occur 
during the spring and fall migration, and most importantly, during the 
cormorant breeding season. Nesting colonies in the northern regions, 
especially for critical islands and coastal habitats in the Great 
Lakes, will tend to concentrate cormorants. But, adult birds are 
limited in their foraging excursions so as not to spend too much time 
away from the nest, whether incubating eggs or tending to newly hatched 
fledglings. Consequently, their feeding pressure will be most intense 
in island and coastal habitats, which are also critical fisheries 
habitats and important in sustaining fisheries populations.
    An adult cormorant will consume about 1.3 pounds of fish each 
day.\3\ Each adult is typically on the breeding grounds for about 150 
days each year. In addition, a successful cormorant nest requires about 
70 pounds of fish to sustain the nest over the breeding season. As an 
example, a cormorant rookery of just 100 nests would result in the 
consumption of about 46,000 pounds of fish over the breeding season.
---------------------------------------------------------------------------
    \3\ Seelfelt, N.E. 2005. Foraging ecology, bioenergetics and 
predatory impact of breeding double-crested cormorants (Phalacrocorax 
auritus) in the Beaver Archipelago, Northern Lake Michigan. A 
Dissertation. Michigan State University, Department of Zoology. East 
Lansing.
---------------------------------------------------------------------------
    Cormorant populations would be sustainable if the numbers of birds 
and their respective breeding colonies recovered to the levels measured 
historically. Using the example above, however, a typical nesting 
colony in the Great Lakes today is 1,000 cormorants with some rookeries 
exceeding 10,000 cormorants in size. The distance cormorants will fly 
to find food is proportional to the number of other cormorants nesting 
on the same islands. Their feeding is concentrated in a radius from the 
island to be known as Ashmole's Halo (named for Philip Ashmole who did 
seminal research on the phenomenon in 1963; Figure 3).\4\ A colony of 
1,000 breeding pairs would have a halo radius of about 10 miles or an 
area of about 193,000 acres. The impacts scaled up in the 1990s and 
2000s when cormorant numbers rose across the Great Lakes and much of 
the rest of North America. In the Great Lakes alone, cormorants 
increased steadily, peaking at about 115,000 breeding pairs around the 
year 2000. At these levels, fish consumption in the Great Lakes 
amounted to an estimated 77 million pounds each year.\5\
---------------------------------------------------------------------------
    \4\ Ashmole, N.P. 1963. The regulation of number of tropical 
oceanic birds. Ibis 103, 481 458-473.
    \5\ Bence, J.R. and N.E. Dobiesz. 2000. Estimating forage fish 
consumption in Lake Huron. Great Lakes Fishery Commission, Project 
Completion Report. 86p.
---------------------------------------------------------------------------

 Figure 3. Areas of cormorant predation influence, based on 2005 peak 
  abundances. Circles are known as Ashmole's halos of predation effect


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    .epsThe substantial expansion of nesting colonies in the Great 
Lakes has raised concerns over impacts from their predation on fish, 
especially in sensitive island and coastal habitats as these also tend 
to be the same areas that the support local communities and their 
fisheries. But, there are additional concerns including competition 
with threatened and endangered co-nesting species, destruction of 
vegetation (including rare forms) on the islands, and fouling of aids 
to navigation that will not be covered in this testimony.
Why Have Cormorants in the Great Lakes Region Expanded Beyond Historic 
        Levels?
    Once released from the limiting effects of DDT, which was banned in 
1972, cormorants began to reproduce and grew in capacity to the 
available food resources and nesting habitat. During the latter half of 
the 20th century in both the Great Lakes and Gulf states, food 
resources for cormorants increased substantially. In the southern 
United States, fish from the easily accessible pond-reared aquaculture 
facilities increased the over-winter survival of the birds and in the 
northern region, there was a growing abundance of near-shore invasive 
prey fish in the Great Lakes, namely alewives and rainbow smelt. 
Alewives and smelt invaded the Great Lakes and reached extremely high 
levels in the 1970s and 1980s because predator fish populations had 
been decimated by the invasion of sea lamprey a decade earlier. The 
alewives and smelt provided a new high-energy, easily accessible food 
resource for cormorants that was not available historically. Under 
these conditions, cormorants expanded to numbers never before seen by 
fish and wildlife experts and to levels that were not sustainable for 
the Great Lakes.
    During the same period of the rapid expansion of cormorants in the 
Great Lakes, state, federal, and tribal fisheries managers instituted 
extensive fish stocking programs to restore a better balance in the 
food web through restoration of native lake trout populations and 
stocking of Pacific salmonines.\6\ The goals were to control alewife 
and smelt populations while restoring Great Lakes fisheries. During the 
late 1970s and through the 1980s, predator fish populations and 
cormorant populations expanded substantially and concurrently, but were 
headed for a collision course. In addition to record high salmon and 
trout levels, by the early 2000s every uninhabited island had some 
level of nesting cormorants and even many man-made structures, such as 
navigation buoys and break walls, also hosted nests. As cormorants 
reached all-time high levels in the Great Lakes, a new threat occurred 
through the invasion of zebra and quagga mussels thereby limiting the 
production of the Great Lakes food web through their high filtering 
rates. Fish stocking levels have been reduced to try to bring fish 
predation in balance with prey fish production. In most of the Great 
Lakes, alewife and smelt populations are now at very low levels, salmon 
and trout fisheries are severely reduced, and cormorant predation on 
fish is an exacerbating stressor on Great Lakes fisheries.
---------------------------------------------------------------------------
    \6\ Claramunt, R.M., C.P. Madenjian, and D.F. Clapp. 2013. Pacific 
salmonines in the Great Lakes basin. In Great Lakes Fisheries Policy 
and Management. Edited by N.J. Leonard, C.P. Ferreri, and W.W. Taylor. 
Michigan State University Press, East Lansing, Michigan. Pages 609-650.

---------------------------------------------------------------------------
The Impacts of Cormorants on Great Lakes Fisheries

    Cormorants certainly have direct impacts on fisheries resources 
because they consume fish, but there has not been agreement on the 
relative impact of their predation or, most importantly, what level of 
fish consumption constitutes an acceptable level. One of the initial 
attempts to evaluate the level of cormorant predation on fish took 
place in the mid-1990s in a region of Lake Huron called Les Cheneaux 
Islands. It is a 36 island archipelago in the northern most portion of 
Lake Huron. The channels and embayments of this region form pristine 
aquatic habitat and is home to multiple small towns and communities 
that are dependent on important fisheries, of which yellow perch are 
the centerpiece. The study, led by researchers from the University of 
Michigan, estimated cormorant consumption of yellow perch and compared 
it to numbers that were being harvested by anglers.\7\ Although they 
estimated as many as 470,000 yellow perch were consumed by cormorants 
in 1995, the researchers believed this to be a small fraction of the 
overall perch population and therefore likely inconsequential.
---------------------------------------------------------------------------
    \7\ Belyea, G.Y. 1997. The impact of cormorant predation on yellow 
perch in the Les Cheneaux Islands, Lake Huron. Pages 42-46 in J.S. 
Diana, G.Y. Belyea, and R.D. Clark Jr. editors. History, status, and 
trends in populations of yellow perch and double-crested cormorants in 
Les Cheneaux Islands, Michigan. Michigan Department of Natural 
Resources Special Report 17, Ann Arbor, Michigan, USA.
---------------------------------------------------------------------------
    But to Mr. Mark Engle, a local resident whose family owns and 
operates rental cabins and a local camping resort, he noticed the 
impacts of cormorants and his family suffered direct consequences. His 
family business is located between Cedarville and Hessel in the Eastern 
Upper Peninsula of Michigan along the northern shore of Lake Huron. The 
Engle family is part of a community that is nestled in the protected 
waters of the Les Cheneaux Islands, facing Marquette Island which is 
the largest of the 36 islands an island complex that spans 12 miles of 
shoreline along the M-134 Scenic By-Way.
    His family purchased Les Cheneaux Landing in 1982 on the hope to 
continue a business that is centered on family vacations and on 
sportfishing based on the prominent native species, the yellow perch. 
The Engle family took pride in being able to cater to families, fishing 
in small boats sheltered by the Les Cheneaux Islands. By the mid-1980s, 
however, Mr. Engle notices a marked increase in the numbers of 
cormorants. According to Mr. Engle, he recalled seeing the clear water 
being stirred up as cormorants chased schools of yellow perch in front 
of his resort in 1986 and asking himself how the perch populations 
could sustain that level of predation. He also claimed that by 1995, he 
witnessed an explosion of cormorants and personally witnessed it 
describing that the small Goose Island, being just over 40 acres, now 
embodied a large cormorant rookery numbering in the thousands of 
nesting birds, not including juveniles and individuals.
    The observations by the Engle family were supported by scientific 
data collected by the Michigan Department of Natural Resources. The 
perch population and fishery of the Les Cheneaux Islands collapsed 
within just 5 years after the University of Michigan concluded that 
cormorant populations wouldn't impact the populations. The perch 
collapse prompted further research by state and Federal partners using 
an innovative approach of modeling metrics of perch population trends 
as explained by trends in cormorant abundance.\8\ Those modeling 
metrics firmly established that cormorant predation was the major 
explanatory factor in the perch declines.\9\ During the same period 
where cormorants were linked with perch declines in the Les Cheneaux 
Islands, other studies emerged from around the Great Lakes establishing 
connections between cormorant abundance and declines of game fishes and 
fisheries.\10\<SUP>,</SUP>\11\
---------------------------------------------------------------------------
    \8\ Fielder, D.G. 2008. Examination of factors contributing to the 
decline of the yellow perch population and fishery in Les Cheneaux 
Islands, Lake Huron, with emphasis on the role of double-crested 
cormorants. Journal of Great Lakes Research. 34:506-523.
    \9\ Fielder, D.G. 2010. Response of yellow perch in Les Cheneaux 
Islands, Lake Huron to declining numbers of double-crested cormorants 
stemming from control activities. Journal of Great Lakes Research. 
36:207-214.
    \10\ Lantry, B.F., Eckert, T.H., Schneider, C.P. 1999. The 
relationship between abundance of smallmouth bass and double-crested 
cormorants in the eastern basin of Lake Ontario. New York Department of 
Environment and Conservation. Special Report. 9 pp.
    \11\ Rudstam, L.G., VanDeValk, A.J., Adams, C.M., Coleman, J.T., 
Forney, J.L., & Richmond, M.E. 2004. Cormorant predation and the 
population dynamics of walleye and yellow perch in Oneida Lake. 
Ecological Applications, 14:149-163.
---------------------------------------------------------------------------
    Some of the studies looked at the feeding patterns of cormorant and 
they proved insightful but they are not very indicative of population 
level impacts. Often cormorant diets are dominated by small forage 
fishes, because of their abundance, and game fishes constitute only a 
minority of the consumption. Because cormorants tend to consume 
smaller, younger fish, their feeding will appear to mimic declines in 
fish reproduction. A number of research projects have documented this 
impact by cormorant predation on yellow perch, walleye and smallmouth 
bass. Even so, this impact is difficult to document because of the 
latent effect of cormorant predation are hard to detect until years 
later in the fish populations.
    According to Mr. Engle, by the year 2000, his business was losing 
vacationing anglers every week because it was well known that 
cormorants had severely impacted the local, native fish populations. He 
recalled an Ohio family visiting his resort and saying to him that was 
hard to believe that ``there is all this water and no fish.'' The Engle 
family experienced a sharp drop in their customer base. Fishing 
families, who had been coming to stay at the Engle resort for many 
years and even renting the same cabin for the same week, reported that 
they were not catching any keeper yellow perch during their stay and 
subsequently did not make reservations for the following year. The 
local community felt a 40 percent drop in the local work force, 
especially including youth and families, because of the direct impacts 
from a loss of tourism and fishing. Community bait shops and resorts 
closed and almost every service-based industry struggled financially. 
The Michigan Department of Natural Resources also documented that the 
harvest of yellow perch had declined from a high of 375,000 to just 695 
fish by the year 2000.
The Management of Cormorants in the Great Lakes
    The concept that predators like cormorants can be allowed to 
fluctuate naturally is based on the idea that they will not likely 
cause the collapse of a fish population. The basis for this 
understanding is the classic predator/prey dynamic which has often been 
interpreted as linking the abundance of a predator with the abundance 
of its prey; so the decline of the predator is expected with the 
depletion of its prey.\12\ The Great Lakes, however, have very complex 
food webs, often undergoing severe disruptions, and have changed the 
way predators interact with prey. Cormorants have caused some prey fish 
to decline, especially ones favored by them or at a disadvantage 
because of the food web changes (e.g., mussel filtering the water 
thereby increase water clarity). When cormorant abundance increased 
because of a newly available and highly abundant prey fish such as 
alewives and smelt, then that caused a secondary impact on other prey 
and sport fish such as yellow perch.
---------------------------------------------------------------------------
    \12\ Hilborn, R. and Walters, C.J. 1992. Quantitative Fisheries 
Stock Assessment. Springer US.
---------------------------------------------------------------------------
    Based on the complexity of Great Lakes food webs, we recognize that 
assessing cormorant impacts is also complex and requires long-term 
data, targeted surveys, and assessments. While this has been 
implemented in some locations across Michigan, Ontario, New York, and 
Minnesota, it is not conducted in all locations where cormorants occur 
in abundance. Consequently, policy makers have had to rely on the more 
detailed studies to reveal relationships and then apply those lessons 
to similar locations across the Great Lakes. But one fact is certain, 
we need to manage cormorant populations using the same multi-
jurisdictional approach that agencies use on other critical issues such 
as invasive species. The sea lamprey program is a great example of a 
multi-jurisdictional and international effort to combat the impacts of 
this parasitic, non-native species.
Successful Cormorant Management in the Great Lakes: A Thing of the 
        Past?
    In response to growing concern by anglers, the aquaculture 
industry, and natural resource professionals, the U.S. Fish and 
Wildlife Service (USFWS) developed an Aquatic Depredation Order (AQDO) 
in 1998 to provide for state level management of cormorants to benefit 
the Aquaculture Industry (13 southern states \13\) and in 2003, a 
Public Resource Depredation Order (PRDO) to provide for state level 
management for the benefit of free-swimming fishes (in 24 northern 
states \14\). These authorities were necessary because cormorants are 
protected by the Migratory Bird Treaty Act, which held management 
authority at the Federal level. The PRDO empowered the northern states, 
federally recognized Native American tribes, and the U.S. Department of 
Agriculture's Wildlife Services Division to work with the USFWS on 
appropriate management of cormorants in the Great Lakes.
---------------------------------------------------------------------------
    \13\ AQDO States: Alabama, Arkansas, Florida, Georgia, Kentucky, 
Louisiana, Minnesota, Mississippi, North Carolina, Oklahoma, South 
Carolina, Tennessee, and Texas.
    \14\ PRDO States: Alabama, Arkansas, Florida, Georgia, Illinois, 
Indiana, Iowa, Kansas, Kentucky, Louisiana, Michigan, Minnesota, 
Mississippi, Missouri, New York, North Carolina, Ohio, Oklahoma, South 
Carolina, Tennessee, Texas, Vermont, West Virginia, and Wisconsin.
---------------------------------------------------------------------------
    The Michigan DNR supported the collaborative management and worked 
with its partners and with the USDA's Wildlife Services to set 
cormorant population targets and exercise the PRDO. Under the authority 
of the PRDO, management agencies and stakeholders worked to reduce, not 
to eliminate, cormorants in key locations to better balance bird 
numbers with sensitive fish populations and rebuild important 
fisheries.
    One of the first locations to implement cormorant management was 
the Les Cheneaux Islands because it was well-studied, cormorant numbers 
had swelled to over 11,000 birds, and fisheries impacts were clearly 
evident. The effort was organized as an adaptive management experiment 
which intended to provide both benefits to the resource and to 
facilitate a further understanding of how to reach a better balance 
between birds, fish, and people. The PRDO provided for this opportunity 
via control methods to prevent reproduction in the islands by specific 
targets set annually. Within 9 years, cormorant abundance was reduced 
by 90 percent and sustained at agreed upon target levels in balance 
with the ecosystem, and in support of management plans to restore the 
fisheries. All the yellow perch monitoring metrics had reversed 
direction after cormorant management under the PRDO was implemented and 
the fisheries reached recovery targets for the first time in 
decades.<SUP>8,</SUP>\15\
---------------------------------------------------------------------------
    \15\ Dorr, B.S., Aderman, T., Butchko, P.H., & Barras, S.C. 2010. 
Management effects on breeding and foraging numbers and movements of 
double-crested cormorants in the Les Cheneaux Islands, Lake Huron, 
Michigan. Journal of Great Lakes Research, 36:224-231.
---------------------------------------------------------------------------
    According to Mr. Engle, as a result of the coordinated cormorant 
management in the Les Cheneaux Islands, the yellow perch and other game 
fish populations began to rebound and the local economy began to 
recover less than 10 years after the PRDO. Many fishermen and tourists 
returned to the area and the Engle family observed the first noticeable 
improvement in their business in years. In fact, the economic impact of 
the collapse of the yellow perch population and fishery was estimated 
to have cost the two local communities of Cedarville and Hessel, 
Michigan, approximately $5.3 million in yearly economic activity 
(expenditure in 2001 dollars).\16\ The restoration of the fishery is 
believed to have restored much of that loss. By contrast, the cost of 
annual cormorant management by the USDA Wildlife Services was 
approximately $2,400 for the Les Cheneaux site with agencies and 
volunteers contributing other indirect costs for cormorant 
management.\17\ Most importantly, however, was the quality of life and 
local heritage that was restored, for both the residents and visitors, 
through cormorant management and restoring ecosystem balance between 
birds, fish, and people.
---------------------------------------------------------------------------
    \16\ Ridgeway, M.S. and D.G. Fielder. 2013, Double-Crested 
Cormorants in the Laurentian Great Lakes: Issues and Ecosystems. Pages 
733-764 In Great Lakes Fisheries Policy and Management, second edition, 
W.W. Taylor, A.J. Lynch and N.J. Leonard, editors. Michigan State 
University Press, East Lansing.
    \17\ Tsehaye, I., M.J. Jones, B.J. Irwin, D.G. Fielder, J.E. Breck, 
and D.R. Luukkonen. 2015. A predictive model to inform adaptive 
management of double-crested cormorants and fisheries in Michigan. 
Natural Resource Modeling 28:348-376.
---------------------------------------------------------------------------
    The state of Michigan, Native American tribal governments, the 
USFWS, and many stakeholder groups expanded the work with the USDA 
Wildlife Services for intensive cormorant management at four more key 
locations between Lakes Huron and Michigan to realize benefits for a 
variety of important fish species to our shared fisheries. At the 
request of the Michigan DNR, we also asked USDA Wildlife Services and 
our stakeholders to employ innovative measures to protect newly stocked 
hatchery fish because they are particularly vulnerable immediately 
after stocking and until they disperse. A complex volunteer network was 
developed involving hundreds of volunteers and agency professionals to 
develop harassment methods reinforced by limited lethal take to 
disperse feeding cormorants from fish stocking sites.
    Through all of these activities, the Les Cheneaux Islands emerged 
as one of the Nation's most well-documented areas showing the 
interactions between cormorants, important fisheries, and the 
communities impacted by an initial failure to manage, followed by a 
successful case where cormorants can be managed in balance with 
fisheries goals and local communities and businesses. This was followed 
by similar approaches to managing cormorants at other locations in the 
Great Lakes region to realize a better balance of cormorants and Great 
Lakes fish populations. We believe strongly that cormorant management 
for the benefit of all fish, including aquaculture, newly stocked fish, 
and free-swimming fishes, has been widely deemed a management success 
up to the point of the legal challenge of the Federal depredation 
orders.
The Federal Court Case
    Because cormorants are protected under the Migratory Bird Treaty 
Act, ultimate management authority rests with the U.S. Fish and 
Wildlife Service. The depredation orders allowed states and other 
management agencies to share in the management of cormorants to better 
protect fish, wildlife, and sensitive habitats across the country. 
However, in May of 2016, these depredation orders were rescinded by the 
U.S. District Court until the U.S. Fish and Wildlife Service can 
reissue an Environmental Assessment that more adequately takes in to 
account the effects of the depredation orders on the cormorant 
populations.
    Despite oversight by the USFWS, cormorant management under the 
depredation orders utilized lethal control, along with other non-lethal 
measures, to manage cormorant numbers. The lethal control was 
controversial with some groups because they objected to the suppression 
of one species for the benefit of another. This is, however, a common 
practice in wildlife management and agra-science. For example, 
agricultural pests are controlled for the benefit of crops. In the 
Great Lakes, sea lamprey are controlled through several lethal control 
techniques including the primary approach where juveniles are annually 
poisoned in the wild with oversight by state, tribal, and U.S. Federal 
and Canadian Federal Governments under the structure of the Great Lakes 
Fisheries Commission. Lethal measures are necessary to suppress sea 
lamprey numbers and prevent excessive parasitic predation on important 
game species.
    We understand that objections can become more visceral or emotional 
when control is elevated to a warm blooded animal that is a native 
species even if population numbers are excessive and out of balance. As 
stated by the USFWS in their original Environmental Assessment (EA) in 
support of the original depredation orders, the purpose was to ``(1) 
reduce resource conflicts associated with DCCOs in the contiguous 
United States; (2) enhance the flexibility of natural resource agencies 
in dealing with DCCO-related resource conflicts; and (3) ensure the 
long-term conservation of DCCO populations.'' Some critics sought to 
address the policies at the state and Federal levels while others 
sought to attack the science that served as the justification for 
cormorant control.
    Controversy over the management of cormorants with lethal control 
appears to emanate more within the natural resource profession than 
with the general public. There are two schools of philosophy over the 
idea of population manipulation of one species for the benefit of 
another.\18\ Proponents see the role of the Natural Resource profession 
and proper management as one of intervention, necessary to restore and 
maintain balance in a system that is no longer responding to historic 
conditions but instead an artifact of past and current man-made 
perturbations. Alternatively, where ecosystems are stable, the 
rationalist may view natural resource management mainly through the 
understanding of nature and taking a `hands off' approach to 
management. Although this may be a preferred strategy, our environment 
and natural resources are becoming more disrupted with stressors 
requiring active and responsible management actions for fish, wildlife, 
and habitat to protect the resources and maintain a better ecosystem 
balance. We believe that the opportunity to leave nature to take its 
own course on the Great Lakes, in both fisheries and wildlife 
management, has long since passed and that management agencies need to 
take a shared responsibility in the management for sustainable fish and 
wildlife for generations to come.
---------------------------------------------------------------------------
    \18\ Zwart, H. 2008. Animal governance: the cormorant case. Pages 
75-79 in J. Keulartz and G. Leistra, editors. Legitimacy in European 
nature conservation policy: case studies in multilevel governance. 
Springer, Berlin, Germany.
---------------------------------------------------------------------------
    That controversy took the form of the lawsuit Public Employees for 
Environmental Responsibility (PEER) vs. USFWS in U.S. District Court, 
District of Columbia in 2014 upon the renewal of the PRDO by the USFWS 
with plaintiffs asserting that the Service did not sufficiently 
consider full impacts of the PRDO as required by the National 
Environmental Policy Act (NEPA) in their EA. The honorable Judge John 
D. Bates ruled in favor of the plaintiffs and ordered the AQDO and PRDO 
vacated in May 2016 ending collaborative cormorant management. In 
testimony to the court during the proceedings, the USFWS indicated that 
the EA could be revised and brought into compliance within 8 months' 
time laying the foundation for the restoration of the PRDO. To date, 
only case-by-case permitting in support of aquaculture impacts have 
been restored (November 2017) and the USFWS has publicly stated that 
the restoration of the PRDO is not a priority of the U.S. Fish and 
Wildlife Service because they lack the necessary resources to undertake 
the revision of the EA.\19\
---------------------------------------------------------------------------
    \19\ USFWS FAQ on cormorants online.
---------------------------------------------------------------------------
    More recently the Service has announced that they will engage 
states, tribes and stakeholders to take comment on concerns but will 
not commit to a renewed EA or a resultant PRDO. This proposed 
legislation (Cormorant Control Act H.R. 4429) would compel the U.S. 
Fish and Wildlife Service to allocate the necessary resources to pursue 
the PRDO and the EA necessary to fully restore the ability jointly 
manage cormorants.
    We share the response of the Engle family when they were asked 
about the impact of the court order and Mark Engle responded, ``We were 
shocked by the Federal Court's decision on May 26, 2016, to vacate the 
depredation order.'' Their shock was followed by observing the 
cormorant population increasing rapidly and concerns that it would 
leave their small business as well as the entire Les Cheneaux Island 
tourist area ``in great jeopardy once again.'' In addition to the 
impacts that will be seen on local fisheries and the communities that 
the support across the Great Lakes region, the state of Michigan and 
the Les Cheneaux Island case study was never asked by U.S. Fish and 
Wildlife Service to be included in the Federal Court case. It is 
unclear as to the intent to not include the vast amount of information 
from non-federal governments as to the impacts of uncontrolled 
cormorant populations on fish populations and the communities that they 
support.
What Happens Without Restored Management Authority?
    Since the depredation orders were vacated in May of 2016, 
management agencies have used predictive models in an attempt to 
forecast what will happen with cormorant populations in the Great Lakes 
region.<SUP>17</SUP> Predictions were made for both trends in cormorant 
numbers as well as the responses of the fish populations for seven main 
management locations in the Great Lakes. The predictions indicated that 
in the absence of cormorant management nesting numbers will return to 
their former peak abundance within 14 years and have the same impact on 
fish by causing declines or potentially collapse of the associated fish 
populations and fisheries. Unfortunately, the predictions may have 
substantially underestimated the response times as cormorant nest 
numbers in the Les Cheneaux Islands region, for example, have actually 
increased by 85 percent in just a couple years from the last controlled 
nesting level in 2015. It is highly likely that all of the progress 
made from collaboratively managing cormorants will be lost well before 
the 14-year prediction and will be realized within the next few years. 
The Engle family and their business are an example of the economic and 
job loss to many communities that cannot afford them. For them, their 
way of life and heritage is at risk without Federal agencies taking 
responsibility for cormorant management.
                               conclusion
    Fishery impacts from cormorant proliferation and predation occur at 
localized levels but collectively have broad implications across the 
states. The range of management ability is set by the Federal 
Government through the USFWS as a result of the Migratory Bird Treaty 
Act. States like Michigan seek the restoration of flexibility to manage 
hyperabundant cormorant populations to achieve our fishery management 
targets. The first PRDO proved successful in allowing for cormorants to 
be reduced in abundance in problem areas while the overall cormorant 
population statewide remained abundant and viable. We recognize that 
the redevelopment of the EA in support of the PRDO is not a small 
undertaking. The Michigan DNR and other Great Lakes management agencies 
stand ready to assist the USFWS in work on the EA. However, this is an 
urgent matter and more than 2 years have passed since the court order 
without progress. We greatly appreciate Congressman Bergman and the 
House Natural Resource Committee's leadership on this issue in 
providing the USFWS guidance and priority setting to provide the states 
the necessarily relief. The service has made overtures of intent to 
pursue this issue. If they are genuine in this intent, then they should 
welcome this legislation as congressional support for their mutual 
goal.

                                 ______
                                 

    Mr. McClintock. Great. Thank you.
    That concludes our testimony on H.R. 4429. We will now 
proceed to questions.
    I just have one quick one. Mr. Claramunt, is there a dollar 
estimate on the value of the fish that are being consumed by 
the excess cormorant population? How much is this costing a 
local fishery?
    Mr. Claramunt. Absolutely. There are estimates of $5 to $7 
million annually being lost in fisheries' direct impacts in the 
Great Lakes. But those are probably----
    Mr. McClintock. And you said the overall industry is about 
$70 million, so this is about 10 percent.
    Mr. Claramunt. And I was going to follow up that comment 
with this. That is probably an underestimate because it is 
based strictly in a particular area of northern Lake Huron, so 
we have really good scientific data that ties the impacts of 
cormorant predations to the loss of fisheries and those costs.
    Mr. McClintock. And you said that the cormorant population 
was well above historic levels. How far above?
    Mr. Claramunt. Historically there were estimated to be 
6,000 birds, and we have had estimates currently of 250,000 
birds.
    Mr. McClintock. All right. Thank you.
    Ranking Member.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    Mr. Claramunt, the reason why I guess we are here is that 
there was a Federal court intervention. The Federal court said 
that the science was not done properly, so the depredation 
orders had to be redone.
    Did you participate or did your agency participate in that 
proceeding?
    Mr. Claramunt. Thank you for asking that question.
    When we looked at the management of cormorants and the 
impact, we understood that we have one of the best data sets. 
Michigan prides itself in scientific management of natural 
resources, data that includes long-term fishery monitoring for 
decades and also the impacts of cormorants on those fisheries.
    So, we were perplexed when we were not consulted by the 
Fish and Wildlife Service during that court case. We also were 
perplexed with the Judge's ruling that an environmental 
assessment would occur within 8 months of the ruling. We are 
now going on 3 years without an environmental assessment on 
cormorants in the Great Lakes and no management.
    Ms. Hanabusa. Have you either intervened in the action, or 
has the state of Michigan intervened in the action, or asked 
for reconsideration based on what you just said?
    Mr. Claramunt. As far as I understand it, and, again, I am 
not a legal expert, but our hands were tied at the state level. 
And really it requires something at the Federal level to be 
acted upon before we could have standing in the Federal case.
    We really were relying on our Fish and Wildlife partners to 
draw on their expertise to work with all the Great Lakes states 
during the court case. Again, we are not sure why that didn't 
occur and also why there isn't movement to date.
    Ms. Hanabusa. What other Great Lakes states are involved 
besides Michigan?
    Mr. Claramunt. A lot of the concerns that I share today are 
expressed from Minnesota all the way to New York. All the Great 
Lakes states want whole management of these birds, not 
necessarily entirely through depredation orders or lethal 
controls, but setting population targets, managing for those 
population targets, and, most importantly, balancing the birds 
with the fisheries and the communities.
    Ms. Hanabusa. There was a 2016 study from the Journal of 
Great Lakes, and it said 80 to 90 percent of the fish eaten by 
the cormorants are invasive species.
    Do you agree or disagree with that?
    Mr. Claramunt. I absolutely agree with that. And I think it 
is also nuance that adds to why the cormorants are more 
abundant than they would be historically. The invasive species 
allowed a mechanism for the birds to become overpopulated.
    But the birds prefer nesting habitats that are close to 
critical fisheries, so the 10 percent that they will eat that 
are not invasive species are yellow perch, walleye, northern 
pike, critical species that support recreational, commercial, 
and tribal fisheries.
    Ms. Hanabusa. So, it is 10 percent of what they eat that 
are what you would consider to be the species that you would 
wish to protect, because you don't want to protect the invasive 
species.
    Mr. Claramunt. And I would also say, we manage the invasive 
species to sustain both birds, but also important sport fish in 
the Great Lakes. So, species like alewife and rainbow smelt 
that are not native, we manage those and balance with all the 
predator demands. We are not going to try to protect those 
invasive species, but instead reach a balance between all of 
those needs and the fisheries.
    Ms. Hanabusa. Isn't one of the major invasive species in 
the Great Lakes the carp?
    Mr. Claramunt. Hopefully not. We are hoping to prevent 
Asian carp from invading the Great Lakes, especially black and 
silver. There are populations of grass carp, although they are 
not as detrimental. But our hope is that we are not going to 
have Asian carp in the Great Lakes.
    Ms. Hanabusa. Isn't the environmental assessment necessary 
to determine whether there are ways to manage the cormorants 
nonlethally, including habitat modification, some kind of 
scarecrows, overhead wire, something along those lines?
    Mr. Claramunt. Absolutely. The environmental impact 
statement, also the management of cormorants, should include 
comprehensive strategies, both nonlethal and lethal. We have 
had volunteer networks that have helped us with the nonlethal 
methods, harassing birds away from fish stocking sites or 
critical harbors or areas where there is deforestation from 
near shore coastal habitats and islands.
    So, yes, it should include all those things. And, again, we 
stand ready to assist the Fish and Wildlife Service in 
developing those environmental impact statements and EAs.
    Ms. Hanabusa. So, what you are saying is that the Fish and 
Wildlife Service just isn't doing what it is supposed to do?
    Mr. Claramunt. That could be inferred, yes.
    Ms. Hanabusa. Thank you.
    I yield back.
    Mr. McClintock. Thank you.
    Further questions?
    General Bergman.
    Mr. Bergman. Thank you, Mr. Chairman.
    Thanks for your testimony. Very articulate.
    My bill focuses on going back to the original rules 
established by the Fish and Wildlife Service. Can you describe 
in more depth the general process that was in place with the 
previous depredation orders and what the original rules 
entailed for the Michigan DNR?
    Mr. Claramunt. Yes, even though there may have been 
shortcomings in the environmental impact statement, the rules 
allowed us to co-manage cormorants at the local level. We did 
this through a number of mechanisms. The PRDO helped us set 
parameters and develop options, both lethal and nonlethal. We 
also worked with the Fish and Wildlife Service to set annual 
targets. A good management plan says what should the range of a 
given species be and how do you draw actions to get there.
    We also partnered with the USDA Wildlife Services for 
lethal control methods. And, again, we work with North American 
tribes to help in the co-management of cormorants, so the 
framework that was in place was robust and was meeting the 
needs of all the partners.
    Mr. Bergman. What is the state of Michigan doing right now 
when it comes to managing the cormorant population?
    Mr. Claramunt. Really, our hands are tied.
    Mr. Bergman. So, the short answer would be pretty close to 
nothing?
    Mr. Claramunt. That is correct.
    Mr. Bergman. OK.
    What are the trickle-down effects of doing nothing, both in 
the short-term and long-term, for the Great Lakes?
    Mr. Claramunt. In the short-term, I would characterize the 
effects as we are quickly erasing the progress that we have 
made in the co-management of cormorants and their impacts on 
fish populations.
    What I mean by quickly erasing, in the last 2 years, going 
on 3 years, since the court order that rescinded the control, 
we have seen a 40 to 50 percent increase in the cormorants in 
critical areas where we had managed them down to levels that 
were sustainable.
    In the long-term, this is going to be very disruptive, not 
only to the fisheries but to the ecosystem, both aquatic and 
terrestrial. We are expecting a loss of economic activity, 
collapse of fisheries in sensitive areas, and overall lowering 
of the quality of life of the Great Lakes residents beyond.
    Mr. Bergman. OK. Has Michigan DNR heard from other states 
in the Great Lakes region, or throughout the country, for that 
matter, about what they might be experiencing with cormorants?
    Mr. Claramunt. Yes. Absolutely.
    One of my roles is I serve on the Council of Lake 
Committees, which is made up of all of the state, Federal, and 
tribal partners, and we share these concerns. Again, I have 
heard prior to this hearing comments from State Representatives 
from Minnesota all the way to New York about their interest in 
managing cormorant populations and their impacts on fish, not 
just reissuing the depredation orders.
    Mr. Bergman. Our focus as a Committee has been 
understanding what is going on within the local communities and 
having local stakeholder input.
    What have you been seeing and hearing from the local 
communities around our state?
    Mr. Claramunt. It was appreciative that I could use Mark 
Engle, a local business owner, his family is very tied to the 
Les Cheneaux islands, and witnessed firsthand the impacts of 
cormorants on his business and his family and his community.
    He is not unique. We have heard comments from stakeholders 
in the Saginaw Bay region, in Green Bay, in the Beaver Island. 
And the stories are very much like Mark Engle's repeated over 
and again about the impacts of cormorants on fish populations 
and the need of agencies to co-manage the birds and balance 
with the fish and the people.
    Mr. Bergman. And, as we had talked about earlier, the 
downstream literally is a migratory bird population that 
travels south in the winter.
    Any comments from folks in Arkansas or that area? Are they 
having any issues?
    Mr. Claramunt. Yes, absolutely. The Gulf states have a 
parallel bill to deal with the exact same thing, and they are 
supportive of our efforts to try to co-manage. I spoke a lot of 
the Great Lakes, but this is really a U.S. issue. The Great 
Lakes has the biggest nesting colony, but those birds fly 
south, and the effects on the aquaculture industry is impacted 
similarly.
    So, they share our concerns, and they are supportive of 
these efforts, again, to manage across the landscape.
    Mr. Bergman. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. McClintock. Great.
    Further questions?
    Seeing none, Mr. Claramunt, we thank you very much for your 
testimony today. This concludes our consideration of H.R. 4429.
    The final bill we will be taking up is H.R. 4609 by 
Congressman Scott Tipton of Colorado. The gentleman is 
recognized for 5 minutes.

  STATEMENT OF THE HON. SCOTT R. TIPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Tipton. Thank you, Mr. Chairman. I appreciate you 
convening the hearing today and bringing my bill, the West Fork 
Fire Station Act of 2017, up for consideration.
    I would also like to be able to thank Dolores County 
Commissioner Floyd Cook for traveling to Washington to testify 
in support of this bill, and would also like to recognize a 
good friend and the person who actually happens to be the Fire 
Chief and President of the local fire district, Tom Johnson, 
being here as well in support.
    Emergency fire work and response is a real challenge in the 
part of the county that we are referencing, because the closest 
fire station is currently 26 miles away. The West Fork Fire 
Station Act conveys approximately 3.6 acres of National Forest 
System land to Dolores County for the strict purpose of 
building and operating a fire station in the West Fork area.
    In addition to creating emergency and fire response 
challenges, the lack of a dedicated fire station has created 
insurance challenges for homeowners in West Fork. In an area 
surrounded by National Forest land, it is critical to have fire 
insurance for your home and other structures on your property. 
With no fire station in the reasonable proximity to the area, 
it is nearly impossible for homeowners to obtain fire insurance 
in West Fork. My bill would help change that.
    I would also like to note that the West Fork fire station 
will be operated by a volunteer fire department, men and women 
who dedicate their time, talent, and often put the safety of 
their community and neighbors ahead of their own. I greatly 
appreciate their service to the county.
    I would also commend Dolores County for working with local 
property owners and the surrounding fire districts to obtain 
necessary firefighting equipment for the volunteers who would 
serve at the West Fork fire station.
    My team and I have engaged the Board of County 
Commissioners, as well as my Colorado colleagues in the U.S. 
Senate, to develop a conveyance. The county, Colorado U.S. 
Senators Gardner and Bennet, and the Forest Service support the 
proposal.
    At this time, I would like to be able to enter into the 
record a letter from Dolores County Commissioners Julie Kibel, 
Steve Garchar, and Floyd Cook outlining their support of the 
West Fork Fire Station Act of 2017.
    Mr. McClintock. Without objection.

    [The information follows:]

                           DOLORES COUNTY, COLORADO
                             Board of County Commissioners 
                                       Dove Creek, Colorado

                                                  November 13, 2017

Re: West Fork Fire Station Act of 2017

    Dear Honorable Senate and House of Representative Members:

    The Dolores County Board of County Commissioners (DCBOCC) has been 
working diligently with the staff members of Senator Bennett and 
Representative Tipton, the U.S. Forest Service, the Dolores Fire 
Protection District, and constituents from Dolores County to secure 
land for a fire station and the development of a fire department in the 
remote West Fork area of Dolores County. Dolores County, the citizens 
of the area, as well as surrounding emergency services providers, all 
recognize the immediate need for the fire station.
    Historically, the Dolores Fire Protection District located in 
Montezuma County, has responded out of their service area to emergency 
calls in the West Fork area. The District firefighters as well as the 
tax payers of the Dolores Fire Protection District have shouldered the 
ever-increasing financial and logistic burden of those responses. While 
fire departments often provide service outside of district boundaries, 
they typically do so under the authority of a mutual aid agreement. The 
creation of a West Fork fire department and construction of a facility 
will allow for meaningful mutual aid in the area.
    In addition to the benefits of meaningful mutual aid, the addition 
of the fire station will address insurability issues currently facing 
land owners in the area. Without local fire protection, some home 
owners are unable to secure insurance for their homes or even sell 
their property.
    The DCBOCC has worked diligently with property owners and 
surrounding Fire Districts to procure necessary firefighting equipment. 
Additionally, surrounding fire districts have trained individuals 
living in the West Fork area to operate as firefighters. The West Fork 
Volunteer Fire Department, now with equipment and firefighters, need a 
fire station. With that need, the DCBOCC approached the Forest Service 
and their District Officer seeking a land conveyance to join the 
existing Road and Bridge Shop at Fish Creek in the West Fork area. The 
existing acreage at the site is not big enough to build a shop to house 
fire equipment and safely provide ingress and egress for emergency 
vehicles. The addition of the 4.43 acres of Forest Service land will 
provide the ability to build, improve the driveway for safety purposes, 
and clear up disputes the Forest Service has had over the years with 
existing mail boxes and driveway structures.
    The West Fork Fire Station Act of 2017 will benefit the home owners 
of the West Fork by reducing response time from the Dolores Fire 
Station, which is 26 miles away, give the home owners the ability to 
purchase fire insurance for their property and structures. 
Additionally, the facility will provide for a Forest Service staging 
area for response to forest fires, as well as equipment and trained 
fire fighters to be first responders in a very remote area. The 
structure to house equipment on site will benefit the citizens of West 
Fork, the Forest Service and surrounding fire districts.
    Due to a gracious donation from an individual connected with Dunton 
Hot Springs Area of $100,000.00, the construction costs of the fire 
station will be met. Dolores County will provide in kind contributions 
of heavy equipment and operators to prepare the building site, as well 
as construction of a new driveway with culverts and signage. The County 
is further prepared to pay processing and transactions costs, as well 
as restrict the use of this land conveyance for a fire station, related 
infrastructure, and roads to facilitate access to and through the 
parcel.
    We appreciate your support in this endeavor and kindly ask that you 
will pass the ``West Fork Fire Station Act of 2017'' to make this 
planning become a reality.

            Sincerely,

                                            Julie R. Kibel,
                                                              Chair

                                              Steve Garchar

                                                 Floyd Cook

                                 ______
                                 

    Mr. Tipton. Thank you, Mr. Chairman.
    I would also like to be able to submit for the record 
recent testimony that was given by Forest Service Associate 
Deputy Chief Glenn Casamassa before the Senate Energy and 
Natural Resources Subcommittee on Public Lands during a hearing 
on the Senate companion bill.
    Mr. McClintock. Without objection.

    [The information follows:]
                        Statement for the Record
 Glenn Casamassa, Associate Deputy Chief, National Forest System, U.S. 
             Forest Service, U.S. Department of Agriculture
     Before the Senate Committee on Energy and Natural Resources, 
            Subcommittee on Public Lands, Forests and Mining
         Concerning S. 2218--West Fork Fire Station Act of 2017
                            February 7, 2018

    Chairman Lee, Ranking Member Wyden, members of the Subcommittee, 
thank you for the opportunity to present the views of the U.S. 
Department of Agriculture (USDA) regarding S. 2218--West Fork Fire 
Station Act of 2017. I am Glenn Casamassa, Associate Deputy Chief for 
the National Forest System (NFS), USDA Forest Service.
    S. 2218 would convey, without consideration, all right, title, and 
interest in approximately 3.61 acres of National Forest System land on 
the San Juan National Forest to Dolores County, Colorado for 
construction and operation of a fire station, associated 
infrastructure, and access roads.
    USDA supports Dolores County in their efforts to provide improved 
emergency services to county residents and visitors. We agree that the 
parcel of land in question is in a practical location to provide these 
services and that there are not similarly situated non-Federal lands of 
limited acreage available that provide the same locational benefits. 
However, we do note that Section 3(a) is inconsistent with longstanding 
federal policy that market value consideration should be paid to the 
United States for conveyance of federal lands owned by all Americans.
    Thank you again for the opportunity to testify on this bill and I 
look forward to your questions at the appropriate time.

                                 ______
                                 

    Mr. Tipton. Thank you, Mr. Chairman.
    Mr. Chairman, in his testimony Mr. Casamassa said, ``The 
USDA supports Dolores County in their efforts to provide 
improved emergency service to county residents and visitors. We 
agree that the parcel of land in question is a practical 
location to provide these services and that there are not 
similarly situated non-Federal lands of limited acreage 
available to provide the same locational benefits.''
    Again, thank you for holding this hearing, and my thanks to 
my friends out of southwest Colorado for traveling the distance 
to be able to testify on a very important issue for us.
    With that, I yield back, Mr. Chairman.

    [The prepared statement of Mr. Tipton follows:]
  Prepared Statement of the Hon. Scott R. Tipton, a Representative in 
            Congress from the State of Colorado on H.R. 4609
    Thank you, Mr. Chairman, for convening this hearing and bringing my 
bill, H.R. 4609, the West Fork Fire Station Act of 2017, up for 
consideration. I also want to thank Dolores County Commissioner Floyd 
Cook for traveling to DC to testify in support of this bill.
    West Fork is in a remote part of Dolores County, Colorado, 
surrounded by the San Juan National Forest. Emergency and fire response 
is a challenge in this part of the county, because the closest fire 
station is currently 26 miles away.
    The West Fork Fire Station Act conveys approximately 3.6 acres of 
National Forest System land to Dolores County for the strict purpose of 
building and operating a fire station in the West Fork area.
    In addition to creating emergency and fire response challenges, the 
lack of a dedicated fire station has created insurance challenges for 
homeowners in West Fork. In an area surrounded by National Forest land, 
it is critical to have fire insurance for your home and other 
structures on your property. With no fire station in a reasonable 
proximity to the area, it is near impossible for homeowners to obtain 
fire insurance in West Fork. My bill would help change that.
    I would also like to note that the West Fork Fire Station will be 
operated by a volunteer fire department--men and women who dedicate 
their time, talent, and often put the safety of their community and 
neighbors ahead of their own. I greatly appreciate their service to the 
county.
    I also commend Dolores County for working with local property 
owners and the surrounding fire districts to obtain necessary 
firefighting equipment for the volunteers that would serve at the West 
Fork Fire Station.
    My team and I have engaged with the Board of County Commissioners, 
as well as with my Colorado colleagues in the U.S. Senate, to develop 
the proposed land exchange. The county, Colorado U.S. Senators Gardner 
and Bennet, and the Forest Service support the proposal.
    At this time I would like to enter into the record a letter from 
Dolores County Commissioners Julie Kibel, Steve Garchar, and Floyd Cook 
outlining their support for the West Fork Fire Station Act of 2017. I 
would also like to submit for the record recent testimony that was 
given by U.S. Forest Service Associate Deputy Chief, Glenn Casamassa, 
before the Senate Energy and Natural Resources Subcommittee on Public 
Lands during a hearing on the Senate companion of this bill. In his 
testimony, Mr. Casamassa said, ``USDA supports Dolores County in their 
efforts to provide improved emergency service to county residents and 
visitors. We agree that the parcel of land in question is in a 
practical location to provide these services and that there are not 
similarly situated non-Federal lands of limited acreage available to 
provide the same locational benefits.''
    Thank you, Mr. Chairman. I look forward to answering any questions 
you may have about this bill and yield back.

                                 ______
                                 

    Mr. McClintock. Do you want to introduce?
    Mr. Tipton. You bet.
    Mr. McClintock. I will defer to the gentleman to introduce 
our final witness.
    Mr. Tipton. Thank you, Mr. Chairman.
    I had referenced this in my testimony on the bill, but I 
would like to be able to introduce Commissioner Floyd Cook, and 
want to commend him for traveling to Washington to testify in 
support of H.R. 4609.
    Commissioner Cook was elected to serve on the Dolores 
County Board of County Commissioners in November of 2016. Our 
team in Washington, DC, as well as our field staff in southwest 
Colorado do greatly appreciate his commitment to serving the 
residents of Dolores County. I look forward to his testimony 
today and our continued work together in the future.
    Commissioner Cook, thank you for being here.
    Mr. McClintock. The gentleman is recognized for 5 minutes.

  STATEMENT OF THE HONORABLE FLOYD COOK, COUNTY COMMISSIONER, 
            DOLORES COUNTY, COLORADO, DOVE CREEK, CO

    Mr. Cook. Thank you, Mr. Tipton.
    Chairman McClintock, Ranking Member Hanabusa, and 
distinguished members of the House Subcommittee on Federal 
Lands, thank you for hearing me today. I am one of three County 
Commissioners from Dolores County, Colorado. I am here to ask 
you to pass H.R. 4609 to provide Dolores County with the 
construction of a fire station.
    The conveyance of the Forest Service parcel, approximately 
3.61 acres, would provide the final piece to a cooperative 
effort of our citizens, local, state, and Federal Government, 
to bring a fire station to a beautiful portion of the county 
called the West Fork.
    To provide some background, Dolores County consists of 
1,640 square miles with approximately 2,200 residents. The 
topography of the county is agricultural in the western third 
with the remaining two-thirds being heavily forested and rough. 
Based upon the low population and mostly rugged landmass, 
emergency services in the county have been a challenge, and the 
threat of wildfires is consistent.
    The West Fork is especially isolated and rugged, consisting 
of small patches of private residents surrounded by vast areas 
of National Forest. In addition to the more than 100 residents, 
the West Fork holds numerous recreational opportunities, 
including Forest Service trail heads, Forest Service 
campgrounds, and privately owned outdoor retreats. Visitors 
come to enjoy the extensive trail systems and world-class 
fishing opportunities.
    The need for a fire department in West Fork has been 
obvious for a long time. Residents have had no ability to 
purchase fire insurance for their homes. The surrounding fire 
districts have provided emergency services when they are 
available, and they have become overburdened. Additionally, the 
more than 26-mile response distance to most calls was just 
simply unacceptable.
    Approximately 2 years ago, in an effort to address the 
need, Dolores County began assisting a group of West Fork 
property owners with the creation of a volunteer fire 
department. The effort quickly spread, promoting involvement by 
all types of citizens and levels of government.
    The U.S. Forest Service has been extremely supportive of 
the entire process. The West Fork Volunteer Fire Department has 
now reached a point where they are ready to provide services 
once a fire station is constructed.
    The last step in the process will be the main facility 
located on the subject parcel adjacent to the county road 
department at a location known as Fish Creek. The parcel is 
ideally located and suited for use as a fire station.
    In addition, the parcel holds no other real value. It is 
essentially a treeless, sloping sliver of land between Dolores 
County Road 38 and the Fish Creek site.
    The parcel is, however, perfect for the location for the 
fire station. It has immediate access to the only main road and 
will be serviced by the county road department. The fire 
station will house vehicles and equipment and serve as a 
staging area for the West Fork firefighters as well as the 
surrounding mutual aid providers.
    The location of the facility will also make it an ideal 
staging for the U.S. Forest Service firefighting operations and 
will provide immediate boots on the ground in the middle of the 
National Forest to allow quicker responses to forest fires.
    The Forest Service agrees that the parcel and land in 
question is in a practical location to provide emergency 
management services and there are not similar non-Federal lands 
of limited acreage available to provide the same locational 
benefit.
    As stated, the conveyance of this parcel is the last piece 
to providing fire protection in the West Fork area, potentially 
saving lives, loss of property, and to help protect our 
forests.
    We have four vehicles, including a pumper truck, a tender, 
and two brush trucks. We have firefighters trained by 
surrounding districts ready to go. We have equipment for the 
firefighters. We have over $100,000 raised for the construction 
of the fire station. All we need now is conveyance of the 
parcel and construction can begin.
    Dolores County will provide contributions of heavy 
equipment and operators to prepare the building site as well as 
construction of a new driveway. With your help, we can have a 
fully operational facility assisting with mutual aid to 
surrounding districts and the Forest Service this summer.

    [The prepared statement of Mr. Cook follows:]
   Prepared Statement of Floyd Cook, County Commissioner of Dolores 
                     County, Colorado on H.R. 4609
                              introduction
    Thank you for holding today' s hearing on H.R. 4609, to provide for 
the conveyance of a Forest Service site in Dolores County, Colorado, to 
be used for a fire station. My name is Floyd Cook, and I am one of 
three county commissioners in the County. The conveyance of the Forest 
Service parcel of approximately 3.61 acres would provide the final 
piece to a cooperative effort of citizens, local, state and Federal 
Government to bring a fire station to the West Fork area of Dolores 
County.
                               background

    Dolores County overall consists of approximately one-third 
relatively flat farmland in the western portion of the County, with the 
remainder consisting of mostly forested rugged terrain. See Exhibit A. 
The West Fork area is an especially rugged and isolated forested area 
following the west fork of the Dolores River. The area consists of 
small patches of private residences surrounded by vast areas of 
National Forest. See Exhibit B. The area holds numerous recreational 
opportunities, including Forest Service trailheads, Forest Service 
campgrounds, and privately owned outdoor retreats. See Exhibit C. 
Visitors are attracted by the extensive trail system and world class 
fishing opportunities.

                               Exhibit A
                               
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                            
                               
                               


                            Exhibit B

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                             Exhibit C
[


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Historically, Dolores Fire Protection District located in 
Montezuma County to the south has responded out of its service area to 
any emergency calls in the West Fork area. However, the distance for 
those calls is approximately 26 miles one way. See Exhibit D. The 
vision of the West Fork Volunteer Fire Department began in earnest due 
in large part to the increasing burden being placed upon the 
surrounding districts responding to calls in the West Fork area. Those 
distant responses financially burden the taxpayers of those outside 
districts, and divert resources in firefighters and equipment. While 
fire departments often provide service outside of district boundaries, 
they typically do so under the authority of a mutual aid agreement. 
Without the ability to provide mutual aid, the residents and users of 
the West Fork area are wholly dependent upon gratuitous services, 
contingent upon availability.

                               Exhibit D
                               
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                            
                               
                             organizational efforts
    Two years ago, the Board of County Commissioners of Dolores County 
began assisting a group of West Fork property owners with the creation 
of a volunteer fire department. The wide-spread and unanimous 
recognition of the need for such emergency services quickly prompted 
involvement on all levels. While the County continued to provide 
financial and administrative assistance to the development of the fire 
department, surrounding fire districts provided generous donations of 
vehicles and equipment. Operational grants have been received by both 
state and private funding organizations, as well as individuals.
    The West Fork Volunteer Fire Department has developed into an 
organization fully capable of functioning in providing emergency 
services once a fire station is constructed. Four emergency vehicles 
have been obtained and prepared for service, but are currently held in 
storage. Volunteer firefighters have been recruited and trained through 
opportunities provided by surrounding fire districts. The final step in 
the creation of a fully functional fire department will be the 
construction of a main facility located adjacent to a County parcel at 
a location known as ``Fish Creek.'' See Exhibit E.

                               Exhibit E
                               
             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
                         
                         the subject parcel
    The proposed parcel initially consisted of 4.43 acres. The current 
configuration of 3.61 acres was a result of compromises that will still 
result in a highly useful and appropriate facility. The subject parcel 
is ideal for the proposed use. It is essentially a treeless sloping 
sliver of land between Dolores County Road 38 and a Dolores County road 
and bridge site. The site holds no recreational opportunity. The parcel 
is, however, perfect for the siting of a fire station. It has immediate 
access to the only main road, and will be serviceable by the County 
road and bridge department. The fire station will house vehicles and 
equipment, and serve as a staging area for the West Fork firefighters, 
as well as the surrounding mutual aid providers. The location of the 
facility will also make it ideal for the staging of U.S. Forest Service 
firefighting operations.
    Dolores County explored other options in locating the facility, 
however, the subject parcel was simply ideal for the above stated 
reasons. The County explored housing the facility on the road and 
bridge parcel, but size restrictions and problems with the current 
potentially dangerous access point, simply made that choice 
impractical. Surrounding property owners were also contacted, but 
unwilling to provide suitable property.
                              the facility
    Due to the extremely generous donation of $100,000.00 from a 
private citizen, the construction costs of the fire station will be 
met. Immediately following conveyance of the site pursuant to H.R. 
4609, construction could commence. Dolores County will provide in kind 
contributions of heavy equipment and operators to prepare the building 
site, as well as construction of a new driveway with culverts and 
signage. We hope to have a fully operational facility, providing fire 
protection to the West Fork area, and assisting with mutual aid to 
surrounding districts and the Forest Service this summer. Given the dry 
winter in our area, we unfortunately expect a busy year.
                                closing
    Bringing emergency services to the West Fork area has truly been a 
multilevel group effort. From private citizens, to multiple special 
districts, County government, state government and up to the Federal 
level, all parties have seen the need and participated in making the 
vision a reality. The U.S. Forest Service testified on February 7, 2018 
before the Senate Committee on Energy and Natural Resources, 
Subcommittee on Public Lands, Forests and Mining on the Senate 
companion, S. 2218. The U.S. Forest Service ``supports Dolores County 
in their efforts to provide improved emergency services to county 
residents and visitors.'' The Forest Service ``agrees that the parcel 
of land in question is in a practical location to provide'' emergency 
management services and ``there are not similarly situated non-Federal 
lands of limited acreage available that provide the same locational 
benefits.''
    We appreciate your support in this endeavor and kindly ask that you 
will pass the ``West Fork Fire Station Act of2017'' to make this 
cooperative effort to bring fire protection to the West Fork area a 
reality.

                                 ______
                                 

    Mr. McClintock. Great. Thank you very much very much for 
your testimony, sir.
    Are there any questions?
    Ms. Hanabusa.
    Ms. Hanabusa. I just wanted to clarify something that I 
said in my opening statement. You said that the Forest Service 
is very supportive of the conveyance, which is also my 
understanding, but there was some concern about not requiring a 
market value compensation for the land.
    Did they raise any of that with you, the Forest Service?
    Mr. Cook. The local Forest Service did bring that up. And 
during our conversations, the way we looked at it, and I 
believe he was in agreement, having a local volunteer fire 
department in that area is a benefit to the Forest Service. 
They will be the first responders when and if there is a fire.
    Ms. Hanabusa. So, you believe that you have resolved it, 
that the volunteer fire department will be there to assist, so 
the Forest Service is OK with it now?
    Mr. Cook. I believe so, yes.
    Ms. Hanabusa. Thank you very much.
    I yield back.
    Mr. McClintock. Thank you.
    Further questions from Mr. Tipton?
    Mr. Tipton. Thank you, Mr. Chairman.
    I certainly appreciate the Ranking Member pointing that 
out. That is actually a result of Federal policy.
    That being said, that is actually addressed in Section 3(d) 
of the bill. If the land is used for any other purpose, the 
conveyance returns the land back. So, it does have very strict 
perimeters for it to be able to work off of. And with the 
letter that we have submitted for the record from the Associate 
Deputy Chief of the National Forest System endorsing it, 
obviously I think that we do have an agreement of the necessity 
of that.
    Commissioner Cook, I would like to be able to visit with 
you just a little bit. I think that you gave a great 
description of the land. And it is probably like many of the 
areas that we all live in, nobody knows it better than the 
people who actually live there.
    One other thing that I know we are all so acutely aware of 
is, we have had low snow pack during this season. The fire 
season is approaching. You noted that you have been able to 
have $100,000 to be able to build this facility.
    How quickly, given the imminent threat that we are seeing 
from the approaching fire season, can the facility be built?
    Mr. Cook. Just as soon as we get approval and the weather 
cooperates we would begin on it.
    Mr. Tipton. Great, and I think you and I probably remember 
and had an opportunity to be able to discuss when the Weber 
Canyon fire broke out. One of the other volunteer fire 
departments in the area out of Mancos, the Federal Government, 
BLM, Forest Service people on the ground called them their 
stealth firefighting department. They were the first on the 
scene in the event of a threat on public lands.
    So, the benefit of that, not to mention for the individual 
landowners that are around there and the opportunity for them 
to be able to do the sensible thing, to be able to have 
insurance, I think is certainly admirable.
    Commissioner Cook, in your testimony you did mention that 
the county went through the process of trying to identify non-
Federal parcels of lands that could serve for the site for the 
fire station.
    Could you maybe once again just give us a quick overview of 
that process so that we do have that certainty that you had 
exhausted all other viable opportunities and this was going to 
be the best solution not only for the residents and the county, 
but also for the Federal Government?
    Mr. Cook. Yes. The West Fork Canyon is very narrow in 
areas. This is one of the wider areas within the canyon. And it 
is, like I described, a very small sliver of a piece of land 
that would suit the purpose.
    The other problem is that the other areas, people are not 
willing to sell. There is nothing available other than this 
parcel. It is centrally located in the canyon. It is an 
excellent area to stage from. We have road access right there.
    Mr. Tipton. Great. Well, I appreciate that. I certainly 
applaud all of the efforts. We have actually talked about this 
for several years, the importance of this, literally for our 
communities.
    And, again, I am very grateful to have Tommy Johnson here, 
a great example in our rural communities where we don't have 
the resources to be able to have hired full-time fire 
departments, we have people that are willing to separate from 
their jobs, climb out of bed at night to be able to go out and 
to be able to protect our communities, to be able to protect 
our property. And I am really grateful for that effort and 
proud to come from the area that we live in.
    Mr. Chairman, I have no further questions. And thank you 
for being here.
    And thank you again, Ranking Member, for helping me clarify 
that point.
    Mr. McClintock. Thank you.
    Are there any further questions of the witness?
    The Chair wants to thank Commissioner Cook and all of our 
witnesses for their expert testimony today.
    Members of the Committee may have some additional 
questions, and we will ask you to respond to these in writing. 
Under Committee Rule 3(o), members of the Committee must submit 
witness questions within 3 business days following the hearing 
by 5 p.m., and the hearing record will be held open for 10 
business days for these responses.
    If there is no further business, without objection, the 
Subcommittee stands adjourned.

    [Whereupon, at 4:23 p.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

                 Alliance for America's Fish & Wildlife

                                                  February 13, 2018

    Dear Members of the House Natural Resources Subcommittee on Federal 
Lands:

    Healthy fish and wildlife populations and their habitats are 
essential to the quality of life of every American. Yet today, we are 
facing an historic fish and wildlife challenge that could alter future 
Americans' opportunities to benefit from these resources. Scientists 
estimate that one-third of wildlife species in the United States are at 
risk of becoming threatened or endangered unless we pursue proactive, 
collaborative efforts to accelerate their recovery. The dramatic 
decline of so many species of wildlife and the habitats they depend on 
has an adverse effect on fundamental life benefits provided by nature 
such as water purification and aquifer recharge, flood abatement, 
pollination, recreation and food and fiber production that are 
essential to human health. These species declines threaten Americans' 
quality of life, as well as our national economy and create regulatory 
uncertainty for businesses and industries, further impacting jobs and 
the health of our communities. Fortunately, proven solutions exist to 
reverse this decline and bolster our economy.
    We write today to offer our strong support for the Recovering 
America's Wildlife Act (H.R. 4647) recently introduced by 
Representatives Fortenberry (R-NE-01) and Dingell (D-MI-12). We believe 
this legislation represents a critical solution toward addressing the 
imminent challenges facing America's wildlife. Many of us came together 
to serve on the Blue Ribbon Panel on Sustaining America's Diverse Fish 
& Wildlife Resources, consisting of members representing the outdoor 
recreation, retail and manufacturing sector, the energy and automotive 
industries, private landowners, educational institutions, sportsmen's 
and other conservation groups, and state and federal fish and wildlife 
agencies. Together, our industries represent more than a trillion 
dollars of economic impact, millions of non-exportable jobs, and tens 
of millions of members and consumers across the country, all who rely 
on healthy fish and wildlife populations.
    As proposed in H.R. 4647, our Panel recommended for Congress to 
dedicate $1.3 billion annually to the existing Wildlife Conservation 
Restoration Program for state-led, proactive, collaborative-based 
wildlife conservation before ``emergency room'' federal measures are 
necessary. This concept has struck a chord among a diverse group of 
Americans, and in response, the Panel has rapidly expanded into the 
Alliance for America's Fish & Wildlife which represents additional 
diverse interests aligned in support of increased fish and wildlife 
conservation funding, which complements existing natural resource 
conservation and outdoor recreation programs. Together, we stand united 
to help secure passage of the Recovering America's Wildlife Act.
    We applaud the leadership of Congressman Fortenberry and 
Congresswoman Dingell, and urge you to support this vital legislation. 
Rather than investing in less expensive, preventative measures, we 
often wait to take action until there is a crisis, which then requires 
costly measures and, too often, onerous regulations that can create 
economic uncertainty for businesses and our communities. H.R. 4647 
changes this approach by focusing proven, proactive, science-driven 
conservation measures, which will help recover thousands of species, 
while saving taxpayers billions of dollars and leveraging additional 
funds through innovative public/private partnerships. This proactive 
and voluntary approach is better for wildlife, taxpayers, businesses, 
and local communities.
    Not since enactment of the Pittman-Robertson and Dingell-Johnson 
Acts, which provided critical funding for fish and wildlife in steep 
decline, have we had an opportunity to pass legislation of such 
importance to protecting what is every American's birthright--our great 
natural heritage. The Recovering America's Wildlife Act has the 
potential to be the most important conservation legislation in 
generations.
    We appreciate your consideration of our request for your support of 
this important legislation. There is a lot at stake, and a lot to be 
gained from the passage of this innovative solution to a growing 
problem. We want to offer future generations of Americans the same 
opportunities that we have had in our lifetimes to enjoy our treasured 
natural resources. Together we can build a brighter economic future 
that includes conservation of our fish and wildlife and helps sustain 
our communities.

            Sincerely,

        Virgil Moore, President       Dale Hall, CEO
        Assoc. of Fish & Wildlife 
        Agencies                      Ducks Unlimited

        Jeff Crane, President         Whit Fosburgh, President and CEO
        Congressional Sportsmen's 
        Foundation                    Theodore Roosevelt Conservation 
                                      Partnership

        Collin O'Mara, President 
        and CEO                       Amy Roberts, Executive Director
        National Wildlife 
        Federation                    Outdoor Industry Association

        John L. Morris, CEO           Rebecca Humphries, CEO
        Bass Pro Shops                National Wild Turkey Federation
        White River Marine Group

        Steve Sanetti, President      David Yarnold, President and CEO
        National Shooting Sports 
        Foundation                    National Audubon Society

        John E. McDonald, Jr., 
        President                     John W. Fitzpatrick, Director
        The Wildlife Society          Cornell Lab of Ornithology

        Margaret O'Gorman, 
        President                     Mike Nussman, President and CEO
        Wildlife Habitat Council      American Sportfishing Association

        Steve McMullin, Ph.D., 
        President                     Greg Hill, President, COO
        American Fisheries Society    Hess Corporation

        Steve Williams, President     Scott Kovarovics, Executive 
                                      Director
        Wildlife Management 
        Institute                     Izaak Walton League of America
                                                  February 14, 2018

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Natural Resources Committee,
Washington, DC 20515.

    Dear Chairman Bishop and Ranking Member Grijalva:

    On behalf of the millions of hunters, anglers, shooters, and 
outdoor enthusiasts that our organizations represent, we write to 
express our strong support for the bipartisan Recovering America's 
Wildlife Act (H.R. 4647), sponsored by Representatives Jeff Fortenberry 
and Debbie Dingell.
    We believe that collaborative conservation is the most effective 
way to recover wildlife populations--an approach embodied in H.R. 4647. 
Time and time again, proactive, collaborative, and voluntary 
conservation efforts have allowed our nation to recover wildlife 
species, from deer and elk to wild turkeys and a range of waterfowl and 
fish, through habitat restoration projects and other strategies. These 
collaborative efforts have largely been funded by our members and 
sportsmen and women across America, who pay license fees and the excise 
taxes collected under Pittman-Robertson and Dingell-Johnson.
    While collaborative conservation has spurred countless on-the-
ground successes, today more than 12,000 wildlife species across our 
nation are considered ``species of greatest conservation need,'' as 
identified by State Fish and Wildlife Agencies. A Blue Ribbon Panel on 
Sustaining America's Diverse Fish and Wildlife Resources, comprised of 
industry and conservation leaders, was empaneled with the express 
purpose of developing recommendations to solve this challenge. They 
recommended--and we agree--that the best way to recover these species 
of concern is to build upon the conservation model that has produced 
the remarkable successes for game species by investing a portion of 
existing energy revenues in proactive, collaborative, voluntary efforts 
at the state-level through the existing Wildlife Conservation and 
Restoration Program, as proposed in H.R. 4647. This non-regulatory, 
collaborative approach is a superior means of recovering species and 
leverages additional funds through innovative public/private 
partnerships, while reducing the need for more expensive ``emergency 
room'' measures and avoiding tens of billions of dollars in economic 
uncertainty from potential regulation and litigation.
    The Recovering America's Wildlife Act will drive measurable 
conservation outcomes by providing the resources necessary to implement 
Congressionally required State Wildlife Action Plans through which each 
state and territory develops a clear state-level strategy with local 
stakeholders for how best to recover species of greatest conservation 
need in their state.
    Further, and in addition to other conservation and recreation 
programs, H.R. 4647 will strengthen local communities and the national 
economy by both bolstering the outdoor recreation industry, which 
generates more than $887 billion in annual economic benefit, supports 
7.1 million jobs, and attracts more than 140 million participants 
(including nearly 40 million hunters and anglers), while creating more 
regulatory certainty for numerous industries. More specifically, funds 
from H.R. 4647 will be used to enhance wildlife-associated recreation.
    The Recovering America's Wildlife Act is good for conservation, 
good for sportsmen, good for the economy, and good for taxpayers. We 
encourage your strong support and look forward to working with you to 
move this bill through the legislative process.
    Thank you for your commitment to conservation.

            Sincerely,

        American Woodcock Society     National Wild Turkey Federation
        Archery Trade Association     National Wildlife Federation
        Assoc. of Fish and Wildlife 
        Agencies                      North American Grouse Partnership
        Boone and Crockett Club       Pheasants Forever
        Camp Fire Club of America     Professional Outfitters and 
                                      Guides of America
        Catch-A-Dream Foundation      Quail Forever
        Congressional Sportsmen's 
        Foundation                    Quality Deer Management 
                                      Association
        Conservation Force            Rocky Mountain Elk Foundation
        Council to Advance Hunting 
        and the Shooting Sports       Ruffed Grouse Society
        Dallas Safari Club            Texas Wildlife Association
        Delta Waterfowl Foundation    The Conservation Fund
        Ducks Unlimited               The Wildlife Society
        Houston Safari Club           Theodore Roosevelt Conservation 
                                      Partnership
        Izaak Walton League of 
        America                       Whitetails Unlimited
        Masters of Foxhounds 
        Association                   Wild Sheep Foundation
        Mule Deer Foundation          Wildlife Forever
        National Association of 
        Forest Service Retirees       Wildlife Management Institute
        National Bobwhite 
        Conservation Initiative       Wildlife Mississippi
        National Shooting Sports 
        Foundation

                                 ______
                                 

Rep. McClintock Submission

           National Park Service, Department of the Interior
 Statement for the Record on H.R. 4851, the Kennedy-King Establishment 
                              Act of 2018
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 4851, a bill to establish 
the Kennedy-King National Historic Site in the State of Indiana, and 
for other purposes.
    The Department would like to help provide greater recognition to 
the site proposed for designation in H.R. 4851. However, the National 
Park Service has no basis for knowing whether the proposed site meets 
the criteria for inclusion in the National Park System, as a special 
resource study has not been completed for the site.
    In addition, the National Park Service has a deferred maintenance 
backlog of over $11 billion. The Administration's focus is to reduce 
this backlog and to address other critical national park needs. For 
this reason, funding for new units to the national park system is not a 
priority in the Administration's FY2019 budget.
    H.R. 4851 commemorates the location where Robert F. Kennedy was to 
deliver a presidential campaign speech on April 4, 1968. Kennedy did 
not deliver his campaign speech; instead he gave an impromptu speech 
about the assassination of Dr. Martin Luther King, Jr. that had 
occurred that day just prior to his arrival. In his remarks, he called 
for unity, prayers, and a non-violent response to the news. The site is 
marked by the Landmark for Peace Memorial which was dedicated in 1994 
to honor Robert F. Kennedy and Dr. Martin Luther King, Jr.
    The Department would be happy to discuss with the sponsor and the 
committee other alternatives to increase public recognition of the 
site.

    Mr. Chairman, this concludes our statement.

                                 ______
                                 

Rep. Hanabusa Submissions

                               NATIONAL WILDLIFE FEDERATION

                                                  February 15, 2018

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20510.

Hon. Tom McClintock, Chairman,
Hon. Colleen Hanabusa, Ranking Member,
Federal Lands Subcommittee,
Washington, DC 20510.

    Dear Chairman Bishop, Ranking Member Grijalva, Chairman McClintock, 
Ranking Member Hanabusa, and members of the Committee:

    The undersigned hunting, fishing and conservation organizations 
write to share our perspective on H.R. 2591, Modernizing the Pittman-
Robertson Fund for Tomorrow's Needs Act.
    Our organizations work together as the National Wildlife 
Federation, founded in 1936 by hunters, anglers, and fellow 
conservationists. Our first major achievement was helping to lead the 
coalition supporting passage of the Federal Aid in Wildlife Restoration 
Act, better known as Pittman-Robertson (P-R), which since 1937 has 
funded professional wildlife management by state agencies through 
excise taxes on guns and ammunition purchased by the primary 
beneficiaries--hunters.
    The commitment of hunters and other purchasers of guns and 
ammunition to pay for the management of the wildlife we rely on has 
played an important role in supporting the North American Model of 
Wildlife Conservation for more than 80 years. The recovery of whitetail 
deer, elk, mule deer, pronghorn, bighorn sheep, wild turkey, and a 
range of waterfowl are all directly attributed in part to this funding 
source. Despite these many success, many wildlife populations are 
struggling and we urge Congress to provide more funding to state 
wildlife management--which is why we all support the Recovering 
America's Wildlife Act (H.R. 4647).
    This hunter (and angler) funding mechanism is unique among wildlife 
and natural resource stakeholders, and exemplifies the commitment of 
hunters (and anglers) to restoring and conserving wildlife. This 
funding model is, however, threatened by declining participation in 
hunting, and projected future declines as many current hunters age out 
of the sport. It has, on the other hand, been bolstered by a major 
increase in recreational shooting.

    The decline in hunters is a motivating purpose behind H.R. 2591. 
While we understand and support the goals of the legislation, we 
encourage the committee to make three specific changes to the bill:

  1.  Remove the reference to ``range construction''--shooting ranges 
            are already addressed more comprehensively by H.R. 788, the 
            Target Practice and Marksmanship Training Support Act, a 
            bill that would fund range construction, expansion, and 
            land acquisition.

  2.  Clarify that marketing and other forms of recruitment authorized 
            by this bill are an allowable use only from funds currently 
            allocated to P-R subaccounts Section 4(c) (Basic Hunter 
            Education); Section 10 (Enhanced Hunter Education); and 
            ``wildlife-associated recreation'' under Wildlife 
            Conservation and Restoration Programs.

  3.  Require reporting so states are tracking the effectiveness of 
            various recruitment and retention efforts and best 
            practices can be identified and replicated.
    We agree that it is critically important that we address the 
decline in hunters and state wildlife funding both for the future of 
conservation and for our domestic economy (wildlife is a foundation of 
America's $887 billion outdoor economy, which includes the $67 billion 
hunting economy). We believe that the three improvements to the bill 
that we've proposed will help achieve this goal, without fundamentally 
changing a program that has served us so well for so long.

            Sincerely,

        Arizona Wildlife Federation   Montana Wildlife Federation
        Conservation Federation of 
        Missouri                      National Wildlife Federation
        Florida Wildlife Federation   New Mexico Wildlife Federation
        Georgia Wildlife Federation   Nevada Wildlife Federation
        Idaho Wildlife Federation     North Carolina Wildlife 
                                      Federation
        Michigan United 
        Conservation Clubs            Wyoming Wildlife Federation
        Minnesota Conservation 
        Federation

                                 ______
                                 

        THEODORE ROOSEVELT CONSERVATION PARTNERSHIP

                                                  February 14, 2018

Hon. Tom McClintock, Chairman,
Hon. Colleen Hanabusa, Ranking Member,
House Subcommittee on Federal Lands,
Washington, DC 20515.

    Dear Chairman McClintock and Ranking Member Hanabusa:

    On behalf of the Theodore Roosevelt Conservation Partnership 
(TRCP), a coalition of 56 sportsmen, conservation, and outdoor industry 
organizations, I am writing in support of the bipartisan Recovering 
America's Wildlife Act (H.R. 4647), introduced by Representatives Jeff 
Fortenberry (R-Neb.) and Debbie Dingell (D-Mich.).
    In 2016, the Blue Ribbon Panel on Sustaining America's Diverse Fish 
& Wildlife Resources, made up of sportsmen and women, outdoor industry 
leaders, state fish and wildlife agency officials, conservation groups, 
and business visionaries, joined together in developing a funding 
strategy that best identifies ways to restore habitat for species of 
greatest conservation need and enhance hunting and fishing 
opportunities. The recommendations the panel developed were the driver 
for the development of H.R. 4647, a bill that invests oil and gas 
revenues to improve critical habitat for countless species.
    H.R. 4647 dedicates $1.3 billion annually to the existing state-led 
Wildlife Conservation Restoration Program that provides state fish and 
wildlife agencies and local communities with collaborative tools to 
preempt habitat decline and economic uncertainty for local businesses 
that depend on the health of the outdoors. The funds will strengthen 
conservation efforts and boost the outdoor recreation economy, which 
generates more than $887 billion annually in America. This important 
and bipartisan legislation will begin to meet the future needs of 
America's unique fish and wildlife resources and will provide much 
needed capacity to our state fish and wildlife agencies, who are on the 
front lines of conservation.
    Thank you for the opportunity to provide this written testimony, 
and I urge you and your colleagues to work toward swift passage of H.R. 
4647.

            Sincerely,

                                             Whit Fosburgh,
                                                 President and CEO.

                                 ______
                                 

        THEODORE ROOSEVELT CONSERVATION PARTNERSHIP

                                                  February 14, 2018

Hon. Tom McClintock, Chairman,
Hon. Colleen Hanabusa, Ranking Member,
House Subcommittee on Federal Lands,
Washington, DC 20515.

    Dear Chairman McClintock and Ranking Member Hanabusa:

    On behalf of the Theodore Roosevelt Conservation Partnership 
(TRCP), a coalition of 56 sportsmen, conservation, and outdoor industry 
organizations, I am writing in support of the bipartisan Modernizing 
the Pittman-Robertson Fund for Tomorrow's Needs Act of 2017 (H.R. 
2591), introduced by Representatives Austin Scott (R-Ga.), Marc Veasey 
(D-Texas), Jeff Duncan (R-S.C.), and Gene Green (D-Texas).
    The Pittman-Robertson Wildlife Restoration Fund provides grants to 
state fish and wildlife agencies for hunter education programs, 
wildlife conservation efforts, and public shooting ranges. The fund 
receives excise taxes from the purchase of hunting and archery 
equipment, without a single dime from federal tax coffers. In order to 
maintain adequate funding to meet the conservation needs of each state, 
we must reverse recent trends and ensure a steadily growing population 
of active hunters.
    According to the U.S. Fish and Wildlife Service, between 2011 and 
2016, our population of hunters shrunk by 16 percent nationwide, while 
hunters' total spending declined by nearly one-third. These findings, 
should they become a trend, represent a threat to our nation's hunting 
legacy and the wildlife on which it depends. Unfortunately, states are 
currently restricted from using Pittman-Robertson funds for activities 
to recruit, retain, and reactive (R3) our nation's hunters.
    H.R. 2591 is a step in the right direction. This legislation 
modernizes the Pittman-Robertson fund to allow promotion of hunting the 
same way we utilize excise tax revenues to promote fishing and boating, 
to bring hunter education and licensing systems into the 21st century, 
and addresses serious threats to wildlife conservation.
    Thank you for the opportunity to provide this written testimony, 
and I urge you and your colleagues to work toward swift passage of H.R. 
2591.

            Sincerely,

                                             Whit Fosburgh,
                                                 President and CEO.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Mr. Ziehmer Submission

    --Sustaining and Connecting People to Fish and Wildlife: A 
            Looming Crisis Can be Avoided, A Recommendation of 
            the Blue Ribbon Panel on Sustaining America's 
            Diverse Fish and Wildlife Resources, Report by the 
            Association of Fish & Wildlife Agencies.

Rep. Hanabusa Submission

    --Letter from a group of wildlife defenders who support 
            dedicated funding to recover America's fish and 
            wildlife dated February 14, 2018.

Rep. Lowenthal Submission

    --Letter addressed to Chairman McClintock and Ranking 
            Member Hanabusa from Dr. John E. McDonald, Jr., 
            President, The Wildlife Society regarding H.R. 2591 
            and H.R. 4647 dated February 15, 2018.

                                 [all]
</pre></body></html>
